<html>
<title> - OREGON FORESTS</title>
<body><pre>[Senate Hearing 111-682]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-682
 
                             OREGON FORESTS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY ON S. 2895, TO RESTORE FOREST LANDSCAPES, PROTECT OLD 
GROWTH FORESTS, AND MANAGE NATIONAL FORESTS IN THE EASTSIDE FORESTS OF 
              THE STATE OF OREGON, AND FOR OTHER PURPOSES

                               __________

                         BEND, OR, JUNE 4, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
61-825                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Carrier, Michael, Natural Resources Policy Director, Office of 
  the Governor, Salem, OR........................................     4
Franklin, Jerry F., Professor, Ecosystem Science, School of 
  Forest Resources, University of Washington.....................    20
Hoeflich, Russell, Vice President and Oregon Director, The Nature 
  Conservancy....................................................    31
Insko, Tom, Region Manager, Boise Cascade, LLC...................    24
Lillebo, Tim, Eastern Oregon Field Representative, Oregon Wild...    34
Maluski, Ivan, Conservation Program Coordinator, Oregon Chapter 
  Sierra Club....................................................    58
Smith, Stanley, Chairman, Confederated Tribes of Warm Springs....    14
Unger, Alan, Deschutes County Commissioner.......................     1
Walls, James K., Executive Director, Lake County Resources 
  Initiative.....................................................    28
Webb, Hon. Mark, Grant County Judge..............................     9
Williams, King, Member, Gazelle Land & Timber, LLC...............    43
Woodward, Craig, Owner, Woodward Companies, Prineville, OR.......    54
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    73

                              Appendix II

Additional material submitted for the record.....................    75


                             OREGON FORESTS

                              ----------                              


                          FRIDAY, JUNE 4, 2010

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                          Bend, OR.
    The subcommittee met, pursuant to notice, at 1 p.m. in the 
Barnes Room of the Deschutes Public Services Center Building, 
1300 NW Wall Street, Bend, Oregon, Hon. Ron Wyden presiding.

     STATEMENT OF ALAN UNGER, DESCHUTES COUNTY COMMISSIONER

    Mr. Unger. Hello, my name is Alan Unger, your Deschutes 
County Commissioner. I'd like to welcome Senator Ron Wyden to 
Central Oregon. I want to thank Ron for bringing the U.S. 
Senate Subcommittee on Public Lands and Forests to the heart of 
the area affected by this legislation. Eighty percent of 
Deschutes County is in public ownership. We need a Federal 
solution that all in Oregon will benefit from.
    Senator, your bipartisan approach that brings all to the 
table to find a solution is an example to all in Washington. 
It's a formula for success and we all benefit by your 
leadership.
    Welcome to Central Oregon.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. Alan, thank you very much for that really 
gracious introduction, and to all of you for giving up some 
time on a gorgeous Friday afternoon to come on out, and really 
appreciate it. I think you're going to feel that this is, 
particularly listening to all of the folks who are going to 
testify today, this is the way you ought to try to move forward 
on major issues, where folks are working together and trying to 
reach out and find common ground.
    So with that, we will bring the subcommittee to order this 
afternoon. The Senate Subcommittee on Public Lands and Forests 
is meeting in beautiful Bend, Oregon.
    This week, folks, has been all about jobs. I started it off 
at a bio-refinery in Boardman. They're talking about 250 good 
paying jobs there, it is going to be a cellulosic ethanol 
facility. Eventually we think it's going to grow into a major 
biomass plant, because it bumps right up against the Umatilla 
National Forest. So this is an opportunity to create greener, 
better jobs for the future, and that's how we started the week.
    After that, we went next to Shepherds Flat, which is of 
course in Eastern Oregon, where there's going to be a new 
windmill project, possibly the largest windmill project in the 
world in Eastern Oregon, not in the United States, but in the 
world, another huge shot in the arm for the Oregon economy. The 
Oregon Congressional delegation there had a big challenge 
trying to deal with the Defense Department. It was a challenge, 
largely because they'd never had to deal with these kinds of 
issues in the past, and we made the case that this country 
could have both national security and energy security, and we 
were able to get that approved.
    Yesterday, as you may have seen, the Oregon Congressional 
delegation was in Newport, on the Oregon coast, where we 
announced that the government has entered into a final 
determination that Newport is the best place for a major 
research facility, 175 new jobs in Newport. Nobody thought 
Oregon could pull that off, either. They scoffed at us when 
they thought that little David in the Oregon coast area could 
take on the Goliath up north. I said people who thought we 
could win on the Oregon coast, they were probably just folks 
who were a few fish short of their limit. Yet, once again, 
Oregon prevailed.
    So, that's how we started this week, and today we're going 
to turn to the question of trying to do the same kind of 
cooperative effort, this time in the forestry sector, building 
a partnership between the private sector, State officials, 
local officials, and of course, the Federal Government.
    So the task today is to look at how to create new good-
paying jobs in the woods, and particularly with a focus on 
eastern and central Oregon. My view is, we've got a lot to work 
with, because of the supportive coalition that has come 
together for this legislation, a coalition that this State has 
not seen in more than two decades of debating where to go in 
the forestry area. We now have support, through this coalition, 
from timber groups, such as the American Forest Resources 
Council, the Logging Company, Boise-Cascade, and our own John 
Shelk of Ochoco, here in Central Oregon. Environmental groups, 
Defenders of Wildlife, the National Center for Conservation 
Science and Policy, and Pacific Rivers Council, all join this 
effort as well, from the environmental community.
    So today we're going to get testimony on the legislation, 
S. 2895, that these groups have all come together that is--
behind to get saw logs to the mills, restore and create jobs, 
get the forest healthy again, and protect our treasured old 
growth.
    I'm very pleased that Senator Merkley has already signed on 
as a co-sponsor of this legislation, and it's my intent to work 
very closely with the entire Oregon Congressional delegation to 
get this legislation passed in this Congress.
    Many of you know that folks worked on this bill for many, 
many months, and to get the coalition that we announced last 
December, to have timber executives standing shoulder to 
shoulder with leaders of the Oregon environmental community, 
everyone had to say it was time to break the gridlock. With 
each passing month, this group recognized that the failure to 
address the needs of Oregon's increasingly unhealthy forest 
meant that they grow more and more at risk, at risk of 
preventable fire, insect infestation, and disease.
    My own take about this debate that has gone on for decades, 
is that each side in the timber wars has now armed itself 
politically, so that they are sufficiently musculared to 
survive, but never quite in a position to succeed. So as a 
result, we've got millions of acres of choked at-risk Federal 
forests in desperate need of management. Millions of acres of 
old growth are now in danger of dying from disease, insects, or 
fire, while the infrastructure of forestry, our mills and our 
loggers, and the jobs that go with them, have been walking on 
an economic tightrope with an uncertain future.
    My own view is, unless there are fundamental changes, 
economic and environmental dangers that result from the lack of 
attention to these issues is going to grow in the years ahead. 
The fact is, in Eastern Oregon, there are now only a handful of 
mills remaining. Unless there is greater certainty of timber 
supply and an immediate increase in merchantable timber, more 
mills are going to close. If that happens, eastside forests and 
the communities that depend on them, pay a huge price. Oregon's 
eastside forests need every mill left, because without the 
mills to restore the old process to saw logs and other 
merchantable material from forest restoration projects, you 
can't have restoration of the eastside forests. That's what 
we're trying to fix in this hearing today.
    Looking out at folks, and I see them in the first few rows, 
some of the witnesses, I can remember them going at it year 
after year after year, fighting each other, you know, nonstop, 
and can now see that they're coming together to protect our 
forests, communities, jobs, and mills. It's my view that 
looking at these folks just in the first few rows, there's real 
reason to be hopeful about turning things around in the woods.
    The work of this coalition, by the way, is not just going 
to be good for the Federal lands, but will also be good for the 
land owners on the private lands that are impacted by fire, 
insect, and disease. The point of this legislation is to help 
make the Federal forests good neighbors to all the private land 
owners. The bill would provide an immediate supply of logs in 
the short-term to jumpstart restoration efforts and keep the 
mills alive. Obviously, job one has to be saving the remaining 
mills and loggers, the infrastructure of forestry, and at the 
same time, looking over the long term to provide the certainty 
required to restore each of the 6 eastside national forests.
    Nobody thinks that this road is just going to be 
immediately cleared out of political challenges. For this 
reason, we have come together as a coalition to make sure that 
we're going to address some of the key points of consensus. In 
this coalition, it's very clear that you have to have adequate 
Federal funding to properly manage and restore the forests to 
their health. So this coalition is going to join me and other 
Members of the Congressional delegation to secure the funding 
that is needed to manage our forests.
    I'm also pleased that the administration included, at my 
request, $50 million in the budget to support the kind of 
collaborative projects we envision through the Priority Job 
Stabilization and Watershed Initiative.
    We're going to go to our first panel of witnesses now, but 
a couple of administrative chores. A lot of folks have been 
trying to figure out whether this is another one of our town 
hall meetings. It is not a town hall meeting, only because it's 
important that we get an official hearing of the subcommittee 
on the record in Central Oregon. Many of you know I've had more 
than 550 town hall meetings over my time, representing and the 
U.S. Senate. We will have plenty of them in the days ahead. 
This is an opportunity for a formal subcommittee hearing. We're 
going to take testimony from witnesses, and we also want folks 
who would like to submit written testimony for the hearing 
record, can do so by sending it to the subcommittee in 
Washington or to one of our offices here in Oregon. We also 
have 3 of the best staffers in the solar system here. We have 
Michelle, we have Frank, and we have Scott, they're all very 
good. Feel free to call them nights and weekends, take all 
their free time.
    [Laughter.]
    Senator Wyden. They're outstanding public servants and 
really appreciate all 3 of them coming out.
    So, let's go right to our witnesses. Michael Carrier is 
here from the Governor's Office, the Honorable Mark Webb of 
Grant County is here, from Canyon City, and the Honorable 
Stanley Smith, representing the Confederated Tribes. If all 3 
of you will come forward, we can get started. We really 
appreciate everybody coming. I'm going to make your prepared 
remarks a part of the hearing record in their entirety. Why 
don't you just take maybe 5 minutes or so and summarize your 
principle concerns.
    Let's begin with you, Mr. Carrier.

    STATEMENT OF MICHAEL CARRIER, NATURAL RESOURCES POLICY 
          DIRECTOR, OFFICE OF THE GOVERNOR, SALEM, OR

    Mr. Carrier. Senator, thank you so much for introducing S. 
2895 and for holding this hearing today. Thank you especially 
for the opportunity to offer testimony in support of S. 2895.
    Governor Ted Kulongoski has offered his strong support for 
your legislation, and my testimony today is offered in his 
behalf.
    With half of Oregon in Federal ownership and half of that 
ownership in forest land, the subject of this bill is highest 
importance to the Governor, and it has been so important to him 
for the past 8 years, that several years ago he asked our State 
Board of Forestry to start advising him on how the State could 
assist in increasing the capacity to improve management of our 
Federal lands.
    The State Board of Forestry created a body called the 
Federal Forest Advisory Committee made up of a diverse number 
of agencies, Federal, State, staff, and other stakeholders. 
They published a report over a year ago with a suite of 
recommendations and findings. I want to summarize those because 
I wanted to get them into the record because they build the 
case that you just built in your introductory remarks about why 
this legislation is so important to Oregon and why it's in 
Oregon's interest to support this.
    But the committee identified 2 major categories of problems 
that our Federal forest lands face in Oregon today, problems of 
place and overarching problems. The first category, the 
problems of place, generally describe the issues and problems 
associated with the resource itself and the landscape on which 
it's located. The second, the overarching problems, talk about 
the policy and legacy management issues and problems.
    With regard to the problems of place, of course forest 
health was the No. 1 problem. Forest health and resiliency has 
declined, they have declined in Oregon's Federal forests. 
Aerial surveys conducted by the Forest Service Center, our own 
Department of Forestry showed dramatic upward trend in insect 
damage in the last 10 years alone, and included in my 
testimony, I think available to you are some slides, eight 
slides in color, that amplify the remarks that I'm going to 
offer.
    The 2008 survey showed almost a million acres of forest 
land damaged by bark beetle, defoliators, and sap feeding 
insects. In Eastern Oregon alone, more than half a million 
acres have been damaged by mountain pine bark beetle. There are 
an estimate 11 million of overstock forest land in Oregon, 
outside of wilderness and roadless areas that have missed fire 
cycles and now are in moderate to severe danger of losing key 
ecological functions due to uncharacteristic wildfires.
    The second category, second area under the problems of 
place is reduced timber harvest, you mentioned this, especially 
off of Federal lands. This has led to a decline in the forest 
industry, in the infrastructure, as you stated. The intended 
consequence is social losses to our rural communities, 
including receipts from timber use to support roads and 
schools.
    The Forest Service manages almost three-fourths of the 
timberland in eastern Oregon. This is a near monopoly. We can't 
do with out this resource and without its contribution to our 
economy here. Without those Federal timber harvests, private 
forestland owners, as you mentioned, will lose access to 
competitive timber markets and may convert their land to other 
uses.
    Oregon, as you said, is losing the infrastructure on the 
east side, and we need that infrastructure to continue properly 
managing these eastern forests. Between 1990 and 2008, we lost 
38 mills in eastern Oregon alone. In 2009, we were down to 
eight saw mills and two plywood mills in eastern Oregon. Since 
1990, unemployment rates in the timber-dependant communities of 
eastern Oregon have dramatically exceeded the State average. In 
August 2009, unemployment in eastern Oregon was greater than 10 
percent in most counties and exceeded 15 percent in 6 counties, 
and approached 20 percent in 2 counties.
    Then the last subcategory of the problems of place is the 
desired amount of older forest, which your bill very succinctly 
addresses. The amount forest on Federal lands, older forest on 
Federal lands, needs to be established and protected as a 
component of sustainable forest management. We've had a 16 
percent decline in the amount of large ponderosa pine, greater 
than 21 inches, since 2001. Think of that. In the last 9 years, 
a 16 percent decline, largely a function of mortality caused by 
insects, fire, and crowding in overstocked stands.
    Now with regard to the second major category, the 
overarching problems, there are 4 things the committee 
identified, law, policies, and court decisions that govern 
Federal forest lands have created a set of discordant goals. We 
need to correct those and align them. Second, forest management 
in the past had changing public values, lack of clear widely 
accepted goals today, repeated court challenges, and the 
inability to implement decisions have eroded trust and 
confidence in our ability to get the job done. Third, Federal, 
State, local, and travel governments lack an effective process 
to collaborate and coordinate policy, which again, your bill 
addresses. Finally, funding is not adequate.
    I've included with my testimony, and put into the record, a 
recent report from the Oregon Forest Resource Institute, called 
Federal Forest Land in Oregon.
    I'll wrap up here, Scott.
    I hope you have an opportunity, along with the 
subcommittee, to look at that report, because it very 
succinctly describes the findings that our advisory committee 
arrived at.
    I just want to say that in so many ways, your bill, S. 
2895, addresses all of the issues and problems that I've 
identified in my testimony.
    In conclusion, I would say it does correctly approach this 
problem State by State. I know there's been some concern about 
that, particularly within the Forest Service. In recognition 
that the magnitude of this problem of our Federal forest lands 
and the crisis that it represents is beyond our capacity to 
fund and manage a single initiative nationwide. Your bill 
strives to address these problems, beginning in Oregon where I 
think we can be a model for the rest of the Nation on how to 
get it right.
    Senator, thank you.
    [The prepared statement of Mr. Carrier follows:]

    Prepared Statement of Michael Carrier, Natural Resources Policy 
              Director, Office of the Governor, Salem, OR

    Thank you for the opportunity to offer testimony in support of S. 
2895, the Oregon Eastside Forests Restoration, Old Growth Protection 
and Jobs Act of 2009. Governor Ted Kulongoski has offered his strong 
support for this bill and my testimony is offered in his behalf. With 
half of Oregon in federal ownership and half of that ownership in 
forestland, the subject of this bill is of highest importance to the 
Governor.
    In October of 2004 Governor Kulongoski directed the Oregon State 
Board of Forestry to ``create a unified vision of how federal lands 
should contribute'' to the sustainability of Oregon's forests. The 
Board created the Federal Forestlands Advisory Committee (FFAC) to 
accomplish this task. The FFAC included board members from natural 
resources agencies, Forest Service and Bureau of Land Management staff, 
members of the conservation community, leaders in the forest industry, 
local government officials as well as representatives of labor, tribes 
and other interests. The FFAC held numerous meetings to engage the 
public, government officials, and the scientific community; collect 
information; review pertinent documents; discuss concerns and ideas; 
and formulate solutions. Their final report offers a number of 
consensus-based recommendations to improve the sustainability of 
Oregon's federal forestlands.
    The FFAC quickly identified many of the same problems that S. 2895 
seeks to address. These problems were divided into two broad 
categories; Problems of Place and Overarching Problems. The first 
category generally describes issues and problems with the forest 
resource itself whereas the second category addresses policy and legacy 
management issues and problems.
    The most pressing Problems of Place include:

          1. Forest health and resiliency have declined in Oregon's 
        federal forests. Specific problems vary, depending on the type 
        and location of forests. The manifestations of degraded forest 
        health are most extreme in the dry forest types (eastern and 
        southwestern Oregon) where overstocked forest stands have 
        resulted in unprecedented landscape-scale problems like 
        uncharacteristic wildfire and insect epidemics that may result 
        in the loss of key ecological components.
          Aerial surveys conducted by the USFS and Oregon Department of 
        Forestry (ODF) show a dramatic upward trend in insect damage 
        over the last 10 years. (Slides 1 and 2).* The 2008 surveys 
        show almost a million acres of forestland damaged by bark 
        beetles, defoliators, and sap-feeding insects. In eastern 
        Oregon more than half a million acres were damaged by the 
        mountain pine beetle alone.
---------------------------------------------------------------------------
    * Slides 1-8 have been retained in subcommittee files.
---------------------------------------------------------------------------
          There are an estimated 11 million acres of over-stocked 
        national forest lands in Oregon--outside of wilderness and 
        roadless areas--that have missed fire cycles and are in 
        moderate to severe danger of losing key ecological functions 
        due to uncharacteristic wildfires. (Slide 3). The Nature 
        Conservancy estimates that federal managers need to increase 
        treatment rates nearly fivefold in Oregon over the next 20-25 
        years to address this issue.
          2. Reduced timber harvest from federal forestlands has led to 
        a decline in forest industry infrastructure, with unintended 
        economic and social losses to rural communities, including 
        receipts from timber used to support roads and schools. (Slide 
        4)
          The Forest Service manages almost three-fourths of the 
        timberland in eastern Oregon. This is a near monopoly. Without 
        federal timber harvests, private forestland owners will lose 
        access to competitive timber markets and may convert their land 
        to other uses (Slide 5). Timber harvest from Forest Service 
        lands in eastern Oregon are about 10 percent of what they were 
        historically. For example, annual timber harvest in the Blue 
        Mountains has averaged less than 50 million board feet for the 
        last 10 years, while between 1962 and 1991 it exceeded 537 
        million board feet.
          Oregon is losing the infrastructure needed to manage the 
        forests in eastern Oregon. Between 1990 and 2008, 38 mills 
        closed in eastern Oregon. In 2009, we were down to eight saw 
        mills and two plywood mills buying logs in eastern Oregon. 
        Without this infrastructure the cost of treatments for 
        practices like fuel reduction will be much more expensive to 
        accomplish. (Slide 6).
          Since 1990 unemployment rates in the timber dependent 
        communities of eastern Oregon have dramatically exceeded the 
        state average. In August of 2009, unemployment in eastern 
        Oregon was greater than 10 percent in most counties, exceeded 
        15 percent in six counties, and approached 20 percent in two 
        counties. (Slides 7 and 8).
          3. The desired amount of older forests on federal forestlands 
        needs to be established and protected as a component of 
        sustainable forest management. A well-balanced program of 
        forest management activities is necessary to maintain the mix 
        of successional stages and vegetation conditions that provides 
        for the full diversity of habitats and species.
          Loss of older forest habitat--Oregon has had a 16 percent 
        decline in the amount of large Ponderosa pine (greater than 21 
        inch diameter) since 2001. This loss is largely a function of 
        mortality caused by, insects, fire and crowding in overstocked 
        stands. The current strategy of reserves and harvest diameter 
        limits is not achieving the older forest goals. Other options 
        that include active management should be considered.

    The Overarching Problems that affect our ability to adequately 
address the above problems include:

          1. Laws, policies, and court decisions that govern federal 
        forestlands have led to a collection of discordant goals and 
        mandates that often work at cross purposes and inhibit agencies 
        from reacting decisively to issues such as declining forest 
        health. This confusion complicates rather than solves the need 
        to integrate social, economic, and environmental values.
          2. Past forest management, changing public values, lack of 
        clear, widely-accepted goals, repeated court challenges, and 
        the inability to implement decisions have led to a lack of 
        trust between stakeholders and federal forestland management 
        and regulatory agencies.
          3. Federal, state, local and tribal governments lack an 
        effective process to coordinate policy decisions and achieve 
        landscape-scale objectives.
          4. Funding is not adequate or appropriately allocated to 
        achieve land management objectives on federal forestlands. 
        Adequate and more stable funding sources are necessary to 
        achieve long-term management goals and sustainability.

    A recent special report, Federal Forestland in Oregon, published by 
the Oregon Forest Resources Institute, mirrors the analysis and 
findings of the FFAC and reinforces its recommendations. Copies of that 
report are available today for members of the Subcommittee and I have 
submitted an electronic copy to committee staff along with my written 
testimony.
    I have spent quite a bit of time describing the FFAC findings 
because S. 2895 so closely aligns with those findings. Following are a 
few examples of that alignment:
    Many of the purposes in S. 2895 and the FFAC report are the same 
and include: creating an immediate, predictable, and increased timber 
flow; making our forests more resilient to climate change; protecting 
and restoring old growth forests; expediting actions that achieve 
ecological and economic benefits; promoting collaboration; streamlining 
administrative processes; and, restoring the health of forest and 
aquatic ecosystems.
    Both the FFAC report and S. 2895 concentrate on improving forest 
health as the central theme of action. The FFAC believes that taking 
action on forest health is of immediate concern and that long-term 
success solving the forest health problems will require solving related 
problems (i.e., timber harvest below sustainable levels, decreased 
infrastructure, continued conflict over the desired amount of older 
forests, lack of trust, and inadequate policy coordination).
    The management approach in S. 2895 mirrors the recommendations in 
the FFAC Report; i.e., assessing conditions across the landscape and 
then designing large scale projects to achieve objectives derived from 
the assessment. Forest health problems cover millions of acres and do 
not recognize political or ownership boundaries. In this context, the 
current federal forest planning model, which often approaches 
management on a 5000 to 10,000 acre scale, does not work well. The 
problem of scale is just one of its deficiencies. Time and process are 
also factors. The three national forests in the Blue Mountains of 
Oregon have been working for seven years to update a plan that is 
intended to last 10 to 15 years, and we are no closer to completion 
that when we started.
    The FFAC recommendations rely heavily on public involvement through 
local collaborative processes to increase trust and build support for 
management decisions. S. 2895 provides an expanded role for involvement 
of local collaborative groups in assessing management needs as well as 
in designing management projects.
    A key FFAC recommendation is to increase funding for management 
activities. The FFAC concluded that:

          Current funding is insufficient to provide basic stewardship 
        of the land and its resources, much less to offer a high level 
        of environmental, economic, social, and cultural benefits. 
        Declining budgets limit the agencies' ability to maintain staff 
        with the expertise required to conduct the services needed to 
        accomplish forest management objectives.

    S. 2895 would significantly increase funding for management 
activities by authorizing $50 million and allowing for retention of 
harvest receipts to be applied to additional management. The FFAC 
Report expresses a real sense of urgency:

          What happens on these lands is of vital importance to 
        Oregonians and the Nation. It is also clear that time is not on 
        our side. Unless decisive steps are taken soon, we risk 
        accelerated loss of important habitat for animal and plant 
        species, further degradation of air and water quality, loss of 
        aquatic species, including native fish, and continued decline 
        in community well-being, among other things.

    S. 2895 expresses this urgent need to act now, not later.
    In conclusion, S. 2895 correctly approaches the problem, state-by-
state, in recognition that the magnitude of the national federal forest 
health crisis is beyond our capacity to fund and manage in a single 
initiative. And while we must strive to address these problems 
everywhere they exist, S. 2895 offers a unique opportunity to show the 
nation a way forward.

    Senator Wyden. Thank you, Mr. Carrier, and we'll have some 
questions for you in a moment.
    That last point that you made is a particularly important 
one, and these 3 staff folks have been wrestling with this, and 
I have as well at some length. It's clear when you look at 
forestry policy, it would be wonderful to be able to just step 
back and write one bill that would recreate the system so that 
it worked in every nook and cranny of the land. Regrettably 
there isn't enough time to do that. In other words, we're 
looking at the prospect, if you don't take action quickly, of 
losing all our remaining mills on the east side.
    So what we hope to do on this subcommittee is work with 
Democrats and Republicans to see if we can create what I think 
appropriately would be called some pilot projects, projects 
that would be significant in terms of really getting at these 
questions for an individual State, such as getting saw logs to 
the mills, a serious thinning effort, protecting our 
environmental treasures, and at the same time allowing 
everybody in the country to learn from a relatively small 
number of pilot projects. We're going to examine that question 
at some length, but I can tell you, the point you've raised is 
a point that Michelle, Frank, and Scott have spent a lot of 
time on and we've had an extensive conversation with the Obama 
administration on this as well.
    I want to go right to Judge Webb, but I just--before you 
start, Judge Webb, I just want to say how proud we were of the 
resonance of Grant County earlier this year for the rejection 
of hatred in your community. I know the Aryan Nations, the neo-
Nazi group--let's have a round of applause for Judge Webb.
    [Applause.]
    Senator Wyden. His community rose as one to rally against 
hatred, and Judge, you can see that you certainly have our 
affection and esteem for doing it.
    So, we'll make your prepared remarks part of the record, 
and you proceed as you would like.

        STATEMENT OF HON. MARK WEBB, GRANT COUNTY JUDGE

    Judge Webb. I do want to thank you for the opportunity to 
comment on S. 2895, especially as I and some of the other 
residents in my county have some concerns, so I do appreciate 
that.
    There's no doubt, as Mr. Carrier said, that something needs 
to be done, both in terms of forest health and community 
health. I actually think that putting ecological resilience 
front and center, like this bill attempts to do, is exactly the 
right course to take. I actually think that if you did that, 
you might be in a position to rewrite more the legislation, 
like you talked about, with something that would quite 
centrally apply across the board, but that would be a fuller 
discussion.
    Nevertheless, I do have serious concerns about the 
legislation in its current form. In particular, and this comes 
out of a context for the last 3 years being in county 
government, before that being a contractor in the woods. I've 
evaluated, thought about this legislation, in terms of 
litigation. I actually think that, in addition to funding 
shortfalls, that litigation is the critical challenge facing 
Federal forest land management. My concern, and the concern to 
many of my constituents, is that this bill not only doesn't 
address that, it probably will strengthen the ability of 
individuals to litigate and shut down projects, that's our 
concern.
    So, I'll just read now some prepared statements. Past 
management practices, generally sanctioned by Congress and 
informed by the best available science of the time have 
compromised the health of federally managed lands in various 
ways, and the timber industry has been partner to this. But 
again, science, Congress, industry, we've got a past history 
there that we need to correct. However, litigation, 
particularly by environmentalists, over the last couple 
decades, coupled with its resulting lack of active management, 
has brought many of these lands to the brink of ecological 
disaster. Frankly, given where they started, we're in a far 
worse condition now than we were when we were logging. 
Unfortunately, S. 2895 not only fails to address this critical 
challenge, but will arguably strengthen it.
    I say this because while S. 2895 is strongly supported by 
some environmental organizations, but only some, this support 
reflects, at least in large part, a compromise position that is 
arguably purchased at the cost of additional, far-reaching 
protections. The bill introduces a new level of protection, new 
types of protection over existing protections that the Forest 
Service has to deal with. As a result, if passed, the bill will 
require the Forest Service to undergo even more regulatory and 
bureaucratic challenges as they attempt to implement the types 
of projects described in the bill. The new protections, with 
the bill's associated language, will provide new and ripe 
opportunities for litigation and strengthen the hand of 
environmentalists who are already so adept at litigating, who 
do not support this bill, and many do not, and who remain in 
principle opposed to responsible management on Federal lands, 
and many of these groups do remain opposed in principle to 
active management on Federal land, particularly when it has a 
commercial component. This is a bad mix, and it's one that the 
bill will empower.
    So just in brief, rather than going through all the other 
stuff I talked about in my written comments, I'd say this, S. 
2895 increases the scope and nature of the protections the 
Forest Service must deal with, but it does not provide the 
Forest Service with any new authorities. They can already do 
everything contained in the bill without the legislation, they 
can do everything in it, and they can do it easier because 
there are not the additional protections.
    As a result, it will make their work even more difficult 
and costly, but it will make that of environmentalists bent on 
stopping active management through litigation even more easy. 
This is a recipe for management failure, and it is why the bill 
should not be passed as it's currently written.
    I just want to stress again, we think you're going in the 
right direction, but we also think the bill need considerable 
revamping or it's going to open the Forest Service up to even 
more litigation, more process, more procedures, and even if you 
get the promised additional funding, it's not going to be well 
spent.
    So, just to finish, I would like to go back to the comment 
you made, and I think it is true, people in my community, some 
of the mills are very supportive of this bill, some of the 
environmentalists I respect are very supportive of this bill. 
You said that they've said it's time to break the gridlock, and 
I would agree, they would agree. My challenge would be this, if 
they really do believe that, we don't need a new piece of 
legislation. The Forest Service has the existing authorities it 
needs to do what's needed on the ground to bring forests back 
to ecological health, ecological resiliency.
    All we need is funding. That's what we should be working 
on, a different funding structure, different funding sources to 
fund the work that the forests should, in principle, already be 
able to do, but cannot do because of all the process, 
procedure, and litigation.
    I'll just leave it at that. That's my main concern, 
generally speaking, about the bill.
    [The prepared statement of Judge Webb follows:]
        Prepared Statement of Hon. Mark Webb, Grant County Judge
    I would like to thank you for the opportunity to comment on S. 
2895.
    I also want to thank Senator Wyden and his staff for their ongoing 
efforts to address issues relevant to forest and community health. 
Despite my concerns about the merits of S. 2895, I very much appreciate 
your efforts in this regard.

                          COMMENTS ON S. 2895

    Most people I know support the purposes for which the bill was 
crafted (p. 2-3). A number of Grant County residents support the bill, 
regardless of its content, largely for the funding it promises and the 
hope it creates that a more active, responsible era of federal land 
management is possible. However, many residents, me included, have 
serious concerns about the merits of this bill in its current form.
    Generally speaking, my concern is this: S. 2895 increases the scope 
and nature of the protections the Forest Service must deal with, but 
does not provide them with any new authorities. As a result it will 
make their work even more difficult, but that of environmentalists bent 
on stopping active management through litigation, even more easy. This 
is a recipe for management failure--and it is why the bill should not 
be passed as it's currently written.

                               LITIGATION

    Past management practices--generally sanctioned by Congress and 
informed by the best available science of the time--have compromised 
the health of federally managed lands in various ways. However, 
litigation over the last couple decades coupled with its resulting lack 
of active management has brought many of these lands to the brink of 
ecological disaster. As such litigation is the critical challenge 
compromising effective management of federal lands today. 
Unfortunately, S. 2895 not only fails to address this critical 
challenge, but will arguably strengthen it.
    I say this because while the bill is strongly supported some 
environmental organizations, this support reflects a compromise 
position that is arguably purchased at the cost of additional, far 
reaching protections. As a result, if passed, the bill will require the 
Forest Service to undergo even more regulatory and bureaucratic 
challenges as they attempt to implement the types of projects described 
in the bill. The new protections, with the bill's associated language, 
will provide new and ripe opportunities for litigation and strengthen 
the hand of environmentalists who are already so adept at litigating, 
who do not support the bill, and who remain in principle opposed to 
responsible management on federal lands. This is a bad mix, and one the 
bill will empower.

                 LITIGATION--SOME ``LANGUAGE'' PROBLEMS

    (1) The bill makes frequent, critical use of the notion of ``best 
available science''. Yet that phrase must always be understood against 
a background set of beliefs, assumptions, and perspectives about what 
counts as good science and what counts as relevant in any given 
situation. And that can vary enormously between scientific disciplines, 
and even between practitioners within the same discipline. The phrase 
will also mean one thing in a more theoretical, research oriented 
context and quite another in the applied context of actual forest work 
and responsible land management.
    In short, the phrase ``best available science'' lacks a single, 
univocal meaning that applies across the various disciplines and 
contexts of application this bill covers. Given the central role the 
phrase plays in the implementation of the bill, without further 
clarification it will constitute an important weakness that will be 
exploited by groups opposed to active management on federal lands.
    (2) The bill requires, within 5 years of its passage, the Secretary 
to dispense with the ``cutting limitations'' described in section 
4(b)'' of the bill (p. 45ff), and to ``prepare ecological restoration 
projects that are designed to use an age [class] limitation [rather 
than a diameter limitation] that prohibits the harvest of any tree the 
age of which is greater than 150 years'' (p. 45ff).
    This is confusing, for two reasons. One is that 4(b) essentially 
prohibits the ``removal'', or harvest, of any tree larger or smaller 
than 21 inches dbh unless certain ecological conditions are met 
(p.16ff). Ecological considerations in 4(b), not diameter limits, 
really determine what size trees can be removed. The bill essentially 
starts with an age class limitation despite its reference to diameters. 
The other reason is that the cutting limitations contained in 4(b), 
which the Secretary is supposed to dispense with, include precisely the 
kind of ecological considerations the bill is intended to promote.
    I'm confident this is not the bill's intent, but the bill's 
language appears to require it. The apparent lack of consistency in 
this regard will create serious problems for the design and 
implementation of projects.
    (3) The bill lays out specific goals for the areas covered and the 
projects undertaken. At one point the bill states ``the Secretary shall 
consider methodologies that could potentially help achieve . . . wood 
harvests to sustain adequate levels of industry infrastructure'' (p. 
14ff), while at another it states the projects ``shall provide a 
minimum quantity of timber based on the need to maintain a sustainable 
industrial capacity to perform the ecological restoration activities 
under this Act'' (p. 40ff).
    The potential problem here is that the meaning--hence practical 
implication--of phrases like `adequate levels', `minimum quantity', or 
`sustainable capacity' depends critically on the nature and scope of 
the activities undertaken. For example, the amount of industrial 
capacity needed to mechanically treat a 30,000 acre project that treats 
60% or more of the acres in the project--a reasonable expectation if 
restoring and maintaining ecological resiliency is the goal--will be 
significantly higher than if we treat those acres in a non-mechanical 
fashion, say by burning, or treat only 25% of these acres in whatever 
manner, as is common nowadays. Alternatively, what if we need to 
sustain a higher industrial capacity, just to have any industrial 
capacity whatsoever in the area to do restoration work, than what the 
advisory panel considers necessary to perform the scope and nature of 
work they deem appropriate? This is a practical problem that is sure to 
occur with far reaching implications on several fronts. Yet the bill 
provides no clear guidance or means by which to address it.
    There are other examples, but: As a piece of legislation that 
intends to change the direction and focus of eastside forest land 
management, create jobs, and help stabilize communities, the bill 
requires considerably more tightening up of its language and the 
consistency between its parts and sections if it is to see smooth and 
effective implementation.

                  LITIGATION--SOME REGULATORY CONCERNS

    (1) With some exceptions, the Forest Service currently prohibits 
harvesting trees 21 inches dbh or larger. Some environmental groups 
regularly threaten to sue, or litigate projects, in the attempt to move 
tree harvest size down to 14 inches dbh and less--i.e., to the 
economically less valuable trees. Often successful, such a move 
compromises the ecological value of the project because it prevents the 
Forest Service from implementing treatments that reduce to appropriate 
levels fuel loads or basal area. It also compromises their ability to 
underwrite the cost of work by reducing the amount merchantable 
material they can harvest from the projects.
    It is worth noting in this context that, unlike protected animals, 
large trees can't migrate and therefore populate areas that lack them. 
However, the ecological value of large trees can, in an important 
sense, be ``transferred'' to other areas that need treatment via the 
harvesting (where appropriate) and economic return provided by larger 
trees, which can then be used to underwrite treatments in other areas 
to restore or maintain ecological resilience.
    That said, S. 2895 will prohibit the harvest of trees 21 inches dbh 
or larger, as well as trees that are smaller than this, unless certain 
conditions are met. That is, the bill will essentially prohibit the 
harvesting of any trees whatsoever their size unless certain conditions 
are met. This prohibition probably represents an attempt to protect not 
only old growth trees, but also trees with old growth characteristics--
something environmentalists support. Whatever the motivation, this 
prohibition and its associated conditions will provide 
environmentalists with additional legal leverage to use as they 
litigate to stop the commercial harvest of any trees.
    The bill's prohibition on harvest will therefore complicate the 
Forest Service's job, increase the likelihood of successful litigation 
by environmentalists, and further compromise attempts to implement cost 
effective, ecologically appropriate treatments based in part on the 
quality and amount of merchantable material available per acre treated.
    (3) The bill enlarges the scope of PACFISH/INFISH. As such it 
ignores the growing body of evidence that indicates riparian habitat 
and returning numbers of listed fish on national forests are, generally 
speaking, trending upward. It ignores the fact that many of these areas 
themselves require active management if they are to be healthy again. 
And it ignores the fact that these areas are among the most productive 
timber lands available, such that treatment in these areas would be 
ecologically beneficial and economically advantageous. In short, there 
appears to be no compelling ecological reason to expand their scope, 
but several good reasons--both economic and ecological--to forego that 
move.
    Given this, arguably the only reason to expand the scope of PACFISH 
and INFISH is to secure support for the bill by environmentalists. This 
move, however, is a bad move and will further complicate the Forest 
Service's job as well as the cost of its projects, and further empower 
environmentalists who regularly litigate to stop commercial activity--
e.g. grazing--on federal lands.
    (4) The bill requires the Secretary to ``carry out implementation 
of each ecological project in a manner consistent with the advice of 
the advisory panel'' (p. 13). This assumes the panel's advice will 
always embody the ``best available science''--otherwise the bill 
wouldn't require the Secretary to act in a manner consistent with the 
panel's advice. The bill does not require the Secretary to do likewise 
with either Forest Service personnel or collaborative groups. This 
assumes that Forest Service personnel and collaborative groups lack the 
scientific know-how and practical expertise to implement sound 
restoration projects--otherwise the Secretary would be required to act 
in a manner consistent with their advice. Both assumptions are 
mistaken.
    In addition, the bill explicitly ascribes a number of 
responsibilities to the Advisory Panel. I would argue that it tacitly 
expects the panel will function to provide a ``unified'' scientific 
``voice'' to cut through the problems ``dueling'' science presents 
nowadays for project implementation and courtroom litigation. If so, 
this is an unlikely outcome for two reasons. One is that the bill does 
not imbue the advisory panel with the necessary scientific or legal 
weight required to put such matters to rest quickly, if at all, in the 
relevant contexts. The other is that at the project level, the 
scientific advice in question will amount to the application of 
science. As such, the ``right'' application of science in these 
contexts will vary according to the various goals, perspectives, and 
values of the scientific practitioners in question.
    The advisory panel is unlikely to function effectively as intended 
over the long-term. It will add to the bureaucratic and procedural 
challenges the Forest Service needs less of. There is therefore no good 
reason to craft a piece of legislation around such a concept or group.
    There are other examples, but to conclude: As a piece of 
legislation that promises to significantly enlarge the scope of work on 
eastside federal lands, and enhance and expedite the implementation of 
projects, the bill requires considerably more work if it is to be 
successfully implemented and we are to see healthier forests, more 
jobs, and more stable communities. To this end I would urge Senator 
Wyden's office to revisit the notion of ecological resiliency and more 
fully exploit its promise as the center piece of this bill and 
management efforts generally for eastside federal lands.

    Senator Wyden. Judge, thank you, and I'll have some 
questions in a moment. I obviously am very, very sympathetic to 
the kind of economic hurt that folks are going through in Grant 
County. As you know, I've been over there for something like 14 
town hall meetings over the years, and it just leaps out at you 
when you spend a couple of hours just listening to folks.
    One of the reasons that we do feel that it's important to 
build a coalition like this, I mean, this is the premiere 
forestry groups, the American Forest Resources Council, Boise-
Cascade, Ochoco, and leading environmental groups, is we 
haven't been able to get started. I mean, year after year after 
year we've been tied up in knots. I think you're absolutely 
right, with respect to this funding issue, which is why I 
pushed so hard and we were successful to get the $50 million 
included in the President's budget. But I do think we've got to 
get started and we've got to get started on some of they key 
issues, which you correctly addressed, this question of appeals 
and litigation.
    You look at section 9, you look at section 11 of the bill, 
they go right to that issue. Now, maybe we should work with 
folks and refine them. I can tell you that I've got some 
Democrats who think that we're doing too much to restrict 
appeals and litigation, and I respect your view that perhaps 
not enough has been done. But, I want you to know, to me, 
getting started is what this is about, so I'll have some 
questions in a moment.
    Mr. Smith.
    Judge Webb. Can I correct one thing? I'm not saying that I 
think you need to do with the existing appeal process and the 
like, what I was saying is that there seems to be a pretty 
strong correlation, the more protections you've got, the more 
litigation you're likely to face. This bill introduces more 
protections, so it's likely to open the door to more 
litigation. So, I'll leave it at that.
    Senator Wyden. I sure wouldn't see the country's premier 
timber industry groups going to press conferences for bills 
that are going to produce more litigation. That's what we had 
in December, we had the leading timber groups saying they felt 
it was important to get started. So, we'll have a debate some 
more on it, but I just so value the input coming from Grant 
County, and we're going to want to work very, very closely with 
you in the days ahead.
    Mr. Smith, welcome.

 STATEMENT OF STANLEY SMITH, CHAIRMAN, CONFEDERATED TRIBES OF 
                          WARM SPRINGS

    Mr. Smith. Good afternoon, Senator Wyden. I'm Stanley Buck 
Smith, I'm the Chairman of the Confederate Tribes of Warm 
Springs Reservation Oregon, and I appreciate the opportunity to 
be here today to offer comments, on behalf of the tribe, on the 
Eastside Forest Bill.
    Warm Springs Reservation includes large forested areas with 
significant tracks of commercial tribal timber. We manage these 
lands carefully to serve important varied economic and cultural 
values. The tribe has--the tribe also has a treaty reserved 
rights to hunt, fish, gather, and graze livestock on Federal 
lands outside of our reservation, including lands on the 
Deschutes, Ochoco, Malheur, and Umatilla National Forest. As 
you can see, the Warm Spring tribes have both expertise and the 
unique rights and interests to bring to the discussion of the 
managing Oregon's eastside forests.
    There is no disagreement that national forest lands here in 
central and eastern Oregon are seriously degraded and in 
crisis. Over the past decade and more, a variety of efforts 
have been made to try to address these problems. Clear success 
has been elusive and the health of our national forests 
continue to decline. Hopefully S. 2895 will reverse this 
situation.
    These ecosystems needs need to be returned to normal--to 
more natural conditions. It is important to recognize that 
the--for centuries, prior to you America settlement, tribes 
actively managed these forest lands. These management 
activities were highly sustainable. They supported habitat and 
watershed functions that provided food, fiber, shelter, and 
commerce for tribal communities. These include fish, game, 
traditional plants, among other things.
    The management of today's forest, the tribe has constantly 
stressed the need for certain fundamentals, these include sound 
science-based decisionmaking, collaborative and landscape scale 
planning, long-term stewardship contracting, creation of market 
through biomass utilization to assist forest health 
restoration, and monitoring to verify management outcomes, and 
drive adaptive management.
    We are pleased these elements are in the Eastside Forest 
Bill. S. 2895 is clearly the most involved, direct, detailed 
approach prescribed yet to improve forest health. Ultimately, 
while stockholder involvement is a hallmark of this 
legislation, it is incomplete. The bill omits specific 
inclusions of the tribes, the oldest stewards or Oregon's lands 
and resources. We have lived on and managed these lands and 
resources for tens of thousand of years. We have history, we 
have knowledge, we have unique rights interest on these lands. 
The tribe must be included in the bill's technical advisory 
panel to the other groups. The tribe values its positive 
working relationship with Federal resource managers and other 
neighbors.
    We believe that this bill, with minor modifications, can 
help to reinforce these successes. We look forward to working 
with Senator Wyden and joining and advancing S. 2895 to as much 
as a needed focus and attention can be brought to improve 
Oregon's Eastside National Forest.
    Thanks for allowing the Confederate Tribes of Warm Springs 
the opportunity to make our comments.
    [The prepared statement of Mr. Smith follows:]
 Prepared Statement of Stanley Smith, Chairman, Confederated Tribes of 
                              Warm Springs

    Mr. Chairman, I am Stanley Smith, Chairman of the Confederated 
Tribes of the Warm Springs Reservation of Oregon. I am here today to 
offer the Tribe's testimony on the Eastside Forests bill.
    The Tribe has significant interests in forest management on federal 
lands. The Warm Springs Reservation consists of approximately 640,000 
acres. 440,000 acres are forested and 300,000 are in commercial timber 
production. The Tribe also reserved important off-Reservation treaty 
rights to hunt, fish, gather and graze livestock on federal lands.
    While our Reservation is primarily bounded by the Mount Hood 
National Forest, which is not subject to S. 2895, the Deschutes 
National Forest is immediately adjacent to our southern boundary and 
our Treaty-ceded territory also includes lands in the Ochoco, Malheur, 
and Umatilla National Forests, and our Treaty reserved rights extend to 
those lands.
    The on-Reservation and off-Reservation forested lands are essential 
for providing watershed functions for clean water and habitat for fish 
and wildlife species. They are also an element of the Tribe's culture, 
vital for improving and sustaining the quality of life of Tribal 
members and they are a key support to the Tribe's self-governance and 
sovereignty. These values are recognized in federal policy--the Tribal 
Forest Protection Act--which the Tribe fully supports.
    Eastside forests are part of a fire-adapted ecology; however, 
several factors have combined to create conditions that make wildfires 
extremely hazardous. These ecosystems desperately need to be returned 
to a more natural condition--the bill's focus appears to be on 
conditions before Euro-American settlement.
    It is important to recognize, however, that for centuries prior to 
Euro-American settlement, tribal communities actively undertook forest 
land management activities. These management activities were highly 
sustainable--they supported habitat and watershed functions that 
provided food, fiber, shelter and commerce for tribal communities. This 
included fish, game, and traditional plants among others.
    The Tribe has commented many times in numerous forums stressing the 
need for:

  <bullet> sound science based decision-making,
  <bullet> collaborative and landscape scale planning,
  <bullet> long term stewardship contracting,
  <bullet> creation of a market through biomass utilization to assist 
        forest health restoration, and
  <bullet> monitoring to verify management outcomes and facilitate 
        adaptive management.

    The Tribe is pleased to see these elements included in the Eastside 
Forest bill. They are compatible with the Tribe's current efforts to 
advance its proposed biomass facility, to increase its direct 
management oversight on tribal resource lands, including forestry 
operations, and to engage with all our neighbors in efforts to better 
manage and preserve the lands and resources within our Treaty ceded 
territory.
    There is no disagreement that our National Forest lands throughout 
the west and particularly right here in central and eastern Oregon are 
seriously degraded and in crisis. Over the past decade and more, a 
variety of efforts have been made to try to address these problems. But 
unfortunately, clear success has been elusive. Gridlock remains, and 
the health of our National Forests continues to decline. In response, 
now comes S. 2895, the Oregon Eastside Forests Restoration, Old Growth 
Protection, and Jobs Act of 2009, the most involved, direct, and 
detailed approach yet to improving forest health. Like its 
predecessors, no one can predict how it it will turn out. It may work, 
and we hope it will, or it may not. But the exactitude of this bill is 
testament to the desperate circumstances Oregon's citizens and the U.S. 
Forest Service face in the care of these lands. So, too, is the fact 
that the conservation and forest products communities have come 
together to collaborate on this measure.
    Unfortunately, the collaboration that is a hallmark of this 
legislation is incomplete. The bill omits specific inclusion of the 
tribes, the oldest stewards of Oregon's lands and resources. We have 
lived on and managed these lands and resources for tens of thousands of 
years. We have history, we have knowledge, and we have unique rights 
and interests on these lands that we fought and negotiated for when the 
Europeans arrived. Now, with this legislation that seeks to return 
Oregon's eastside National Forests to something close to the state in 
which we left them to you, it is hard to understand why we have been 
omitted, particularly from the Advisory Panel and specific inclusion in 
the collaborative groups.
    Notable omissions in the bill include

  <bullet> the failure to recognize the need for tribal expertise on 
        the Technical Advisory Panel related to traditional plants and 
        management regimes;
  <bullet> the failure to require tribal participation in groups 
        seeking to become recognized collaborative groups by the 
        Secretary, especially when other local government participation 
        is required; and
  <bullet> the failure to otherwise clearly address traditional plants 
        and management practices in the landscape scale planning 
        process and restoration activities under the bill.

    In an effort to return forest conditions to a more natural state, 
the Tribe believes that it is necessary to understand pre-European 
settlement conditions and management practices and have a goal of 
improving the condition of these treaty resources--healthy fisheries, 
big game, cultural plants, among others--incorporated into restoration 
plans.
    Many resources that once existed, for example huckleberry or root 
fields, have been altered or crowded out by different species. Tribes 
must be involved and consulted technically in order to understand the 
location of these resources and the methods traditionally employed for 
management so that we can work together to have success in restoring 
them.
    The Tribe values its collaborative working relationship with 
federal resource managers and we believe that this bill, with minor 
modifications, can help to reinforce these successes. We look forward 
to working with Senator Wyden in joining and advancing S. 2895, so that 
the much needed focus and attention can be brought to improving 
Oregon's eastside National Forests.
    Thank for allowing the CTWS the opportunity to comment.

    Senator Wyden. Mr. Chairman, thank you very much for 
coming. I think it's fair to say you all have been a critical 
partner in the management of Federal lands. You've done an 
excellent job of managing your own lands, and with your 
successful biomass facility, I think your input is especially 
important right now, as we seek to expand biomass as a major 
jobs producer for our State. This is about greening up our 
power supply, putting our folks to work, and you all are a text 
book case of a biomass program that I think we can build on in 
the days ahead.
    What do you think is possible in terms of increased and 
improved management of Federal lands for your biomass program? 
Do you believe you could grow it 20 percent, 30 percent, what 
do you think is the potential here with improved management of 
Federal lands for your biomass program?
    Mr. Smith. I think we need to, actual--I think we--we can 
only probably produce 30 or 40 percent----
    Senator Wyden. More.
    Mr. Smith [continuing]. Then we'd be running out, yes.
    Senator Wyden. You could produce 30 or 40 percent more?
    Mr. Smith. Yes. We need the other forest, you know, we got 
to make it work and deal with that, you know, really to make it 
feasible to operate our biomass.
    Senator Wyden. Good. I could tell you, anybody who can 
increase their 30 or 40 percent of what they're doing, and 
they're talking about a promising industry of the future, that 
is--that is good news for folks in Oregon where the 
unemployment, of course, has been consistently higher than 
almost anywhere in the country. So, that is good news, Mr. 
Chairman.
    Tell me also, so we can nail this down, we tried to make 
sure that the tribe would be well represented in the advisory 
process. Are there some additional changes that you all are 
seeking in that area?
    Mr. Smith. You know Senator, I've been the chairman for 1 
month, so----
    Senator Wyden. Oh, you're a grizzled veteran.
    Mr. Smith. Yes, so that should say something, but you know, 
I know we've been working on this for a long time, and I fully 
don't have an answer to that. I don't know if my--John, do we 
have any comments on that?
    Senator Wyden. Extra points for candor, Mr. Chairman.
    Mr. Smith. Right.
    Senator Wyden. Given the fact you've been there for a 
month, we'll follow up with you for the record, but I want you 
to note that I want to be very sensitive to the point of making 
sure that we get the advisory functions of this bill right, so 
that the tribe is a full partner, a full and activist partner 
in this effort.
    As I said, I think your biomass contribution alone makes it 
clear that you are setting out some of the most promising 
ground for the rural Oregon economy, and we're going to work 
closely with you.
    Mr. Smith. Yes, our natural resources department handles 
most of that.
    Senator Wyden. Very good, we'll involve them as well.
    Let's go then to you, for a minute, Mr. Carrier, tell me a 
little bit about the work of the Federal Forest Advisory 
Committee, in other words, the State is obviously front and 
center on lands owned by the State, but tell me about the work 
with the Federal Forest Advisory Committee and how the State 
and the Federal Government interact.
    Mr. Carrier. Senator, thank you for that question, because 
that was the part of the Federal Forest Advisory Committee.
    Senator Wyden. I think we're----
    Mr. Carrier. I'm sorry, that was me turning it off, which I 
will learn not to do next time. There it is, it's on now.
    Senator Wyden. All right.
    Mr. Carrier. Senator, sorry.
    Thank you for asking the question because that was part of 
the work of the committee that I didn't get, was what were 
their recommendations and why was the Governor and the 
committee motivated to have the State take on this role of 
partnering with the Federal agencies to bring additional 
capacity to the Federal land management effort. It's because, 
as we all agree, the Federal footprint of these forest lands in 
Oregon is huge. The legacy of its contribution to our economy 
and to rural jobs is incredible. The loss of that capacity and 
those jobs and those benefits of those lands that we're 
experiencing is very pronounced, especially here on the east 
side.
    So, the advisory committee had 3 major categories of 
recommendations. The first was for the State legislature to 
make appropriations, additional appropriations to our State 
Department of Forestry, so we could have foresters available to 
assist in Federal land management activities. As you know, we, 
like most States, are in a severe budget situation right now. 
We weren't able to receive those appropriations, but 
fortuitously, a year ago when the Federal Stimulus legislation 
was passed, quite a bit of the Forest Service money came to 
this region for forest health work that the Forest Service 
didn't have the capacity to manage on its own, and about 40 FTE 
of State forestry staff that we would have otherwise laid off, 
we were able to move over under contract to the Forest Service 
to provide the very kind of assistance that the Federal Forest 
Advisory Committee had recommended the State has the 
opportunity to offer.
    The second area was for the Congress to adopt policy 
legislation and appropriations to bring additional capacity to 
these Federal land efforts. Much of what was in that 
recommendation of that committee is embodied in your bill, 
Senator.
    Then the third area was, because of the importance of 
collaborations and how they demonstrated the opportunity to 
bring peace and resolution to potential conflict over 
management is so important. There was a third category of 
recommendations in which Oregon would sponsor and partnership 
with the National Policy Consensus Center at Portland State 
University, a form to incubate, grow, support, and mature 
collaborations on Federal forest land management around Oregon. 
I'm happy to say, that that part continues to function. I 
convene every month a meeting, many of the people in this room 
are stakeholders that have joined in that collaboration and we 
have identified and are supporting and fostering the growth of 
collaborations as modeled in your legislation.
    Senator Wyden. What about landscape scale projects, that is 
a major focus of this legislation and I know this is an issue 
you all have been examining at the State level, as well. Can 
you elaborate there?
    Mr. Carrier. Yes, thank you, Senator. That was a major 
finding of the FFAC, was that the current Forest Service 
planning model does not work well in addressing landscape scale 
restoration and forest health needs. As you well know, forests 
don't recognize ownership or political boundaries, and the 
problems of forest health, insect and disease and catastrophic 
wild fires do not recognize those boundaries. We need to be 
treating these forests on a landscape scale.
    The current Forest Service planning model tends to treat 
management on 5 to 10 thousand acre blocks, and not of a 
landscape scale. So the committee recognized, as you have in 
your legislation, that we've got to start approaching 
management on a large landscape scale, so that was a major 
finding and recommendation.
    Senator Wyden. OK.
    Judge Webb, question for you. One of the big areas of focus 
for this coalition was to find a way to jumpstart some very 
tangible progress. In other words, we've gone on for years and 
years and years with this gridlock and simply been unable to 
move forward. I share your view, as we've talked about, that 
funding is absolutely key to all this, that was the point of 
pushing in the Obama administration. I share your view with 
respect to litigation and appeals, that's why we have 
provisions there. But give me your thoughts on how you would 
jumpstart a major thinning and restoration effort, getting saw 
logs to the mills, without something like we have in this 
legislation?
    In other words, you've made the argument, and it's one that 
I've thought a lot about, that gosh, if they just give us the 
money everything's going to come out fine. But it seems to me 
there's still a big challenge with the gridlock. So, what the 
coalition behind this bill did, is they found a very specific, 
almost step by step process, for jumpstarting a serious 
restoration, saw logs to the mills, thinning kind of effort. 
What would be your approach for jumpstarting such an effort?
    Judge Webb. That's an excellent question. My proposal would 
be that we start at the bottom and work up, and that is begin 
with the local collaborative. There is a collaborative in Grant 
County that works on the mount here, actually 2 of them. The 
one I'm a part of is the Blue Mountain Forest Partners. The 
other I believe is called the Southern Blues. We are both asked 
and invited the possibility of using them out here in total or 
just a part of it, as a pilot project, to implement some of the 
kind of prescriptions and approaches to forest restoration that 
you talk about here. So, that is very real. It could be likely, 
short the funding.
    That is to say, we can currently pursue everything again 
that's in here, through that collaboration, which you're going 
to have work through a collaboration anyway, without yet 
mandating sort of legislatively across the board that certain 
things have to be done before we know whether they're going to 
work well or not. We would welcome the opportunity to do a 
pilot project on them out here in Grant County. You've got some 
of the major players, some of the major environmental 
organizations, industry folks, the elected officials. It would 
be a great opportunity to sort of test, not just in principle, 
but in practice, what you've proposed here and to see how it 
actually works on the ground, and if it can be implemented. 
That would be a start.
    Senator Wyden. We'll definitely follow up with you. My 
concern would be to just do it in one county, and obviously, as 
part of our legislation, your county, you know, Grant County, 
eastern Oregon is going to be a special focus of this bill. We 
could probably lose a lot of mills in the process if we just 
had only one, you know, county. We're looking at 6 national 
forests and essentially eastern and central Oregon. But you all 
have been very constructive to work with, not just on this 
legislation, but on timber payments and--so we'll be consulting 
you often.
    Judge Webb. I don't think you need to just start in Grant 
County, I think what I wanted to stress is, whatever county you 
start in, it should be at the bottom, work up through the 
collaborative, if there is the available funding, we can 
attempt to implement what's here and see how it works before it 
becomes the law of the land with the associated concerns that 
we have.
    Senator Wyden. Very good.
    Gentlemen, thank you all. We'll excuse you at this time and 
we'll be working closely with you.
    Our second panel includes folks with a great deal of 
expertise in the forestry arena. They were essential to getting 
the agreement, go forward with this legislation. Jerry 
Franklin, Professor of Ecosystem Analysis at the College of 
Forest Resources at the University of Washington, Tom Insko, 
Region Manager, Boise Cascade, Jim Wall, Executive Director for 
Lake County Resources, Russ Hoeflich, Vice President and State 
Director for Nature Conservancy, and Tim Lillebo, Eastern 
Oregon Wildlands Advocate for Oregon Wild.
    All right, gentlemen, thank you all. We very much 
appreciate everybody coming out, and let's begin, if we could, 
with you, Professor Franklin.
    Welcome, thank you for your yeoman efforts over these many 
years, to prosecute the case of sustainable forestry and really 
welcome you this afternoon to central Oregon.

 STATEMENT OF JERRY F. FRANKLIN, PROFESSOR, ECOSYSTEM SCIENCE, 
      SCHOOL OF FOREST RESOURCES, UNIVERSITY OF WASHINGTON

    Mr. Franklin. Thank you, Senator Wyden, it's a pleasure to 
be here today.
    I'm here, of course, providing testimony for myself and for 
Dr. K. Norman Johnson of Oregon State University. We're really 
focusing our testimony on restoration on the dry forests that 
dominate the forests of eastern Oregon and Washington, and 
particularly the state of scientific understanding of forest 
restoration, and our recommendations given that understanding.
    In my remarks here, I'm just going to emphasize 2 or 3 
significant points. When we talk about the dry forests, we are 
talking about the forest that belonged primary to the ponderosa 
pine and dry mixed conifer plant associations, which 
historically were characterized by relatively frequent but low 
to moderate severity disturbance, including wildfire and 
localized insect outbreaks.
    Restoration of these ecosystems and landscapes must be the 
primary focus of our stewardship in these national forests, not 
merely focused efforts that address only wildfire and fuels. 
Threats from wildfire, insects, and climate change can only be 
dealt with appropriately in the context of returning dry forest 
and landscapes to a more natural, functional, and resilient 
state. If we focus or allow ourselves to be focused only on 
wildfire and fuels, we get led down blind alleys and 
interminable arguments about how little or how much management 
is needed to modify fire behavior, when the issues and the 
solution are much more fundamental than that.
    The dense mixed conifer stands often dominated by grand fir 
and Douglas fir are under constant attacks from spruce bud worm 
and other defoliators, large contiguous blocks of such forests 
are not sustainable and never have been in these landscapes.
    The scientific evidence is overwhelming that there have 
been massive changes in the average structure, density, 
composition of the dry forest, and the balance among fire 
regimes and fire behaviors, and the fundamental patterns of 
forests covering these landscapes, and in the resilience of 
these forests. To argue otherwise is nonsense, it defies both 
what has been documented and what we can see with our own eyes. 
Worse, it tends to mislead one to believe that everything 
happening out there is natural, part of a natural cycle and 
that nature will correct it.
    Western civilization has massively altered these forests 
and landscapes, reducing their resilience and putting them at 
great risk in a warming and drying area. Nature will provide a 
corrective to these changes if we do not, but we will not like 
the consequences, for it will be at high cost in wildlife 
habitat, water quality, and other services, and catastrophic 
losses of the irreplaceable old pines.
    We created the highly dysfunctional ecosystem conditions 
that currently exist, and in our opinion, we are obligated to 
work with nature in bringing them back to a more functional and 
sustainable state.
    Restoration programs must begin with efforts to restore and 
maintain historic populations of the old trees. Old growth 
trees, primarily, but not exclusively of pine, are the keystone 
ecological structures in these dry forests. In stands of 
appropriate density, these old trees dominate, provide critical 
habitat, offer the greatest resistance to fire and drought and 
climate change, and are the source of the large persistent 
snags and logs. Again, critical habitat for the majority of the 
vertebrates.
    Stewardship needs to focus on retaining and nurturing the 
existing population of old trees, and again, they are as at 
great of risk from excessive stand density from competition as 
they are from fire. Focus needs to really be on the old trees 
rather than on simply larger trees, because it is the old trees 
that have the greatest ecological and social significance. The 
current diameter limit permits the removable of irreplaceable 
old trees, and deters us from removing large, young, 
competitive firs that threaten the survival of the old trees.
    Again, you know, our view here is that in a perfect world, 
we might wait to take action until we knew a certainty all 
effects that a widespread restoration program would have on all 
creatures. We don't have that luxury, given the state of our 
forests and the values. The peril to the dry forests from 
inaction is too great and that certainly includes the mixed 
conifer forests. We need to undertake major restoration efforts 
now.
    Thank you.
    Senator Wyden. Very well said, Professor, and I'll have 
questions just in a moment.
    Mr. Insko.
    [The prepared statement of Mr. Franklin follows:]

Prepared Statement of Jerry F. Franklin, Professor, Ecosystem Science, 
          School of Forest Resources, University of Washington

    I am Dr. Jerry F. Franklin and I am here today to give testimony 
for myself and Dr. K. Norman Johnson. I am Professor of Ecosystem 
Science in the School of Forest Resources at University of Washington. 
Dr. Johnson is University Distinguished Professor in the College of 
Forestry at Oregon State University. These comments represent our views 
and not those of our respective institutions.
    Our testimony focuses on restoration of the Dry Forests that 
dominate the national forests of eastern Oregon, especially the state 
of scientific understanding of forest restoration and our 
recommendations given that understanding. We previously gave testimony 
on the scientific principles imbedded in the Oregon Eastside Forests 
Restoration, Old Growth Protection and Jobs Act of 2009 (S 2895)--the 
topic of today's hearing. Today we thought it would be most useful to 
address the broad scientific foundations for action in the forests of 
eastern Oregon, given that S 2895 calls for action and controversies 
have recently surfaced about whether active management is needed to 
restore these forests.
    Division of federal forests into Moist and Dry Forests based upon 
plant association is a critical initial step in forest restoration 
planning and development of forest policy related to old-growth. The 
Dry Forests belong primarily to the ponderosa pine and dry mixed-
conifer plant associations, which historically were characterized by 
relatively frequent low-and mixed-severity disturbances, including 
wildfire and localized insect outbreaks. Moist Forests are found at 
higher elevations and are characterized by infrequent disturbances that 
include stand-replacement components. On Dry Forest sites, the 
composition and structure of most existing forests--including those 
that can be characterized as old growth--have been significantly 
altered by western civilization. These changes have been brought about 
by numerous activities including fire suppression, grazing by domestic 
livestock, logging, and plantation establishment. These activities have 
resulted in dramatic increases in stand density and shifts in 
composition toward less fire-and drought-tolerant tree species. Active 
management often is required in these Dry Forests to reduce the 
potential for uncharacteristic and ecologically damaging wildfire and 
insect outbreaks, even though many of these forests still have 
populations of old-growth trees.
    Restoration of the dry forest ecosystems and landscapes must be the 
primary focus of our stewardship in the national forests in eastern 
Oregon and Washington--not narrowly focused efforts that address only 
wildfire and fuels! Threats from wildfire, insects, and climate change 
only can be dealt with appropriately in the context of returning dry 
forests and landscapes to a more natural, functional and resilient 
state. There are multiple undesirable consequences of the hugely 
excessive areas of overly dense and drought-and fire-prone stands that 
we have created during the last 150 years. Insects are at least as much 
of a risk to these forests and the services that they provide as severe 
wildfire. The monocular focus on wildfire and fuels leads us down blind 
alleys and interminable arguments about how little or how much 
management is needed to modify fire behavior, when issues and solutions 
are much more fundamental. The dense mature stands of grand fir and 
Douglas-fir are under constant attacks from spruce budworm and other 
defoliators; large contiguous blocks of such forests are not 
sustainable and never have been. In overly dense old-growth stands, 
competition from young firs put old pines at increasing risk to bark 
beetle attack. There is strong evidence that they are declining in 
vigor and dying at accelerating rates (see, e.g., van Mantgem et al. 
2009, Widespread increase of tree mortality rates in the western United 
States. Science 323:521-524).
    The scientific evidence is overwhelming that there have been 
massive changes in the average structure (density) and composition of 
the dry forests, in the balance among fire regimes and fire behaviors, 
in the fundamental patterns of forest cover in these landscapes, and in 
the resilience of these forests. To argue otherwise is nonsense, 
defying both what has been documented and what we can see with our own 
eyes. Worse, it misleads one to believe that everything that is 
happening out there is ``natural''--part of a natural cycle--and that 
nature will correct it. Western civilization has massively changed 
these forests and landscapes, reducing their resilience and putting 
them at great risk in a warming and drying era. Nature will provide a 
corrective to these changes--if we do not--but we will not like the 
consequences for it will be at high cost in owl and other wildlife 
habitat, water quality and other services, and catastrophic losses of 
the irreplaceable old pines! We created the currently highly 
dysfunctional ecosystem conditions and, in our opinion, we are 
obligated to work with nature in bringing them back to a more 
functional and sustainable state.
    Restoration programs must begin with efforts to restore and 
maintain historic populations of the old pine trees. Old-growth trees--
primarily ponderosa pine but sometimes of other species, such as 
western larch, Douglas-fir, and sugar pine--are the keystone ecological 
structures in the dry forests. In stands of appropriate density these 
old trees dominate, provide critical habitat, offer the greatest 
resistance to fire and drought (and climate change), and are the source 
of the large persistent snags and logs (again, critical habitat for the 
majority of the vertebrates). Stewardship needs to focus on retaining 
and nurturing the existing population of old trees--and, again, they 
are at as great a risk from excessive stand density (competition) as 
they are from fire. Further, stands need to be managed so as to provide 
younger age classes of pine and larch that can, ultimately, bring old 
tree population levels back to historic levels and maintain them there. 
Finally, the focus needs to be on the old trees rather than simply 
large trees (e.g., >21 inches diameter in breast height) because it is 
the old trees that have the greatest ecological and social 
significance; the current diameter limit permits the removal of 
irreplaceable old trees and deters us from removing large young 
competitive firs that threaten the survival of the old trees.
    In ecological restoration, old trees need to be dedicated to 
sustaining ecological values on the site as living trees and, 
subsequently, large snags and down logs. Salvaging old trees when they 
are killed does NOT help restore forests--these dead trees provide 
vital ecosystem functions as large snags and down logs. Not only does 
salvage of such trees result in further ecological degradation but this 
practice erodes public trust in restoration management. Also, greater 
efforts are needed in prescribed burning programs to reduce unintended 
damage to and mortality of old trees. We believe that prescribed 
burning programs in the western United States have been far too casual 
in accepting significant and avoidable mortality of old pines. Recently 
one of us (Franklin) watched personnel doing prescribed burns in 
longleaf pine forests in the southeast and was struck by the individual 
attention given nest trees for the Red-Cockaded Woodpecker. Increased 
attention to protecting old tree populations must be incorporated into 
the prescribed burning programs in western North America.
    We are very concerned that misdirection seems to be very much in 
vogue among opponents to restoration programs in Dry Forests. For 
example, some have raised the need for ``early successional 
ecosystems'' as an important issue in the Dry Forest landscapes. We 
happen to know something about this concept as we helped initiate 
interest in such ecosystems and have published peer-reviewed articles 
on it. The concept of early successional ecosystems has almost no 
relevance to the dry forest landscapes as it rarely ever existed as a 
distinct condition there. Such landscapes were dominantly fine-scale 
structural mosaics in which non-forest dominated patches were integral 
parts. The concept of early successional ecosystems applies primarily 
to forest ecosystems characterized by stand-replacement disturbances, 
such as those found at higher elevations in eastern Oregon and in the 
moist forests on the Pacific slope.
    Another example of misdirection relates to the response of Northern 
Spotted Owls to stand-replacement fire. We do not believe that there is 
any competent owl biologist who believes that Northern Spotted Owls are 
favored by having their forest habitat subjected to stand replacement 
wildfire or stand-killing spruce budworm outbreaks. There is no 
evidence that such events benefit the owls or even firm evidence that 
owls persist in such habitat over the long term, once the fidelity of 
existing pairs is exhausted.
    We know enough and it is long since past time to initiate an 
aggressive restoration program in the federal forests of eastern Oregon 
and Washington, building on such innovative approaches as the recent 
Glaze Meadows project near Black Butte Ranch on the Deschutes National 
Forest. Since this program would require several decades for 
completion, there are extraordinary opportunities to use an adaptive 
management approach. For example, a research project to quantify the 
responses of Northern Spotted Owls and other biota to the landscape-
level restoration efforts can be designed and carried out and the 
resulting scientific findings used to modify restoration approaches 
where necessary. Indeed, such an adaptive approach--with committed 
funding for research and monitoring--is imperative if the restoration 
program is to be fully credible.
    In a perfect world, we might wait to take action until we knew with 
certainty all effects that a wide-spread restoration program would have 
on all creatures, great and small. We do not have that luxury given the 
state of our forests and the values at stake. The peril to the Dry 
Forests from inaction is too great. We need to undertake major 
restoration efforts in the Dry Forests of eastern Oregon now.

   STATEMENT OF TOM INSKO, REGION MANAGER, BOISE CASCADE, LLC

    Mr. Insko. Senator, thank you.
    I'm Tom Insko, Region Manager of Boise Cascade's Inland 
Region. Boise Cascade manufactures engineered wood products, 
plywood, lumber and particleboard and distributes a broad line 
of building products. More specifically, Boise Cascade's Inland 
Region includes eight manufacturing facilities located east of 
the Cascade Mountains. A plywood plant and two pine lumber 
mills are located in Kettle Falls, Washington. One of those two 
lumber mills is currently idle. In eastern Oregon Boise Cascade 
operates a pine lumber mill in Pilot Rock, a particleboard 
plant in Island City and a plywood plant and stud mill in 
Elgin. A pine lumber mill in La Grande is currently idle, shut 
down last year.
    I'm here today to testify in favor of S. 2895, the Oregon 
Eastside Forests Restoration, Old Growth Protection and Jobs 
Act of 2009. S. 2895 is an opportunity to make a shift: to 
preserve and create living wage jobs in rural eastern Oregon 
while beginning to restore the unhealthy landscapes that exist 
in our national forests.
    It is no secret that Oregon is struggling with economic 
decline and double-digit unemployment rates. The rural 
communities of eastern Oregon have been hard hit by the 
economic downturn. During the past few years, there have been 
multiple mills closed contributing to these high unemployment 
rates.
    Boise Cascade is the largest employer, both public and non-
public, in Union County with approximately 470 employees. With 
nearly 100 employees in Pilot Rock, we're the fourth largest 
private employer in Umatilla County. These are good jobs, 
living wage jobs with excellent healthcare and retirement 
benefits. Unfortunately, during the past few years the number 
of employees working in our eastern Oregon mills has declined 
by more than 200. Some of the job cuts are the result of poor 
wood product markets, but the sad reality is that even with a 
market upturn these jobs are unlikely to be restored. The 
primary threat to living wage mill jobs is a lack of log supply 
in the region.
    Boise Cascade's existing eastern Oregon mill infrastructure 
needs approximately 200 million board feet of logs annually, to 
operate its mills and sustain nearly 800 jobs. Today we procure 
less than 7 percent of our log volume from Federal forests. 
This 7 percent is from 10 national forests stretching from the 
Mount Hood to the Payette in Idaho, a 250-mile haul radius. 
This year approximately 85 percent of the logs Boise Cascade 
procures will come from private sources. Procuring this amount 
of logs from private sources is not sustainable. Meanwhile, 
just the 3 national forests that I'd consider local to our 
Boise Cascade's mills are growing in excess of 750 million 
board feet every year. These forests, the Wallowa-Whitman, 
Umatilla and Malheur, which I will henceforth refer to as the 
Blue Mountain National Forests, represent 68 percent of the 
commercial forestland in the area.
    What is occurring on the Blue Mountain National Forests is 
consistent throughout our eastside Oregon Federal forests. With 
the Blue Mountain National Forests growing at a rate in excess 
of 750 million board feet per year, the 10-year average removal 
rate has been less than 10 percent of this, 73 million board 
feet. In 2009, of the 86 million board feet removed, only 46 
million of that was actually saw logs.
    Three national forests representing nearly 5.5 million 
acres and growing more than 750 million board feet each year, 
are harvesting less saw log volume than what is required to 
operate a single-shift mill.
    As the amount of wood growing on the national forests 
greatly exceeds the amount harvested and removed, our Federal 
forests have become seriously overcrowded. This leads to insect 
and disease infestations and increased risk of fire. As of July 
2008, there were nearly five and a half million acres of fire 
condition class II and III on Eastern Oregon's Federal forests. 
Active management utilizing mechanical treatment methods is the 
only acceptable way to restore forest health. The positive by-
product of this activity is saw logs, and saw logs provide 
economic stability. Each job created or retained in the milling 
industry has a job multiplier of 2.81.
    Some have suggested the decline in the wood products 
industry in eastern Oregon is a natural dynamic which time has 
come. The facts don't support this contention. Boise Cascade 
and the industry have changed to match the changing social 
values of the public. As an example, I'd offer Boise Cascade's 
plywood plant and stud mill in Elgin now focus on the efficient 
use of smaller diameter logs. In 2009 the average diameter of a 
block peeled on our lathe at the plywood plant was 10.4 inches. 
Existing eastside industry infrastructure is well configured 
and needed to assist in the landscape restoration objectives of 
S. 2895.
    Passage and implementation of S. 2895 will not be without 
challenges, and some with extreme perspectives will attempt to 
erode its success, but S. 2895 represents the collaborative 
work of many from the industry and environmental community, 
recognizing that we share many of the same values. These values 
are restoring forest health and landscape resiliency while 
maintaining the remaining infrastructure that is so vital to 
the rural communities of eastern Oregon. With this mutual 
purpose, the challenge was to identify the path by which one 
specific ideal does not eliminate the possibility of achieving 
the more significant shared purpose. I believe S. 2895 is 
representative of this.
    I'd close with saying, passage of S. 2895 is only the first 
step. The legislative mandate to eventually quadruple the 
current levels the number of acres treated each year will 
require quick action by the Forest Service. It will be 
imperative that the committee hold the Forest Service 
accountable for their performance. Additionally, Senator Wyden, 
we need you to ensure Congress appropriates the $50 million 
authorized in this bill to provide the Forest Service with the 
necessary resources to facilitate the implementation of the 
interim projects, and as well, as the development of the 
landscape ecological restoration plans.
    I appreciate the opportunity to testify, and welcome the 
opportunity.
    [The prepared statement of Mr. Insko follows:]

  Prepared Statement of Tom Insko, Region Manager, Boise Cascade, LLC

    Mr. Chairman, members of the Committee:
    I am Tom Insko, Region Manager of Boise Cascade's Inland Region. 
Boise Cascade manufactures engineered wood products, plywood, lumber 
and particleboard and distributes a broad line of building materials. 
More specifically, Boise Cascade's Inland Region includes eight (8) 
manufacturing facilities located east of the Cascade Mountains. A 
plywood plant and two pine lumber mills are located in Kettle Falls, 
Washington. One of those two lumber mills is currently idle. In eastern 
Oregon Boise Cascade operates a pine lumber mill in Pilot Rock, a 
particleboard plant in Island City and a plywood plant and studmill in 
Elgin. A pine lumber mill in La Grande is currently idle.
    I am here today to testify in favor of SB 2895, ``the Oregon 
Eastside Forests Restoration, Old Growth Protection and Jobs Act of 
2009'' introduced by Senator Wyden. SB 2895 is an opportunity to make a 
shift: to preserve and create living wage jobs in rural eastern Oregon 
while beginning to restore the unhealthy landscapes that exist in our 
national forests.
    It is no secret that Oregon is struggling with economic decline and 
double-digit unemployment rates. The rural communities of eastern 
Oregon have been hard hit by the economic downturn with April 
unemployment rates for Wallowa, Union and Umatilla counties at 11.6, 
10.4 and 9.9 percent, respectively. During the past two years there 
have been multiple mills closed contributing to these high unemployment 
rates. Just last week the equipment from the DR Johnson mill in Wallowa 
was auctioned. This mill and the jobs it provided to the local 
community are gone, forever.
    Boise Cascade is the largest employer in Union County with 
approximately 470 employees. With nearly 100 employees in Pilot Rock, 
Boise Cascade is the fourth largest private employer in Umatilla 
County. These are good jobs, living wage jobs with excellent healthcare 
and retirement benefits. Unfortunately, during the past few years the 
number of employees working in these mills has declined by more than 
200. Some of the job cuts are the result of poor wood product markets 
but the sad reality is that even with a market upturn these jobs are 
unlikely to be restored. The primary threat to living wage mill jobs is 
a lack of log supply in the region.
    Boise Cascade's existing eastern Oregon mill infrastructure needs 
approximately 200 million board feet (mmbf) of logs, annually, to 
operate its mills and sustain nearly 800 jobs (this would include 
restarting the La Grande Sawmill). Today we procure less than 7 percent 
of our log volume from federal forests. And this 7 percent is from 10 
national forests stretching from the Mount Hood to the Payette in 
Idaho, a 250-mile haul radius from our mills. This year approximately 
85 percent of the logs Boise Cascade procures will be from private 
sources. Procuring this amount of logs from private sources is not 
sustainable. Meanwhile, just the three national forests considered 
``local'' to Boise Cascade's mills are growing in excess of 750 mmbf 
each year. These forests, the Wallowa-Whitman, Umatilla and Malheur 
(which I will henceforth refer to as the Blue Mountain National 
Forests) represent 68 percent of the commercial forestland in the area.
    What is occurring on the Blue Mountain National Forests is 
consistent throughout our eastside Oregon federal forests. While the 
Blue Mountain National Forests are growing at a rate in excess of 750 
mmbf per year the 10-year average removal rate has been less than 10 
percent of this, 73 mmbf. Of the 86 mmbf of removal volume in 2009 only 
46 mmbf was sawlogs (sawlogs is defined as any log with a small-end 
diameter greater than 5.5 inches and a minimum of 8 feet in length). 
Three national forests representing nearly 5.5 million acres and 
growing more than 750 mmbf each year are harvesting less sawlog volume 
than what is required to operate a single two-shift milling operation.
    As the amount of wood growing on the national forests greatly 
exceeds the amount harvested and removed, our federal forests have 
become seriously overcrowded. This leads to insect and disease 
infestations and increased risk of fire. As of July 2008 there were 
nearly five and a half million acres of fire condition class II and III 
on Eastern Oregon's federal forests. Active management utilizing 
mechanical treatment methods is the only acceptable way to restore 
forest health. The positive by-product of this activity is sawlogs. 
Sawlogs provide economic stability. Each job created or retained in the 
milling industry has a job multiplier of 2.81 (Source: IMPLAN and E.D. 
Hovee & Company).
    Some have suggested the decline in the wood products industry in 
eastern Oregon is a natural dynamic which time has come. The facts 
don't support this contention. Boise Cascade and the industry have 
changed to match the changing social values of the public. As an 
example, Boise Cascade's plywood plant and studmill in Elgin now focus 
on the efficient use of smaller diameter logs. In 2009 the average 
diameter of a block peeled on our lathe at the plywood plant was 10.4 
inches. Additionally, Boise Cascade processes pulpwood, essentially the 
top of the tree or dead logs, and produces chips for nearby paper 
manufacturers. Existing eastside industry infrastructure is well 
configured to assist in the landscape restoration objectives of SB 
2895.
    Upon passage, implementation of SB 2895 will not be without 
challenges. Some with extreme perspectives will attempt to erode its 
success. Some will argue that protections are too great and a diameter 
limit of 21'' is arbitrary. Others will argue there should not be any 
focus on sawlog production or concern for sustaining existing logging 
and milling infrastructure. SB 2895, however, represents the 
collaborative work of many from the industry and the environmental 
community recognizing that we share many of the same values. These 
values are restoring forest health and landscape resiliency while 
maintaining the remaining infrastructure that is so vital to the rural 
communities of eastern Oregon. With this mutual purpose the challenge 
was to identify the path by which one specific ideal does not eliminate 
the possibility of achieving the more significant shared purpose. I 
believe SB 2895 is representative of this.
    Passage of SB 2895 is only the first step. The legislative mandate 
to eventually quadruple from current levels the number of acres treated 
each year will require quick action by the Forest Service. It will be 
imperative that the Subcommittee for Public Lands and Forests hold the 
Forest Service accountable for their performance. Additionally, Senator 
Wyden must ensure Congress appropriates the $50 million authorized in 
this bill to provide the Forest Service with the necessary resources to 
facilitate the implementation of the interim projects as well as the 
development of the landscape ecological restoration plans.
    Boise Cascade appreciates this opportunity to be involved in 
creating and supporting legislation that offers potential solutions to 
the federal forest health crisis and management roadblocks that exist 
in eastern Oregon. Senator Wyden, we appreciate the work of you and 
your staff to introduce this bill. The hardworking Boise Cascade 
employees applaud your commitment to turn the status quo on its head in 
an effort to retain the jobs they so critically need. If they could, 
I'm sure our forests would thank you as well.
    Thank you for the opportunity to appear before you today.

    Senator Wyden. Mr. Insko, before we move on, I want to see 
if I can kind of put this whole effort in, sort of, the 
appropriate context. There you are, you're the regional manager 
of Boise Cascade in eastern Oregon, did you think, even like in 
your wildest dreams, that you could reach an agreement on a 
major piece of forestry legislation with Andy Kerr and Tim 
Lillebo? I mean, it strikes me, if people were putting odds on 
something like that, nobody, nobody would have said that was 
possible. What was your take? I mean, when you started this, my 
sense is you all thought, we're going to try this. I mean, it 
makes sense given the fact that nothing else is working, but 
did you think that there was really a shot of pulling together 
this kind of coalition at the beginning?
    Mr. Insko. No, I was skeptical. I thought the initial 
conversations would likely lead to a waste of time. But, 
fortunately, it hasn't, we've been able to stay focused on the 
ultimate objectives. As we talked about some of those ideals 
that candidly we continued to disagree upon, but recognize that 
we can not continue to focus on that and result in not 
achieving any of the goals that we all actually agree upon, and 
that's the forest health issue and the fact that jobs in rural 
Oregon are critically important.
    Senator Wyden. I could tell you that talking to a lot of 
the partners in this, you're being pretty diplomatic when you 
say you were skeptical at the outset, because I think--I think 
a lot of people thought it was flat out crazy to think that 
anything like this could come together. I--I'll have some more 
questions for you in a moment, I wanted particularly to express 
my appreciation for your goodwill and for Boise Cascade, a 
major force in the timber industry, saying that they were going 
to try to put the time in to pull this together, and it clearly 
has paid off, and we're very appreciative.
    Mr. Walls, great to see you, always like seeing you at town 
hall meetings and having your input, and please proceed.

 STATEMENT OF JAMES K. WALLS, EXECUTIVE DIRECTOR, LAKE COUNTY 
                      RESOURCES INITIATIVE

    Mr. Walls. I won't talk an hour on biomass.
    Senator Wyden. There you are. Take the time to do it right.
    Mr. Walls. Thank you, Senator. Thank you very much. It is 
an honor to be here, sir, and I really appreciate it.
    As you know, I'm the Executive Director of Lake County 
Resources, which was created to carry on the work of a 
collaborative that's now in its 12th year, not just to carry it 
on, but to serve as a local place where they could convene and 
stuff. It's very--been very successful and implemented many of 
the provisions that are in S. 2895. We've been successfully 
moving ahead.
    When I was first invited to testify, I had a real fear, 
really, I had to search hard and deep, because I remember the 
past regional legislations that have occurred and localized, 
like the Northwest Forest Plan, the Quincy Library Group, and 
list can go on, and they all wound up a deep litigation. I go, 
``Whoa, we've been under the radar, maybe we better stay 
there.'' But, I have a much greater fear that made me step 
forward, and that is after we were created, our stewardship 
group said, ``You'll develop a monitoring program,'' and we did 
that in our first year. It's been in existence for 7 years now. 
One of the findings of that program, we've got thousands and 
thousands of plots, is that 85 percent of our big large 
ponderosa pines, that Dr. Franklin talked about, are dying out 
prematurely, 100 to 200 years prematurely.
    As I look at the--the Collins Company has a 10-year 
stewardship contract that guarantees 3,000 acres. As the 
stewardship group and collaborative looked at what they needed 
treated, they felt we need to be at eight to ten thousand acres 
if we're going to get ahead of that curve and save those old 
pines. So, that's my fear and why I step up, it is for the 
pines. I believe we can do that through this bill.
    I am proud to say too, we were No. 1 on the Collaborative 
Force Landscape Restoration Act, which I hope remains so, and 
get to that eight to ten thousand acres where we can get these 
treatments down into a 20, 25-year span to get this done, so we 
don't lose those.
    The other thing that is very--that our monitoring has 
showed, as you're well aware, we've got a 300,000 acre beetle 
kill there. It--and while beetles attack ponderosa pine when 
they get old and they die, that's natural, that's a--but not 
the size of this thing, it's humongous. What we found out, if 
we leave--if it was to burn today, and sometimes I think I 
should go put a match to it, it would survive, the forest would 
survive, because temperatures on the soil as the tree stands 
would only be about 100 degrees Centigrade. If we let them fall 
and jackstraw into that soil, our monitoring shows that they 
will reach 200-400 degrees, and then the soil actually melts 
and plasticize, and water won't penetrate it any more. Then 
you're looking at decades to reach that forest back.
    There's many areas, as Dr. Franklin found when he did the 
plan for the Klamath Tribe, of encroachment, I believe if I 
remember right, he can correct me, about 100,000 acres out 
there of encroachment, and we need to be diligent, saving those 
areas that the lodge pole pine encroached on so that they don't 
go through that, and we can get those natural areas back to 
natural conditions.
    I couldn't leave without mentioning the jobs part of your 
bill, because as you're aware, in our plan was to get all the 
small material out, we needed a new small diameter mill and a 
biomass plant. The Collins Company stepped up and put a $6.8 
million mill in. That save 85 jobs, because the other 
alternative was not good. The biomass plant will put in a $70 
million investment. That will be 18 well paying, above average 
for Lake County, jobs in that biomass plant, and we're months 
away from a final decision, and it will put 50-75 in the woods.
    We did a calculation of what would that mean to the county, 
because it's a stewardship contract, no timber receipts. When 
all the abatements and incentives are gone, that biomass will 
be paying the county over $400,000 a year in local taxes. It 
will be paying the town of Lakeview $800,000 and some. It will 
pay the hospital equivalent amounts. It adds up to $1.8 million 
that could go to our hospitals, our library, or our schools. So 
the economic impact is as important as the ecological. That's 
why I'm here to support this bill. I looked at it as a threat 
and it would have been easy to stay under the radar, but I felt 
it was important to step forward.
    Thank you, sir.
    [The prepared statement of Mr. Walls follows:]

 Prepared Statement of James K. Walls, Executive Director, Lake County 
                          Resources Initiative

    I am Jim Walls, Executive Director of Lake County Resources 
Initiative (LCRI), a non-profit formed in 2002 to work on natural 
resources projects that are ecologically and economically based. It is 
an honor to be here and testify before this distinguished subcommittee 
on Public Lands and Forests and specifically about the Oregon Eastside 
Forests Restoration, Old Growth Protection and Jobs Act.
    Lake County is 75% federal lands, with the Fremont-Winema National 
Forests and Bureau of Land Management being the biggest landowners. 
Lake County is in the south central dry interior of the state of 
Oregon. The Fremont portion of the National Forest lies roughly between 
the towns of Lakeview, Klamath Falls and Bend, Oregon just north of the 
California/Oregon border. The major tree species include ponderosa 
pine, juniper, lodgepole pine, and at higher elevations white fir. Most 
of these trees are adapted to summer drought and extreme temperature 
fluctuations due to the arid nature of the region. The 10-20 inches 
average precipitation occurs from the autumn through the spring and as 
a result the summers are dry and hot. At the height of logging Lake 
County supported 5 mills; today only the Fremont Sawmill owned by The 
Collins Companies is remaining. As a result of the curtailment of 
logging, Lake County was the only county in Oregon that experienced a 
net job loss during the 1990's.
    Historically, forest management of the Fremont focused on 
aggressive fire suppression and logging of large old-growth ponderosa 
pine trees. Consequently, forest composition and natural fire 
disturbance regimes have been dramatically altered, increasing the risk 
that abnormally intense fires, insects, and disease will devastate the 
remaining old-growth and other forest ecosystems. The impact of fire 
suppression and old-growth logging is greatest for the low-elevation 
ponderosa pine and mid-elevation mixed conifers. Many areas have missed 
7 to 10 fire-return intervals, and mature forests of large, widely 
spaced trees have declined more that 50 percent from historical levels. 
Middle-aged forests, less than 100 years old, are substantially more 
common than they were historically.
    I am pleased to testify in support of S. 2895 because many of the 
objectives of the bill are currently being carried out in the 500,000 
acre Lakeview Federal Sustained Yield Unit in the Fremont-Winema 
National Forest. We have a 12 year old collaborative known as the 
Lakeview Stewardship Group comprised of national, regional and local 
environmental groups, industry, local units of government and local 
citizens. The Lakeview Stewardship Group in partnership with the 
Fremont-Winema National Forest just submitted a proposal under the 
Collaborative Forest Landscape Restoration Act (CFLRA)--a 500,000 acre 
proposal covering the Lakeview Federal Sustained Yield Unit. One of the 
requirements for the act was a landscape restoration strategy and our 
collaborative did such a strategy in 2005. We specified priority 
treatment areas to reduce fuel loads and ecological restoration work 
which needed to be accomplished. The collaborative up-dated the plan in 
2010 for submittal in the CFLRA proposal and I am proud to say the 
proposal was ranked as Region 6's top priority when they submitted it 
to the Forest Service National office last month. The Lakeview strategy 
estimates that 8,000 to 10,000 acres need to be treated if we are going 
get ahead of the forest health issues and do so in a time frame that 
will make a difference.
    An early priority of the collaborative was for Lake County 
Resources Initiative (LCRI) to develop a monitoring program around the 
restoration being carried out in Unit. In the 7 years that the 
monitoring has taken place we have discovered considerable evidence 
pertaining to eastside forests which shows why accelerating treatments 
is critical. The monitoring plots show that 85% of our old growth 
forests are dying 100 to 200 years prematurely as a result of fire 
suppression and the resulting overstocking that has occurred. Currently 
the Collins Companies has a 10-year Stewardship Contract with the 
Forest Service guaranteeing 3,000 acres/ year for 10 years, but at this 
rate it will be too late to save these old growth trees. For this 
reason the collaborative believes treatments need to be increased to 
8,000 to 10,000 acres/year, if we are going to make a difference. The 
good news is that many of the old growth trees are showing a positive 
response to treatments. However, other stands that we are watching may 
show that treatments have been too late.
    One of the most significant findings of the monitoring program is 
the effects of uncharacteristic severe fires on our eastside soils. 
This combined with over 300,000 acres of Mountain Pine Beetle kill on 
the Fremont-Winema National Forest is a disaster waiting to happen. Our 
plots show that if a crowning fire occurs and there are few downed 
trees on the forest floor, soil temperature will reach somewhere around 
100 C and recovery will occur in relatively short order. However, if 
the forest floor has considerable down woody debris or if trees killed 
by the Mountain Pine Beetle start to fall and jackstraw, temperatures 
can reach 200-400 C, causing major soil damage. Soils at these 
temperatures actually start to plasticize, making them impenetrable to 
water and delaying tree regeneration for decades.
    I cannot speak about Westside forests, where there is ample 
moisture to support dense stands. Here, however, on the eastside we 
must accelerate treatments in order to restore natural fire regimes and 
prepare these forests for climate change. I believe the Oregon Eastside 
Forests Restoration, Old Growth Protection and Jobs Act can be a pilot 
and if it is as successful as we anticipate, then it might be extended 
to the remaining States that have similar dry forests.
    My testimony thus far stresses the environmental needs for our 
eastside forests, but there is also the jobs aspect that this bill 
could promote. If we accelerate thinnings necessary to get ahead of 
forest health issues and prepare these eastside forests for climate 
change, we must have the infrastructure in place to use all this small 
diameter material. As a result of the collaborative and the 10-year 
Stewardship Contract, the Collins Companies has invested $6.8 million 
in a new small diameter sawmill, and Iberdrola Renewables is in the 
final efforts of due diligence on a $70 million dollar, 25 MW biomass 
plant. These investments have resulted in retaining 85 sawmill jobs, 
and will create 18 jobs at the biomass plant and 50-75 jobs in the 
woods. An Oregon Business 2010 report estimates these investments will 
have an annual payroll of over $18 million and will pay over $1 million 
in income tax to the State of Oregon. South Central Oregon Economic 
Development District estimates that local taxing districts such as the 
Town of Lakeview, Lake County, Library, Hospital, cemetery, school 
district, etc. will receive an estimated $1.8 million yearly in taxes.
    In conclusion, not only does forest restoration make environmental 
sense, it can be an enormous economic opportunity for struggling rural 
communities. There is a lot of talk about creating a green economy, but 
it is places like Lake County that are making it a reality. Thank you 
for your time and the privilege of testifying.

    Senator Wyden. Thank you very much, and it's one of the 
reasons why we so wanted you here, because going over to 
Lakeview and seeing what you've done. I mean, it is a really 
heroic effort, and I'm very appreciative of your involvement 
here. I just want to ask one question before we move on, 
because it takes your breath away, this point that you make 
with respect to the consequences of neglect. I think you used 
the word, it plasticizes.
    Mr. Walls. Yes, there's been several terms.
    Senator Wyden. Take that, and perhaps Professor Franklin, 
layout what plasticizing and area is all about, because, I 
mean, I think that really drives home the consequences of 
neglect. So, Mr. Walls and Professor Franklin, take this and 
amplify it a little bit.
    Mr. Walls. Not being the scientists, I'll take it from my--
what my monitoring crew and the scientist and the head of that 
is. Basically it's a melting of the soil and there's several 
terms they've used to me on that. It gets that hot, and we've 
done a lot of tests on it, and it makes a hard crust over the 
top of it.
    Senator Wyden. It's almost like a plastic product?
    Mr. Walls. Yes, water won't penetrate it.
    Senator Wyden. Water will not penetrate?
    Mr. Walls. Will not penetrate it, yes. It only happens when 
the trees start to fall and they start jackstrawing, and so 
you've got all this mass on the forest floor. We've Mount 
Muzama ash soil, so we may be--every area, I don't know if this 
does the same thing, but it does it on that Mount Muzama ash-
type soil. We've done numerous studies on that, and basically 
it just seals it over. We've got 10 years of plots now where 
there's not a single tree growing where that's happened. 
There's over brushes coming in, I'm not saying nothing comes 
in, but there's not trees.
    Where, if you go in the standing, if it was standing right 
now, in a few years you've have trees coming up and it would be 
great, if it doesn't do it that way.
    Senator Wyden. Dr. Franklin, do you want to add anything to 
that?
    Mr. Franklin. No, it's very characteristic when you get 
very high temperatures, that you get basically fusion of the 
soil particles, and so, it loses its structure fundamentally.
    Senator Wyden. OK.
    Mr. Hoeflich, welcome.

   STATEMENT OF RUSSELL HOEFLICH, VICE PRESIDENT AND OREGON 
                DIRECTOR, THE NATURE CONSERVANCY

    Mr. Hoeflich. Thank you. Chairman Wyden, I want to thank 
you for this opportunity to give testimony to the subcommittee 
in support of this bill.
    My name is Russ Hoeflich, I serve as the Oregon Director of 
The Nature Conservancy, as well as the Vice President for the 
Nature Conservancy. We're a leading conservation organization 
working around the world to protect the ecologically important 
lands and waters that we need for nature and for people. We've 
been working in Oregon for nearly 50 years. Nationally, we've 
been for over the protection of about 119 million acres and we 
have about 1 million members supporting our efforts. We have a 
long history of working on public and private lands in on-the-
ground collaborative and forest habitat restoration projects in 
many of the States in the west.
    We applaud you, Senator Wyden, for your leadership in 
bringing together diverse groups of Oregonians to craft 
pioneering legislation that will put people to work restoring 
Eastern Oregon's forests. When Eastern Oregon was ground zero 
for the timber wars, your bill has done something unique. It 
has united leaders and it is providing a platform for 
collaboration, landscape scale solutions to a landscape scale 
problem, truly a unique effort. Thank you.
    We also commend your leadership for bringing the 
conservation community together and bringing them together to 
address, with the business industry, not only the biological 
issues, but the human community issues as well. With great 
thanks, we also praise the U.S. Forest Service, who has been 
working diligently and as best as they possibly can to 
innovate, to bring communities together in collaborative 
projects throughout Oregon. They continue to make significant 
investments in forest health with your financial support and 
your leadership.
    With the guidance, and I just want to move from my script 
here and just mention the unique effort that you have made to 
bring 2 of the most preeminent scientists in the Nation 
associated with forest health treatment, into the fold to craft 
your bill. It is a great, great honor to have Jerry Franklin 
and Dr. Norm Johnson working on this bill and help supporting 
the industry and conservation community. This is unprecedented, 
it's nature, from a national perspective, and I just thank you 
for bringing them into the fold.
    We need to restore forests at the scope of the problem and 
put more people to work in the woods, and this bill will do 
exactly that. The urgency--you've heard about this from others, 
it could not be greater than it is today. Every day we face 
very, very significant problems. There's again, depending on 
what statistics you use, there's between 9.5, other say as high 
as 13 million acres of the forest and woodlands that are highly 
departed, if you include juniper, particularly in this region, 
from the historic conditions, putting them at risk of 
unnaturally severe fire, insect damage, disease, which in turn 
threatens our streams, lakes, rivers, and the safety of many, 
many of the communities in your State.
    Today, our forests lack, as Jerry has said and others have 
said, the resiliency of healthy ecosystems, putting the 
greatest risk of catastrophic change, particularly in the face 
of climate change. At the same time, our local communities and 
the mill structure is faltering too. Now is the time to put the 
eastside communities back to work and focus on the restoration 
and the health of our forests.
    The need to act is clearly now, and the pace of on-the-
ground restoration must accelerate, that's the critical element 
of your bill. To get to the scale of the problem, this 
legislation establishes restoration and recovery roadmaps. This 
enables forest managers and communities to work together to 
prioritize and initiate on-the-ground restoration work that 
will improve the health of the Eastside National Forest, 
watersheds, and clearly the local economy.
    The foundation of this legislation is trust, collaboration, 
and yes, the science. Ultimately, the legislation will allow us 
to establish sound on-the-ground science, as Mr. Wall has 
indicated, is so critical to these projects. Ensuring that old 
growth and repairing areas are protected and restored is 
fundamental to your bill. Saving public resources from the 
costly catastrophic fires and avoiding the risk of having 
people injured in the process of fighting fires is absolutely 
critical.
    On a family security level, this bill will provide near-
term timber jobs, it will provide the supply that people 
absolutely need, and that will translate into hitting the 
problem at the scale that we're talking about. The bill helps 
to maintain our timber infrastructure, that is in critical need 
at the moment. It will provide the raw material that is 
necessary to get to the problem. Again, building trust, having 
the science, is absolutely critical.
    Without this timber infrastructure however, meaningful 
forest restoration is simply not possible. Many of the other 
States in the Nation have come to recognize that forest health 
is critical, but they have waited too long and they have lost 
their mill infrastructure, the labor force, and the heavy 
equipment necessary, and the skill sets necessary to do the 
work. We still have a few moments left, and thank you for 
making the effort to bring this forward at this present time.
    Thank you.
    [The prepared statement of Mr. Hoeflich follows:]

   Prepared Statement of Russell Hoeflich, Vice President and Oregon 
                    Director, The Nature Conservancy

    I want to thank you, Chairman Wyden, for this opportunity today to 
offer testimony before the Subcommittee on the `Oregon Eastside Forests 
Restoration, Old Growth Protection, and Jobs Act' (S. 2895).
    My name is Russ Hoeflich, and I serve as the Oregon State Director 
and Vice President of The Nature Conservancy, a leading conservation 
organization working around the world to protect ecologically important 
lands and waters for nature and people. We have been working in Oregon 
for nearly 50 years. Nationally, we have over a million members and 
have protected more than 119 million acres of land. We have a long 
history of working with public and private partners in on-the-ground, 
collaborative forest habitat restoration projects to achieve lasting, 
measurable results
    We applaud you, Senator Wyden, for your leadership in bringing 
together a diverse group of Oregonians to craft pioneering legislation 
that will put people to work restoring Eastern Oregon's forests. Where 
Eastern Oregon was ground zero for timber wars, the Senator's Bill has 
united leaders and provided a platform for collaborative, landscape-
scale solutions to a landscape-scale problem.
    We also commend the leaders of the conservation and industry groups 
for their willingness to set aside differences and to chart a better 
future for Oregon's natural and human communities. With great thanks, 
we also praise the dedicated team at the U.S. Forest Service, who have 
been our partners on innovative projects throughout Oregon, and have 
made significant investments in forest health.
    The `Oregon Eastside Forests Restoration, Old Growth Protection, 
and Jobs Act' is a historic science-based collaboration for positive 
solutions in our forests. We need to restore forests at the scope of 
the problem and put more people to work in the woods. This Bill will do 
just that.
    The urgency couldn't be greater. Every day we face severe problems 
in our Eastside forests. About 9.5 million acres of our forests and 
woodlands are highly departed from their historical condition, making 
them at risk of unnaturally severe fire, insect damage and disease, 
which in turn threatens our streams, lakes, rivers and the safety of 
communities. Our forests lack the resiliency of a healthy ecosystem--
putting them at greater risk of catastrophic change in the face of 
climate change. And our local communities and mills are struggling, 
too.
    The need to act is now, and the pace of on-the-ground restoration 
must be accelerated. To accomplish this, this legislation establishes a 
restoration and recovery roadmap. This enables forest managers and 
communities to work together to prioritize and initiate on-the-ground 
restoration work that will improve the health of our Eastside national 
forests, watersheds and economy. The foundation of this legislation is 
trust, collaboration, and science which will allow us to advance 
restoration work to larger landscape-level scales. Ultimately the 
legislation will allow us to:

  <bullet> Establish sound science as the underlying principle of all 
        decision-making.
  <bullet> Ensure that old growth and riparian areas are protected and 
        restored.
    Save public resources from costly fire suppression efforts by 
proactively restoring the health of forests.
  <bullet> Provide near-term timber supply for our struggling Eastside 
        mills, translating into jobs in hard-hit communities.
  <bullet> Maintain our timber infrastructure by giving industry the 
        confidence, surety, and security that the raw materials they 
        need will be available over time; without our timber 
        infrastructure, meaningful forest restoration is not possible.

    The Nature Conservancy has seen first-hand how collaboration can 
make a difference on the ground, and we have an extensive history of 
working on collaborative and scientific approaches to forest 
restoration in Oregon. The Eastside Forest Restoration Bill will help 
us and our partners apply lessons learned from these efforts (including 
four restoration collaboratives facilitated by the Northwest Fire 
Learning Network) and expand them to a larger scale.
    Finally, this bill represents our best hope and our best 
opportunity moving forward for Oregon's Eastside forests. Still, we 
recognize that we must work together to secure the supporting funding 
to realize the vision that you, Senator, the industry groups, and 
conservation groups have created in this Act.
    Thank you again for your impressive work and this opportunity.

    Senator Wyden. Mr. Hoeflich, thank you very much. I don't 
want to make this a full-fledged bouquet tossing contest, but 
suffice it to say, the Nature Conservancy is always there 
trying to find ways to bring people together and look for 
innovative approaches on natural resources issues. So, we very 
much value working with you and I'll ask some questions in a 
moment.
    We now have Mr. Lillebo, well known in these parts as a 
great advocate for the environment, and go ahead.

STATEMENT OF TIM LILLEBO, EASTERN OREGON FIELD REPRESENTATIVE, 
                          OREGON WILD

    Mr. Lillebo. Thank you. I think I'm well known for some 
other things too, but we don't want to talk about those today.
    [Laughter.]
    Mr. Lillebo. I did want to say, you were asking about, what 
were the odds of this happening, conservation--some 
conservationists, some of the timber industry, getting together 
to come up, you know, with a compromise. I guess I'd kind of 
say, I think you would have a better bet with BP stock than 
having this actually happen.
    So, anyway, good morning or good afternoon, Ron, we know 
each other. Oregon Wild supports the Eastside Forest Bill, S. 
2895.
    So anyway, a little background. I was born and raised in 
Grant County and other parts of eastern Oregon, and I still 
call the dryer side of the Cascades my home. Kind of growing up 
in timber country, I did what kind of came naturally and spent 
summers in the woods, eventually being a timber faller, 
thinner, and tree planter. But as a I grew up in the 1970s and 
1980s, after kind of an explosion of industrial logging, the 
forests I'd known as a kid were just so drastically changed 
that it really, really worried me. At that time my grandfather, 
Blondie, born in Maine in 1900, grew up as a timber faller, he 
worked his way across the United States cutting old growth from 
Maine to Minnesota and on to Oregon.
    Anyway, I still remember the day when my grandfather said 
to me, he said, ``Timmy,'' and yes, Blondie used to call me 
Timmy, and unfortunately some of my friends still call me 
Timmy. Anyway, he said----
    Senator Wyden. This is getting to be Friday afternoon.
    Mr. Lillebo. It is, it is.
    Anyway, he said, ``Timmy, as we cut across the country, we 
thought the old growth would never end. It's mostly gone now 
and you should cherish what little is left of those big 
trees.'' At that time I decided Blondie was right, and I've 
dedicated the last 35 years of my life trying to protect our 
dwindling old growth forests and protect wilderness for Oregon 
Wild.
    I think that now is the time to protect the last of eastern 
Oregon's old growth with the approach laid out in your bill, 
and I really appreciate it.
    For years, my work involved filing appeals, challenging 
illegal logging sales in court and going head to head with 
timber industry representatives. I learned a pretty good 
headlock in those years, and you had to because it was pretty 
tough times, pretty serious.
    Anyway, today it means something different. Today, 
protecting eastside forests also mean working to restore those 
forests after decades of overharvest and after stopping natural 
fires. It means sitting at the same table with former 
adversaries and working together to find a solution. Believe 
me, I never thought that I'd be sitting here with the likes of 
Boise Cascade's Tom Insko right over there, but really, I think 
it's good to be here with him, and it's good to be supporting 
this bill.
    Now, I think we found that the best available science tells 
us that past management has left some of our dryer eastside 
forests out of whack. By the way, out of whack is a technical 
science term. We can ask Dr. Franklin about that, he'll tell 
us. Anyway, and we think the careful restoration management, 
using prescribed fire, using mowing, and yes, chainsaws is a 
crucial strategy to get back to more natural conditions.
    I have become a believer in this restoration paradigm, 
using science, and I have worked with the U.S. Forest Service, 
Warm Springs Tribes, and other community stakeholders to design 
an old growth restoration thinning project on the Deschutes 
National Forest near Black Butte Ranch. The Glaze Forest 
Restoration Project aims to reduce the risk of forest fires to 
private lands and homes, and it aims to protect old-growth and 
protect wildlife habitat, by removing small unnaturally dense 
trees.
    Anyway, this winter crews went out and began implementing 
the thinning prescriptions on that project. I am glad to see 
it. It's a learning process, and I think we can all learn from 
it, but I would like to see more of these restoration concepts 
applied in more places.
    Hey, I like wilderness as much as the next guy. Maybe a 
little more than the next guy, Tom. Anyway, but I think we know 
now more than ever there is common ground between some of the 
conservationists, some of the timber industry, about 2 ideas, 
Oregon's old growth forests are too few and too important to 
log, and 2, active restoration in certain dryer areas can 
improve forest resiliency and provide jobs and wood products 
for rural economies for decades to come.
    I think this bill reflects the shift in science-based 
restoration that is needed on a lot of our national forests, 
not everywhere, there's places that don't need anything like 
this, but there are plenty of places that do. It would 
implement the common ground reach between the different 
interests, it would provide meaningful protections for old 
growth forests and important streams, salmon and steelhead 
streams, it would ensure that necessary restoration work and 
the associated wood products would be produced for benefits of 
the local communities. A panel of respected scientists would 
recommend actions and priorities, and I think that's a real key 
element to this, actually having a panel that would say, ``Hey, 
we'll make recommendations on what should happen out there.'' 
Anyway, I think it's a good--implementation would be a big step 
forward.
    Just to wrap up here. The reality in the forest has changed 
and Oregon Wild has changed. Yes, we still work to stop old 
growth timber sales, no doubt about it, and we protect the last 
of our wilderness. Hey, how about that Mount Hood Wilderness 
Bill? Thanks a lot Ron Wyden, appreciate that.
    We also see there is a value in science-based restoration 
of our forests. We feel it's important to work with scientists, 
communities, timber interest, Federal agencies, politicians, 
everybody to move forward with the approach in your bill, so 
that these Oregon treasures are here for future generations.
    Thank you.
    [The prepared statement of Mr. Lillebo follows:]

Prepared Statement of Tim Lillebo, Eastern Oregon Field Representative, 
                              Oregon Wild

    Thank you for the invitation to testify today in support of the 
Oregon Eastside Forest Restoration, Old-Growth Protection, and Jobs 
Act. We thank you Senator Wyden for introducing your Eastside Forest 
Bill.
    I was born and raised in Grant County and other parts of eastern 
Oregon, and I still call the drier side of the Cascades my home. I love 
exploring the forests of eastern Oregon and hunting in the backcountry.
    Growing up in timber country, I did what came naturally and spent 
summers in the woods as a timber faller and thinner. But starting in 
the early 1970s, it was easy to see that something was changing in the 
forest. By the late 1980s--after an explosion in industrial logging--
the forests I had known as a child had been drastically altered.
    In 1987 alone, over 1.5 billion board feet of timber was cut down 
in eastern Oregon's federal forests. At the same time, the move towards 
automated mills and massive timber exportation meant that much of the 
local economic benefit from logging wasn't even staying here in 
Oregon--but we were all paying for the decline of our forests.
    My grandfather, ``Blondie'', born in Maine in 1900, grew up as a 
timber faller. He worked his way across the U.S. cutting old growth 
from Maine to Minnesota and on to Oregon.
    I still remember the day when my grandfather said, ``Tim, as we 
cut, we thought the old growth would never end. Well, it's mostly gone, 
and you should cherish what little is left of the big trees.'' I 
decided ``Blondie'' was right, and I've dedicated the last 35 years of 
my life to protecting our dwindling old-growth forest ecosystems 
working for Oregon Wild. It's time now to protect the last of eastern 
Oregon's old-growth with the approach laid out in Senator Wyden's bill.
    For years, my work involved driving all over eastern Oregon filing 
appeals, challenging illegal logging sales in court, and going head to 
head with timber industry representatives in public debates and in the 
media. Today, it means something different. Today, protecting eastside 
forests also means working to restore it after decades of over-harvest 
and exclusion of natural fire from the landscape. It means sitting at 
the same table with former adversaries and working together to find a 
solution to unhealthy forests and streams. Believe me; I never thought 
I would be sitting here with some timber industry folks supporting the 
same piece of legislation. Miracles still happen.
    Throughout my time as an advocate for Oregon's wildlands I have let 
science be my guide. I fought to protect Wilderness and roadless areas 
because ecologists said these were the last, best places for native 
wildlife to survive and thrive. I worked to protect forests along 
streams when biologists warned of the dire impacts riparian logging 
would inflict on threatened salmon and trout.
    Now, the best available science tells us that past management has 
left some of our drier eastside forests out of whack and that careful 
restoration using prescribed fire, mowing, and, yes, chainsaws is a 
crucial strategy to get them back to more natural conditions.
    I've taken this new information to heart and become a fervent 
believer in this restoration paradigm. Over the past few years, I've 
worked with the U.S. Forest Service, the Warm Springs Tribes, and other 
community stakeholders to design an old-growth restoration thinning 
project on the Deschutes National Forest near Black Butte Ranch. The 
Glaze Forest Restoration Project aims to reduce the risk of forest 
fires to adjacent private lands by removing small, unnaturally dense 
trees; protect old-growth trees and wildlife; and restore a more 
natural landscape where low-intensity fires can once again play a 
natural role in maintaining the health of the land. The project 
considers the needs of a variety of wildlife and plants, and applies 
science-based restoration principles that build diversity and long-term 
forest health into the picture. This winter, crews began implementing 
the prescriptions that were so carefully worked out, and I am proud to 
see it. In fact, I'd like to see projects like it done in many more 
places.
    Many environmental organizations--Defenders of Wildlife, The Nature 
Conservancy, Pacific Rivers Council, National Center for Conservation 
Science and Policy, the Klamath-Siskiyou Wildlands Center and Oregon 
Wild, to name a few--support the science-based restoration that would 
be implemented under this legislation.
    Now, more than ever, there is common ground between 
conservationists and the timber industry around two ideas: 1) Oregon's 
old-growth forests are too few and too important to log; and 2) active 
restoration in certain drier areas can improve forest resiliency and 
provide jobs and wood products for rural economies for decades to come.
    This bill reflects the shift in science-based restoration that is 
needed on the National Forests of eastern Oregon. It would implement 
the common ground reached between conservationists and the timber 
industry, effectively ending decades of division and controversy. It 
would provide meaningful protections for old-growth forests and 
important streams and it would ensure that necessary restoration work 
and the associated saw-logs would be produced in a timely manner for 
the benefit of eastern Oregon's communities. A panel of respected 
scientists would recommend restoration actions and priorities. While 
not exactly what Oregon Wild would have written, the bill has 
sideboards and protections enough that we feel confident its 
implementation will be a big step forward.
    The reality in the forest has changed. Oregon Wild has changed. 
Yes, we still work to stop old-growth timber sales and protect the last 
of our wilderness, like the Mt. Hood Wilderness Bill, thank you Senator 
Wyden, but we also see the value in science-based restoration of our 
forests. We feel it's important to work with scientists, communities, 
timber interests, and federal agencies to move forward with the 
approach to protecting and restoring eastern Oregon's forests and 
watersheds found in your bill Senator Wyden, Senate Bill 2895, so that 
these treasures are here for future generations.
    A poll shows Oregon voters--including a strong majority of those 
living in the vast Eastern Oregon congressional district that would be 
most affected--support a compromise forest management plan that allows 
thinning while protecting old-growth trees and limiting new logging 
roads.
    The poll by Public Opinion Strategies showed that 77 percent of 
respondents support the Oregon Eastside Forest Restoration Act drawn up 
by Sen. Ron Wyden, conservation groups and timber industry 
representatives. Half the respondents interviewed are residents of the 
2nd Congressional District, which covers much of Oregon east of the 
Cascades. About 75 percent of them approve of the plan, according to 
the poll.

    Senator Wyden. Mr. Lillebo, thank you very much, and 
there's never been a discussion about natural resources that 
you have participated in that's been dull.
    [Laughter.]
    Senator Wyden. I thank you, I thank you again on a Friday 
afternoon for making sure you drive home with what this 
discussion really is about, and that's finding, you know, 
common ground. I know, just as has been the case, Strinsko 
talks about that not always does everyone who's part of your 
natural constituency agree, because I know you've had to push 
the boundaries, in terms of some of these issues with folks in 
the environmental community, on some projects that are actually 
fairly close to here.
    Mr. Lillebo. Oh yes, that's true.
    Senator Wyden. We're going to have some questions about 
that.
    Mr. Lillebo. I think I've got some bounties on my head from 
both sides of the issue right now, but, you know, I can live 
with that, because I think we're going in the right direction.
    Senator Wyden. Very good.
    Let's start, if we could, with you, Dr. Franklin, because I 
think you've laid out the case, again today, and you have in 
your important articles on these issues, certainly, in the last 
4 or 5 years, about the consequences of failing to undertake 
the treatments.
    In your view, what scale and pace is need to really treat 
the lands now, to play catch up ball?
    Mr. Franklin. I think, you know, Norm and my view on this 
would be, first of all, this has to be approached at the 
landscape scale. If we had our druthers, we would approach it 
at effectively the scale of the dry forest and dry forest 
landscapes throughout the Federal lands in eastern Washington 
and eastern Oregon, we'd do the whole thing and would do it a 
planning sense very quickly with an alpha team, a really first-
rate team of managers and researchers working together that 
know the land, know the issues. So, it needs to be done on a 
large spatial scale. It needs to be planned and implemented 
that way.
    Second, in terms of time, I think given what is happening, 
we generally would like to see a program that would accomplish 
effectively the restoration treatments that are needed on that 
entire landscape in a 20-year period. This is what we proposed 
when we did the plan for the Klamath. It would be a reasonable 
plan, however, you know, obviously the agency at this point 
would probably not be capable of doing it that quickly, at 
their current level of staffing.
    So, you would have to effectively increase the work force 
in the Forest Service, in particular, in order to be able to do 
a program on that kind of a time scale.
    Senator Wyden. Any of you others like to comment on this 
question of scale and pace?
    Mr. Hoeflich.
    Mr. Hoeflich. If you assess the present activities that are 
occurring in Oregon, and we've heard from others, and the 
estimates are somewhere between 20 to 30,000 acres being 
treated per year. The best of scientists who have worked with 
Norman and some of our staff from our fire learning network, 
have identified the need to be treating roughly about 500,000 
per year. How you ramp up to that is going to be the question. 
Having community collaboratives under way designing and 
executing I think is going to be strategic, but we're going to 
have to get the resources and build the budget so the Forest 
Service--but get away from the point where we're spending such 
a high percentage of the Forest Service budget fighting fire, 
we've got to get them proactively restoring versus the 
fighting.
    Nineteen percent of the Forest Service budget was spent 
fighting fire 10 years ago, we're now up to 50 percent of their 
budget being spent fighting fires. We need to reinvest 
proactively in avoiding those catastrophic fires and putting 
the communities to work doing that.
    Senator Wyden. Not only is that the case, but these 3 
staffers constantly, every year, as the fires come in and the 
cost keep rolling in, watch the service have to move money from 
one account to another. It's almost a shell game. I've tried to 
point out, and I think Mr. Gladdard knows that, you know, 
during the years when Senator Craig chaired the subcommittee 
and I was the ranking member, we would both point out that this 
was a bipartisan ripoff, in effect, where you would short the 
prevention accounts and have to constantly shovel more money 
out the door, in terms of fighting fires. So, clearly if we can 
get into these areas early and do the kind of thinning we're 
talking about, we're going to reduce the prospects of every 
year having to move money from the fire accounts to prevention 
accounts and back and forth trying to figure out how to move 
the pee around in order to keep on top of literally 
conflagration. So, it's a good point.
    Anything else from the panel on scale and pace?
    Mr. Walls.
    Mr. Walls. Scale and pace in my testimony, Senator, I said 
20 years too. I remember the conversation when the Collins 
Companies got the contract for 3,000 acres a year for 10 years, 
and Wade Mosby called me, he says, ``Jim, we can't survive. We 
will not overharvest our land to feed our mill. Our priority is 
to the land.'' I bring this because we've got to reauthorize 
stewardship contracting in the future. I said, ``Wade, trust 
me, retained receipts and stuff are going to get us there.'' It 
did, and right off the bat we were hitting our mark of being up 
that 8-10,000 acres, and then the current market hit.
    But, you know, with that coming back and bills like this, 
that's what we've got to aim for. We've got to notch that up a 
bunch.
    Senator Wyden. Good point.
    Let's move to a specific issue, and I'm going to send this 
your way, Dr. Franklin.
    Do you have another copy for Dr. Franklin?
    This is about the Glaze project that you touched on in your 
written testimony, Dr. Franklin. It's my understanding you've 
been to it. There was a recent article, this is what I'm 
showing you here, in the Bend Bulletin, that basically outlines 
the opposition to the project by the Sierra Club, which had 
recently endorsed the project. I guess the eastern Oregon field 
organizers suggested that there was no science to support 
cutting any trees larger than 14 inches in diameter. Why don't 
you, because you've had a chance to actually see the project, 
give us your professional assessment of this perspective, and 
in your judgment, they integrity of the restoration science 
used to develop the Glaze project.
    Mr. Franklin. OK, well let me begin by simply that, you 
know, this is the kind of argument that you get into if you 
think it's only about fire and fuels, and it's not. It is about 
the forest density, and it's very clear, in fact, that there 
are often trees 14, 16, 18, 20, 24 inches that, in fact, 
represent serious threats to the old pine trees. OK, so this--
obviously the individual who was criticizing this has not seen 
the literature with regards to the consequence of excessive 
stand density, and the effect that it has on the growth and 
ultimately the survival of the old trees. So, they don't 
understand what the stands were like historically.
    In this particular case, this tree was, I think, was next 
to an opening, it was next to a meadow. One of the very 
important things that we need to do in restoring these 
landscapes is, in fact, to restore the non-forested, the 
historically non-forested portions of those and get that 
hardwood component that's so important to the wildlife back.
    Now, to come to the Glaze project specifically, I've been 
there twice, once with my class and once on my own. I thought 
that the silvicultural prescriptions were extraordinary, 
extraordinarily good, creative, appropriate, and protective of 
the core ecological values in those areas. So, you know, this 
may be damning with faint praise, but I don't see that I could 
improve in any way on that silvicultural prescription, and no 
one would accuse me of being a timber beast, I believe.
    Senator Wyden. Don't remember too many rallies accusing you 
of being a timber beast.
    Mr. Franklin. No, I don't think so.
    So, a superb silvicultural effort.
    Senator Wyden. Dr. Franklin, thank you, and I appreciate 
your walking us through it, because I read that article and 
clearly this has Mr. Lillebo featured in it too, and I'm sure 
he's got some--got some cuts on his back from getting in the 
middle of all this with some of his friends, and I appreciate 
your walking us through the science on it.
    Let me turn, if I could, not to you, Mr. Insko, on an issue 
that, to me, doesn't get as much attention as it should, and I 
think it's one where folks in the forest product sector deserve 
a lot of credit. That is, you all have put considerable 
investments in new technology. I think it would be good to 
elaborate on what the investments are that get you to this 
point, where if we can get this legislation passed and you can 
get additional fiber to the mills, you can use the technology 
you now have more fully. Then talk to me a little bit about 
what might be further technological innovations that we could 
see in the future. Because as I look at the great challenges of 
our time, and Mr. Lillebo was kidding when he was talking about 
the chances and BP and what have you, but the great challenges 
of our time involve consistently, how are we going to be 
innovative.
    I often think that I want to be chair of the innovation 
committee, because whether it's energy or forestry or 
healthcare, this is the real value added for the future, and 
it's true in forestry and it's true in energy and oil and 
healthcare and everything else. So, talk to us a little bit, in 
terms of the technological innovations you've made at the Boise 
system the last couple years, and what we could possibly see in 
the next few years if Boise is able to hang in this area as a 
result of getting additional fiber?
    Mr. Insko. Big subject, so I'll try to keep somewhat 
focused. Just in terms of the changes we've gone through as a 
company in the last 10 to 15 years have been primarily driven 
by resource, obviously, given that's the driving force behind 
our business. So, we've retooled our facilities, and I'll use 
the Elgin plant as the example, where today, we bring 
everything from pulp wood, which is considered non-merch wood 
down to like a two-inch top, so the tops of trees and dead 
material, into that plant. We try to merchandise any saw log 
component out of that, in addition to the natural saw log 
volume that get.
    From that, we produce chips for the paper mills, and then 
we are producing veneers and stud lumber at that location. As I 
said, a 10.4 inch diameter is not a large old growth log. In 
fact, our maximum diameter we can handle at that location is 33 
inches. We're not after large old growth trees out in our 
national forests. We don't see those as something that's even 
really attainable, quite candidly, because it hasn't been.
    Where we have opportunity, I think, going forward, is in 
the biomass front potentially. If there's going to be 
successful biomass development in our opinion, it's going to be 
in conjunction with existing industry, not by itself. The 
economics of biomass suggest you need to be doing that in 
combination with other activity out in the forest, so that the 
overarching economics makes sense. But if you only focus on one 
component, the economics won't pencil out, it will always have 
to be a subsidized industry, which we don't believe we want to 
see in the future.
    So, what we would look at in Elgin, is the possibility of 
co-gen construction there where we would be producing energy 
and adding that----
    Senator Wyden. Not the facility you have.
    Mr. Insko. Exactly, the existing facility.
    Senator Wyden. You would add a significant co-generation--
--
    Mr. Insko. Yes.
    Senator Wyden [continuing]. Program.
    Mr. Insko. That's the possibilities out there if there is 
active management and a supply of fiber that you can count on. 
But these aren't small projects, as many of you know. To put in 
a 25-megawatt co-generation plant, you're talking about $75 
million. That's a lot of money and you have to have some sort 
of assurance that you're going to have fiber to support that 
kind of investment. So if we saw an opportunity out there, 
that's definitely something that fits well with our existing 
infrastructure, but would add to the jobs and our long-term 
viability.
    Senator Wyden. Let's go right to you, Mr. Walls, because 
Mr. Insko mentioned biomass, and we have, of course, a separate 
biomass section in the bill, because it is so important. Lots 
of people in government and politics talk about biomass. You're 
one of the few people who's actually a practitioner in the 
biomass field. Any suggestions for the biomass section of the 
bill?
    Mr. Walls. I'm not only a practitioner, some accuse me of 
making a career out of it, which I have probably. I think, you 
know, technology-wise--and I totally agree, by the way, biomass 
has to be with primary producers, a saw, a mill or something, 
it's not a standalone industry, it doesn't pencil out.
    The other things, and I know we're working on it with E 
Petrol on this plant, is increasing pressures and doing stuff 
like that, that it takes less volume to go in and more output, 
you're increasing efficiencies is what you're doing. That 
technology is being worked on, and I think that's some of the 
future that's going to be.
    Senator Wyden. Final question for Mr. Hoeflich and Mr. 
Lillebo, any additional thoughts on collaboration. That's what 
this bill ultimately is all about. In other words, we are 
trying to break the gridlock. I think Mr. Webb, who's with us, 
still makes a valid point, that if you had sufficient funding, 
No. 1, and an actual way to jumpstart the process of breaking, 
you know, the gridlock, you wouldn't need legislation. We just 
haven't had either one, and the 2 actually, in my view, go hand 
in hand. But that goes to the lessons of collaboration over the 
years.
    Do any of you have any final thoughts you'd like to add 
on--on how we actually put in place these collaborative efforts 
in the real world?
    Mr. Hoeflich. Thank you. This is a critical question. I 
think the key has been to bring the communities together to 
have the conversations. The question is, what do they need in 
order to make informed decisions. Having scientists available, 
having expertise from the Federal agencies, my carrier and the 
Governor have done extraordinary work to bring State-based 
resources to the table to help inform the collaboratives. Non-
profits are trying to augment wherever they possibly can, but 
bring the science to the table is absolutely critical.
    I think the next big collaborative beyond that, just moving 
up in scale, is for all of us to, again, unite behind this bill 
and help to get the financial resources necessary to execute at 
the scale of the problem.
    Senator Wyden. OK.
    Mr. Lillebo.
    Mr. Lillebo. Yes, collaboration I think has been very 
important aspect of getting out the different issues on forest 
management. I'm part of several collaboratives, one is over in 
the Malheur, co-chair with Mike Dillman, who's with Ochoco 
Lumber there. We have worked long and hard, you know, hours and 
hours, and sometimes it's a real pain--well, pardon my French--
sometimes it's very difficult to go through these projects as a 
collaborative, but what I think we've found is, we've come to 
agreements, and maybe we've only gotten 80 percent, 90 percent, 
but that's pretty darn good compared to what we used to have.
    What I think is the--potentially this bill, if we had the 
science panel, kind of showing here's some parameters for the 
science, and if people could all agree to that, I think that 
could help out in helping the collaboratives come out with a 
better product. They're a learning process, but I think there 
absolutely essential, but like I say, the bill could help out, 
you know, empowering those collaboratives and getting more 
things done on the forest.
    Senator Wyden. Very good.
    Gentlemen, we'll excuse you all. Thank you very much for 
all of your cooperation.
    Our next panel, King Williams, a member of the Gazelle Land 
& Timber LLC, Canyon City, Ivan Maluski, Conservation Program 
Coordinator, Oregon Chapter of the Sierra Club, and Craig 
Woodward, owner of Woodward Companies in Prineville.
    Gentlemen, thank you all. Let's begin with Mr. Williams, 
and good to have you again, and I know we worked together on 
some land exchanges in the past, and we'll make your prepared 
remarks part of the record and you just proceed as you'd like.

 STATEMENT OF KING WILLIAMS, MEMBER, GAZELLE LAND & TIMBER, LLC

    Mr. Chairman and members of the committee, thank you for 
asking me to come today. My name is King Williams and over my 
lifetime of living and working in eastern Oregon, I've 
witnessed the forest change from healthy and vibrant to dead 
and dying. We've heard that today, we've heard a lot of 
discussion about that today, but when our national forests in 
just northeast Oregon can grow 765 million board feet year, we 
cut less than 100 million and we let 400 million die to 
mortality, that's a crime.
    Our forests lack management, they're plagued by that, but I 
believe that the risks associated with this act far outweigh 
any perceived benefits, and will in fact exacerbate the forest 
management problems and timber supply issues which currently 
exist in eastern Oregon. The stated goals and purpose of this 
act appear to be bent, as Jack Thomas said, on increasingly 
dysfunctional, expensive, inconsistent, and confuse management. 
He goes on to agree with what I've said here, that the act will 
further confuse management through a series of mandates, 
prohibitions, and which will have no basis--little basis in 
science. The act will increase the inconsistency of management 
by requiring that the Umatilla, the Wallowa-Whitman, and the 
Deschutes National Forest manage their lands under 2 separate 
sets of rules, one set within the State of Oregon on the east 
side and one set in Washington, Idaho, and on the west side of 
Oregon. That will be more expensive.
    The myriad of new, undefined, and scientifically--
unscientifically supported management directions will add to 
the confusion and dysfunction within the U.S. Forest Service. 
There are new and creative definitions in the act, such as old 
growth, which the Society of American Foresters has pointed 
out, is inconsistent with any definition accepted by the 
scientific and professional communities. The act further 
confuses this issue by switching between old growth, to older 
trees, to older mature trees. What is an older tree? What is 
older mature tree? What is ecologically appropriate spatial 
complexity? What is anticipated future condition? What is 
acceptable levels of carbon cycling? What is the historic level 
of within forest stand spatial heterogeneity? All require 
answers.
    Within the act, economic and social considerations are 
placed secondary to anything else, in direct conflict with the 
Organic Act, the Multiple Use Sustained Yield Act, the National 
Forest Management Act, and NEPA. At one point, the act states 
that the secretary shall consider wood harvest to sustain 
adequate levels of industry infrastructure as a consideration 
in developing a methodology of management. But what is adequate 
when we're talking of industry infrastructure? Who decides 
that? We all know that the obvious answer to that is the 
courts. There's more litigation.
    The prohibitions to cutting trees over 20--greater than 21 
inches will actually--may actually prevent a healthy and 
resilient forest. That's been discussed. It's not a cookie 
cutter, and this act only codifies the cookie-cutter approach 
there and with pack fish and in fish with the codification of 
these regulations. But they also expand these mandated 
prescriptions to watersheds that are not covered under pack 
fish and in fish. Natural resource management is dynamic, it's 
temporal and requires modifications and adaptations from site 
to site.
    Actions by Congress are absolute, timeless, and aside from 
a new action by Congress, ironclad. Washington, DC, is not the 
place to determine resource management. To finance this new set 
of processes, mandates, and management direction, Congress has 
included $50 million, of which only 3 percent can be used for 
administration, requiring that the balance of the 
administrative cost for this to be taken from an already anemic 
timber management budget on these national forests. In these 
times of skyrocketing national debt, Congress should recognize 
that our vast renewable natural resources are one area 
available to produce the income necessary to dig our Nation out 
of the fiscal mess we find ourselves. We need less 
restrictions, not more expensive process.
    The passage of this act in its present form will result in 
dramatically increased process, increased litigation, continual 
ecological decline, increasing economic decline, and a 
degradation of our social fabric of our communities.
    As for resolving the timber supply and economic 
sustainability problems and improving ecological health and 
resiliency, the act will fail. In reality, controversial 
interim regulations based on questionable science will be made 
permanent by Congress, while our local communities and 
dependent industries are left with more unfunded regulations 
and restriction and empty promises of further funding.
    [The prepared statement of Mr. Williams follows:]
Prepared Statement of King Williams, Member, Gazelle Land & Timber, LLC
    Mr. Chairman and members of the Committee, thank you for inviting 
me here today to testify on SB 2895, The Oregon Eastside Restoration 
Old Growth Protection and Jobs Act of 2009. My name is King Williams 
and I am here today as a member of Gazelle Land & Timber LLC, an Oregon 
limited liability company. Gazelle Land & Timber LLC owns and manages 
timberlands in Oregon and northern California.
    I am also the President of the Grant County Resource Enhancement 
Action Team commonly known as G.R.E.A.T., Corp. This is the economic 
development organization in Grant County, Oregon. Although G.R.E.A.T., 
Corp has not taken a formal position on SB 2895, as a member of the 
board of directors for the past 13 years my perspective is consistent 
with the vision and mission of G.R.E.A.T., Corp's Board of Directors.
    I am a 4th generation resident of Grant County, Oregon. I grew up 
raising cattle on our family ranch for the first 36 years of my life. I 
have owned and operated a small sawmill in John Day until the decline 
in the federal timber supply forced my partner and I to close the mill 
like many operations in Northeast Oregon. For the past 10 years I have 
been managing our company's timber lands in Oregon and Northern 
California. Our company also owned and operated a cattle ranch relying 
upon federal grazing in Northeast Oregon. Along with over 45 years of 
owning and operating natural resource based businesses in Northeast 
Oregon, I studied resource economics under Dr. Fred Obermiller and 
received a masters in resource economics from Oregon State University. 
I have participated in numerous studies and analysis of the effect of 
natural resource management on the economy of resource dependent 
communities. One of these was the Oregon Range and Related Resources 
Evaluation Project conducted by the USFS from 1976 -1986 on the Malheur 
National Forest. As part of the Management Team for this project I 
worked closely with the USFS, BLM and other agencies in the design and 
implementation of this 10 year project. As a result of this project 
numerous articles were published concerning natural resource management 
on the forests of Northeast Oregon.
    I have not only studied the social, economic and ecological 
implications of natural resource management in the forests of Northeast 
Oregon in the academic setting through Oregon State University and as 
part of the Oregon Range and Related Resources Evaluation Project team, 
but I have invested my own time, labor and capital in the operation and 
ownership of ranches, sawmills and timberlands within this region. As a 
result of this background I am fully aware of the raw material plight 
of the industry in Northeast Oregon in general and our three Grant 
County sawmills in particular.
    I have worked for and continue to support any effort to provide 
ecologically sustainable, socially acceptable and economically viable 
management of the national forests of Eastern Oregon. Any management 
which is truly ecologically sustainable, socially acceptable and 
economically viable will ``provide a continuous supply of National 
Forest System timber for the use and necessities of the citizens of the 
United States'' while ``facilitating the stabilization of communities 
and opportunities for employment'' to the industries and communities of 
Oregon as mandated in Federal Statutes enumerated below and further 
expressed in Forest Service Manual 2402. The Statutes referred to above 
include but are not limited to:

          1. The Organic Act of 1897 which states ``No public forest 
        reservation shall be established, except to improve and protect 
        (emphasis added) the forest within the reservation or for the 
        purpose of securing favorable conditions of water flows, and to 
        furnish a continuous supply of timber for the use and 
        necessities of the citizens of the United States'' . . . ''The 
        Secretary of Interior shall (emphasis added) make provisions 
        for the protection against destruction by fire and depredations 
        upon the public forests and forest reservations  . . .  For the 
        purpose of preserving living and growing timber and promoting 
        the younger growth on forest reservations,  . . .  The 
        Secretary of the Interior  . . . may cause to be designated . . 
        .  so much of the dead, matured, or large growth (emphasis 
        added) of trees found upon such forest reservations as may be 
        compatible with the utilization of the forests thereon, and may 
        sell the same'' . . . . . . 
          2. The Multiple-Use, Sustained-Yield Act of June 12, 1960 
        which states: ``It is the policy of the Congress that the 
        national forests are established and shall (emphasis added) be 
        administered for outdoor recreation, range, timber, (emphasis 
        added) watershed, and wildlife and fish purposes''. ``The 
        Secretary of Agriculture is authorized and directed (emphasis 
        added) to develop and administer the renewable surface 
        resources of the National Forests for multiple use and 
        sustained yield of the several products and services obtained 
        therefrom,'' . . . . . .''due consideration will be given to 
        the relative values of the various resources'' . . .'' 
        sustained yield of the several products and services'' means 
        the achievement and maintenance in perpetuity of a high-level 
        annual or regular periodic output of the various renewable 
        resources. The law specifically directs that the national 
        forests be administered in part for the ``high yield'' of 
        timber products. When the law was enacted in 1960, ``timber'' 
        meant sawlogs for the lumber production. Biomass and other 
        related products were not a primary consideration. The Proposed 
        Action has no discussion of the ``relative value of the various 
        resources'' as required.
          3. The Forest and Renewable Resources Planning Act as amended 
        by National Forest Management Act of 1976 states in Sec.5 ``. . 
        .the Secretary of Agriculture shall develop and maintain on a 
        continuing basis a comprehensive and appropriately detailed 
        inventory''. Sec. 6 (f)(l) goes on to state ``. . .forest plans 
        shall form one integrated plan for each unit (defined as a 
        National Forest) of the National Forest System,''. Sec. 6 (m) 
        (l) further states ``. . .the standards shall (emphasis added) 
        not preclude the Secretary from salvage or sanitation 
        harvesting of timber stands which are substantially damaged by 
        fire, windthrow or other catastrophe or which are in imminent 
        danger from insect or disease attack,''.
          4. The National Environmental Policy Act of 1969 states ``. . 
        .it is the policy of the Federal Government. . .to use all 
        practicable means and measures. . . . . . .to create and 
        maintain conditions under which man and nature can exist in 
        productivity harmony, and fulfill the social, economic 
        (emphasis added) and other requirements of present, and future 
        generations of Americans.'' Nothing in Sec. 102 or 103 shall in 
        any way affect the specific statutory obligations of any 
        Federal Agency. . . . . . .NEPA along with NFMA Sec. 6 (b) 
        mandates that the Forest Service in their Proposed Action 
        consider the economic consequences of their actions and must 
        seek a balance between ``population and resource use which will 
        permit a high standard of living and a wide sharing of life's 
        amenities''.

    I believe that the risks associated with SB 2895 ``Oregon Eastside 
Forests Restoration, Old Growth Protection and Jobs Act of 2009'', 
hereinafter referred to as ``Act'' far outweigh any perceived benefits 
and will, in-fact, exacerbate the forest management problems and raw 
material supply issues currently existing.

                                 GOALS

    The framers of this Act came together to achieve a noble set of 
goals including:

          1. Conserving and restoring eastside forests of the State;
          2. Providing an immediate, predictable and increased timber 
        flow to support locally based restoration economies;
          3. Making the eastside forests of the State more resistant 
        and resilient and to mitigate the effects of, climate change; 
        to a healthy and resilient condition;
          4. Protection and restoration and increase of old growth 
        forest stands and trees in the eastside forests of the State;
          5. To expedite actions to conserve and restore forests of the 
        State that achieve ecological objectives and provide social 
        benefits;
          6. to promote collaboration in communities of the eastside 
        forests of the State to support natural resource and 
        restoration-based economies;
          7. to streamline administrative processes for ecological 
        restoration projects in the eastside forests of the State that 
        result in improved forest and watershed health;
          8. to conserve and restore the ecological health and natural 
        processes of aquatic and riparian ecosystems and watersheds in 
        the State;
          9. To prioritize and strategically target restoration 
        projects to improve forest and watershed health in old growth 
        forests;
          10. To provide periodic independent review of agency programs 
        in carrying out this Act;
          11. To recognize that the threats to forest health, watershed 
        health and rural economies have reached emergency status; and
          12. To ensure that Federal land managers in the State are 
        good neighbors to private landowners.

    These goals were bent out of decades of ``increasingly 
dysfunctional, expensive, inconsistent, and confused. . .'' management 
of the National Forests of Eastern Oregon. This is as described by 
former Chief of the United States Forest Service, Jack Ward Thomas, in 
a guest editorial printed in the Oregonian Newspaper, January 22, 2010, 
titled ``What's wrong with the eastside forest compromise'', attached 
hereto and its entirety included as part of this testimony.
    The Act fails to achieve some of the primary goals of the Act as 
listed above.
Providing an immediate, predictable and increased timber flow to 
        support locally based restoration economies
    The Act fails in this aspect on several levels:

          1. The primary reason for the lack of supply of timber for 
        the industries and local resource dependent communities of 
        Eastern Oregon is the lack of timber offered by the National 
        Forests;

          a. The National Forests have over the past decade, been 
        forced through litigation to increase the level and expense of 
        planning associated with each project;

                  i. Increased expense associated with reduced budgets 
                have resulted in a decrease in the number of projects 
                planned and implemented, which would result in timber 
                for the industries;

          b. The Projects planned on the National Forests have 
        increased in complexity and each project has produced less and 
        less raw material therefore have become less and less 
        economically efficient;
          c. The Act does not include any direct, long term; 
        sustainable funding to ensure that sufficient number of 
        projects can be planned and implemented to provide a 
        predictable and sustainable supply of raw material.
          d. Senator Wyden promises to make every effort to achieve 
        funding but he has been in the majority and chairman of this 
        committee for several years and funding is still inadequate, 
        why should things change now?

          2. Litigation has been a major stumbling block to the USFS in 
        planning and implementing an adequate number of projects on the 
        National Forests of Eastern Oregon which would result in a 
        predictable and sustainable supply of raw material to the 
        industry and communities of Eastern Oregon.

          a. This Act will only increase the incidence of litigation as 
        described below.

          3. The Eastside Screen which include a 21 inch limit on trees 
        cut along with the requirements included in PACFISH and INFISH, 
        both of which were initiated without a NEPA process and without 
        scientific basis, have been another stumbling block to good 
        forest management and the ability of the USFS to provide an 
        immediate, predictable and sustainable supply of timber to the 
        industry and communities of Eastern Oregon;

          a. The USFS has over the last decade developed an effective 
        framework within which to comply with these management 
        directions (which have internal flexibility) in their planning 
        and implementation of National Forest management projects.
          b. This Act, by congressionally codifying and even expanding 
        the 21 inch management direction, PACFISH and INFISH 
        regulations, will result in a further decline in raw material 
        supply.
          c. This Act not only completely prohibits the harvest of any 
        tree over 21 inches DBH, which has no basis in science, but 
        also allows for the prohibition of the harvest of trees under 
        21 inches based upon unknown set of standards or guidelines or 
        whim of an Advisory Panel.
          d. The restrictions stated in this Act will directly result 
        in less raw material supply to the industry and communities of 
        Eastern Oregon.

          4. The additional layers of process required by this Act will 
        increase the expense of each project and will expand the time 
        required for each project.
          5. Finally, this goal is an overt attempt by Congress to tell 
        the communities of Eastern Oregon the type of an economy which 
        the lands managed by the USFS will support, ``restoration 
        economies'';

          a. Initially there is no definition of a ``restoration 
        economy''
          b. The Organic Act of 1897 states that the national forests 
        are ``to furnish a continuous supply of timber for the use and 
        necessities of the citizens of the United States'' it does not 
        limit to ``restoration economies''
          c. To limit ``timber flow to support locally based 
        ``restoration economies'''' is problematic at a minimum. What 
        does this really mean?
Making the eastside forests of the State more resistant and resilient 
        and to mitigate the effects of, climate change
    The Act fails goal as well for the following reasons:

          1. The codification of the 21 inch rule which prohibits the 
        harvest or removal of any tree over 21 inches does not add to 
        the restoration of the health of the national forests of 
        Eastern Oregon.

          a. The codification of this rule simply appeases the radical 
        environmental factions and is not supported by science.
          b. 21 inch trees are not necessarily Old Growth,
          c. All trees die and under current conditions where the 
        forests are in a highly overstocked condition, these trees may 
        even die sooner due to the stress.
          d. Forest management is dynamic and many ecotypes within the 
        forests are far healthier with a mixed age stand of trees. With 
        a congressionally mandated prohibition of the harvest and 
        removal of any tree over 21 inches, these areas will be 
        difficult to bring back to a healthy state.
          e. The expansion of the 21 inch rule to allow for the 
        prohibition of trees under 21 inches even makes forest 
        management more difficult.
          f. Congressional codification and expansion of this rule 
        removes some of the tools available to the professionals who 
        are charged with and hired to manage the forests in an 
        ecologically sustainable manner.

          2. The codification and expansion of the PACFISH and INFISH 
        regulations add nothing to the goal of restoring the forests of 
        Eastern Oregon to a healthy and resilient condition.

          a. The rules as currently in existence provide the necessary 
        protection intended while allowing the USFS the ability to 
        modify prescriptions on a site by site basis.
          b. The codification of these rules takes away the ability of 
        the professional forest managers to manage the forests 
        ecosystems to the needs of each specific site. Rather they will 
        be held to a cookie cutter approach.
          c. This Act not only codified the PACFISH and INFISH 
        regulations but expands them in Section (5) (a)(4)(b)(v) ``for 
        watersheds NOT IDENTIFIED (emphasis added) as key and priority 
        watersheds, as identified under PACFISH and INFISH'' to mandate 
        certain management prescriptions for these areas as well.

          3. The Act provides no new tools to the USFS in the pursuit 
        of a more healthy and resilient forest. In-fact the additional 
        layers of process and the stricter regulatory nature of the 21 
        inch rule, the less than 21 inch rule, the ``watershed 
        management'' regulations in Section (5), and the inclusion of a 
        new definition of ``Old Growth'' in Section (2) (14) which 
        includes a single ``tree'' actually take away tools the USFS 
        was able to utilize in the pursuit of a healthy and resilient 
        forest.

          a. Implicit in any action which reduces the tools available, 
        restricts the options available and increases the layers of 
        process is a reduction in effectiveness.

          4. There has been extensive research, data and reporting by 
        the Oregon State Climatologist (``Climate Change-Global and in 
        Oregon'' by State Climatologist George H. Taylor). Included in 
        the findings was the fact that data in Eastern Oregon 
        demonstrates a consistent temperature regime with cooling and 
        warming cycles throughout history and continuing today.

          a. Without arguing the global warming issue, one of the goals 
        of forest management is to be aware of the implications forest 
        management decisions have upon the release and/or sequestration 
        of carbon.
          b. This Act through the insistence upon retention of old 
        mature and dying trees will implicitly increase the carbon 
        release into the atmosphere and reduce the level of 
        sequestration of carbon as follows;

                  i) The notion that you can store more carbon in 
                larger diameter trees'' is flawed and inconsistent with 
                science. In-fact the best way to sequester carbon 
                through the utilization of ``large diameter trees'' is 
                to harvest them and utilize the wood in construction so 
                as to make a ``carbon bank'' in each board. Science 
                demonstrates that as the Consumers of carbon, ie trees, 
                grow they ``consume'' carbon which can be sequestered 
                in the ``carbon bank'' through harvest at the 
                appropriate time (before decomposition begins). If the 
                tree is allowed to die and begin decomposing, even 
                while standing, it begins the process of producing 
                carbon again and releasing it into the atmosphere. 
                Additional return of carbon to the atmosphere occurs 
                through the nonbiological process of combustion, both 
                through the purposive use of wood in a fireplace and 
                the accidental fire in a forest or building. (Concepts 
                of Ecology, by Edward J. Kormondy).

          c. Therefore, this Act will actually be counter productive in 
        the desire to sequester more carbon in the National Forests.
To expedite actions to conserve and restore forests of the State that 
        achieve ecological objectives and provide social benefits
    This goal is accompanied by the goal which states:

          To expedite actions to conserve and restore forests of the 
        State. . . 

    These goals are similar to the goal which states:

          To streamline administrative processes for ecological 
        restoration projects in the eastside forests of the State that 
        result in improved forest and watershed health

    The Act completely fails to expedite any actions, or to streamline 
any administrative process.
    The management of these National Forests has been frustrated by a 
continual series of litigation on the part of extreme environmental 
groups to confound, disrupt and ultimately stop all management of the 
National Forests of this region. As a result of this stream of appeals 
and litigation, the ecological health of the forests has drastically 
declined resulting in millions of acres of overstocked, decadent, 
insect and disease ridden dead and dying, fire prone forests.
    Along with the declining ecological state of these National 
Forests, the flow of raw materials produced by these forest ecosystems 
has ground to a near halt, which in turn has resulted in the mass 
exodus of industrial infrastructure in the surrounding communities. 
With this dramatic decline in industrial base, the communities of 
Eastern Oregon are in a free fall far more severe than the nations 
economy is experiencing. The 10 percent unemployment experienced on a 
nationwide basis at this time would be looked at in many areas of 
Eastern Oregon as good news when these communities have been 
experiencing nearly 20% unemployment on a regular basis during this 
decimation of our local economies, our surrounding environment and our 
way of life.
    There is however, a disconnect between the problems enumerated 
above, the desire of the framers of this Act to meet the goals also 
described in the Act, and the reality of what will actually happen if 
the Act, ``The Oregon Eastside Restoration Old Growth Protection and 
Jobs Act of 2009'' , becomes the law of the land through passage of SB 
2895 concurrence by the House of Representatives of an identical bill 
to become a congressional act which will then be signed by the 
President of the United States.
    Natural resource management is dynamic, temporal, and requires 
modifications and adaptation from site to site. Actions by the Congress 
of the United States, signed as a PUBLIC LAW by the President of the 
United States are absolute, timeless and aside from passage of another 
Congressional action to be signed into law by the President of the 
United States, is iron clad. Washington DC and Congress are not the 
place to determine resource management.
    It is highly unlikely that the Act will be successful in the 
attempts to address the prolonged process of getting forest management 
projects implemented in a timely fashion. The Act addresses the wrong 
problem. It is not management science that is the problem. The problem 
in getting projects initiated on the ground is protracted processes 
required to achieve a judicially viable project. While appeals delay 
Forest Service programs, they do not entirely stop the programs. It is 
the continued threat of litigation by the ``Environmental Litigation 
Industry'' that stops the process and this Act does not resolve that 
problem.
    The new processes spelled out will do little to get more projects 
on the ground.

          1) The Advisory Panel as proposed in the Act is destined for 
        disaster;

          a. Legislated advisory panels (like the Committee of 
        Scientists in RPA) have been shown to be ineffective and a 
        waste of taxpayer money;
          b. The Advisory Panel specified in the Act will add a 
        cumbersome layer of process to a variety of decisions;
          c. How can one, seven (7) person panel be expected to provide 
        the mandated input to the issues on each of the six (6) 
        National Forests and the associated Collaborative Groups;
          d. The combination of mandates including the Advisory Panel, 
        the Collaborative Groups and coordination with the 
        ``Secretary'' will absolutely guarantee paralysis; and e. The 
        addition of the Advisory Panel and the Collaborative Groups 
        will add two (2) additional layers which are being legalized, 
        codified and mandated by Congress which will direct US Forest 
        Service management programs, essentially bypassing the 
        Secretary of Agriculture.

          2) The myriad of reports mandated within this Act will by 
        definition increase process and will add layers of 
        administrative work to an already overly complicated process;
          3) The Advisory Panel and Collaborative Groups leave out the 
        mandated coordination required by current law to include county 
        government, grazing permitees, neighboring landowners and other 
        valid interest holders; and
          4) The new processes, procedures and restrictions spelled out 
        in the act are by definition ``more process''.

    The Act fails to limit process, and actually dramatically adds to 
the process required to get a project on the ground. A related issue of 
process will occur on the Umatilla and Wallowa-Whitman National Forests 
where the USFS will be required to manage the lands in Oregon (under 
this Act) under the set of rules set forth in this Act, while managing 
their lands located in the States of Washington and Idaho, which are 
part of the Umatilla and Wallowa-Whitman forests under a different set 
of rules.
To promote collaboration in communities of the eastside forests of the 
        State to support natural resource and restoration-based 
        economies
    The Act again fails this goal for the following reasons:

          1. Collaborative groups are already authorized and working 
        within the Eastside National Forests to congressionally mandate 
        and muddle the process of establishment, management of and 
        purpose is counter-productive
          2. This Act states that ``the Secretary shall ensure that the 
        collaborative group be comprised of diverse backgrounds and 
        represent various interests that include at a minimum--
        environmental organizations, timber and forest products 
        industry representatives and county government''. To explicitly 
        identify certain members while excluding other groups and an 
        individual is problematic, divisive and will be the subject of 
        litigation rather than collaboration.
          3. The Act further defines how the group will operate which, 
        as with the mandate of the composition of the group will result 
        in the group being less collaborative and more divisive and 
        liturgical.
          4. The Act also establishes a complaint procedure which 
        implicitly encourages divisiveness and litigation even in the 
        makeup, operation and decisions of the collaborative group, 
        which is contrary to the goal.

                           FOREST MANAGEMENT

    Within the framework of the Act, economic and social considerations 
are always placed secondary to anything else, in stark contrast to the 
objectives of forest management spelled out in the Forest Service 
Manual (FSM 2402) which includes six (6) goals and the first is ``To 
provide a continuous supply of National Forest System timber for the 
use and necessities of the citizens of the United States.''. This 
secondary status of economic and social considerations is evidenced 
most notably in Section (4) ``Forest Management'' (a) ``Management 
Goals''(1) of the Act wherein the Act enumerates four (4) specific 
goals as follows:

          A. ``to conserve and restore the health, natural structure, 
        processes and functions of the forests and watersheds located 
        in the covered area;''
          B. ``to reduce the risk of uncharacteristic disturbances from 
        fire, insects and disease;''
          C. ``to allow for characteristic natural disturbances;'' and
          D. ``To increase resistance and resiliency of the covered 
        land to uncharacteristic events.''

    Although noble in an of themselves, the explicit and direct 
exclusion of any reference to any social or economic consideration puts 
this Act in direct conflict with The Organic Act of 1897, The Multiple-
Use, Sustained-Yield Act of June 12, 1960, The Forest and Renewable 
Resources Planning Act as amended by National Forest Management Act of 
1976, and The National Environmental Policy Act of 1969.
    As part of the direction from Congress in this Act as to how to 
``implement'' ``Forest Management'' Section (4)(a)(2)(B) includes 
fifteen items which the projects ``could potentially help achieve''. 
This section states that ``the Secretary (USFS) shall CONSIDER 
(emphasis added) methodologies that COULD POTENTIALLY (emphasis added) 
help achieve'' a list of these fifteen items and only one, number nine 
(9) has economic or social considerations. This one, number nine (9) 
lists ``wood harvests to sustain adequate levels of industry 
infrastructure.'' Even the listing of this one item as a part of 
fifteen items which could potentially be helped, is confusing, 
inadequate, and opens the door for litigation in and of itself for the 
following reasons:

  <bullet> ``Industry infrastructure'' is a non-defined element.

    --What does it really mean?
    --And who will make the determination as to what infrastructure is?

  <bullet> What is an ``adequate level''?

    --To whom is the adequacy relevant?
    --Who is to determine if the level of ``wood harvest'' 
            ``adequate''?

  <bullet> What is an ``adequate level of industry infrastructure''?

    --The obvious answer to these questions is that it will fall upon 
            the courts to make these determinations. MORE LITIGATION

    When The Congress of the United States of America makes a law which 
is in turn signed by the President, it becomes a ``Public Law'' which 
MUST be followed and when confusion as to intent is encountered, the 
courts are called upon to interpret. The following are just a short 
list of issues that the courts (which many of us have little confidence 
in) will be called upon to decipher:

  <bullet> ``anticipated future conditions''
  <bullet> ``sufficiently uniform''
  <bullet> ``acceptable range'' of;

          <bullet> Species composition
          <bullet> Ecosystem function
          <bullet> Carbon cycling
          <bullet> Hydrologic function

  <bullet> ``potential natural vegetation''
  <bullet> ``best available science''
  <bullet> ``within forest stand spatial heterogeneity''
  <bullet> ``older trees''
  <bullet> ``older mature trees''
  <bullet> ``ecologically appropriate spatial complexity''
  <bullet> ``appropriate understory plant community composition and 
        condition''
  <bullet> ``professional society''
  <bullet> ``maximum extent practicable''
  <bullet> ``local economic value potential''
  <bullet> ``restoration economies''
  <bullet> ``as soon as practicable''
  <bullet> ``minimum quantity of timber based upon the need to maintain 
        a sustainable industrial capacity to perform the ecological 
        restoration activities under this Act.''
  <bullet> ``sawtimber as a byproduct''
  <bullet> ``encourage the establishment and maintenance of new and 
        existing collaborative groups''
  <bullet> ``multiple interested individuals, who in the aggregate, are 
        comprised of diverse backgrounds and represent various 
        interests''
  <bullet> ``operates in a transparent and non-exclusive manner''
  <bullet> ``operates by consensus or in according to voting procedures 
        to ensure a high degree of agreement among participants and 
        across various interests''
  <bullet> ``high degree of agreement''
  <bullet> ``level of participation sufficient to ensure that members 
        of the collaborative group are adequately informed before each 
        vote''
  <bullet> ``sufficient level of participation''
  <bullet> ``adequately informed''

    We each have a vision that comes to mind when these words and 
statements are written or spoken. Each of these words or statements may 
be clear to one person but are confusing and nebulous to others. These 
words and statements are by all means not a complete of the words 
statements or issues which will increase the incidence of litigation 
associated with National Forest management in Eastern Oregon.
    The Act's attempts to help ``local'' economies by specifying that 
the required Stewardship contract ``give preference to local 
businesses'' to help local business and workers is a misleading 
proposition. The Act defines ``local'' to be a 100 mile radius around 
any National Forest, Section (13)(d)(3). The Malheur National Forest 
can reach from the Cascades to the Idaho border and North to the 
Washington border this will kill small resource dependant communities 
within Grant County, Harney County, Wallowa County, Wheeler County and 
other small remote communities within the Eastern Oregon national 
forests. It is statements such as these that sound good but really hurt 
when implemented.
    The Act, while attempting to limit appeals and litigation, actually 
will provide additional fuel to the litigation process through:

          1) Ambiguous definitions some listed above but also 
        including:

          a. ``Old Growth'' which includes a single tree, Section 
        (3)(14), then prohibits harvest or removal, Section (4)(b)(1), 
        then discusses limiting harvest of trees over 150 years old in 
        Section (9)(d);
          b. ``Forest Health'' which includes ``to maintain or develop 
        species composition, ecosystem function and structure, 
        hydrologic function, carbon cycling, and sediment regimes that 
        are within an acceptable range that considers--(i) historic 
        variability; and (ii) anticipated future conditions, Section 
        (3)(6);
          c. ``restoration economies'', Section (2)(2); and
          d. ``Plant Association'', Section (3)(17), which includes as 
        part of the definition ``vegetation community that--(i) would 
        potentially, in the absence of disturbance occupy a site. . 
        .''; and

          2) Nebulous, unclear and even litigious wording and 
        management direction, such as:

          a. ``restore ecologically sustainable forest stands to 
        incorporate characteristic forest stand structures and older 
        tree populations'', Section (4)(a)(2)(B)(viii) ;
          b. ``natural structure'' which is undefined and not agreed 
        upon by scientists;
          c. ``best available science'' which is absolutely subjective 
        and a recipe for litigation;
          d. ``restore historical levels of within forest stand spatial 
        heterogeneity'' Section (4)(a)(2)(B)(iv);
          e. ``the restoration and maintenance of historic population 
        levels of older tree'', Section (4)(a)(2)(B)(vii);
          f. ``ecologically appropriate spatial complexity'', Section 
        (4)(a)(2)(B)(xi); and
          g. ``In developing ecological restoration projects under this 
        Act, the Secretary shall--(A). . ., and achieve, a net 
        reduction in the permanent road system;'', Section (6)(c)(1), 
        which will ultimately result in zero miles of permanent roads 
        on the forest if carried out as written.
                                 roads
    The Act begins a discussion of ``Roads'' in Section (6) with a 
complete prohibition on the construction of a permanent road on the 
National Forests of Eastern Oregon. This is an irrational act on the 
part of our Congress.
    The Act goes on to allow for the placement of a permanent road as 
long as it meets several criteria and is not built on any area that 
contains a tree protected under Section (4)(b) which is any tree over 
21 inches DBH or under 21 inches DBH. In most cases there is not a need 
for a road where there is not a tree. I was encouraged that ``economic 
criteria'' were mentioned as considerations along with ecological when 
constructing a temporary road.
    One major concern I have with the Act's ``Net Road Reduction'' in 
Section (6)(c) (1) states that ``the Secretary shall. . .achieve a net 
reduction in the permanent road system;'' in the ``development of 
ecological restoration projects under this Act.'' If every project is 
required to have a NET REDUCTION in the permanent road system, then 
simple mathematics means that ultimately there will be NO permanent 
road system.
         eastside forest scientific and technical avisory panel
    The establishment of the ``Eastside Forest Scientific and Technical 
Advisory Panel'' hereinafter referred to as the ``Advisory Panel'' in 
Section (7) of the Act is a nightmare in itself.

  <bullet> The Act only gives 90 days to establish this panel 
        (politically impossible)

    --It took 1\1/2\years for congress to re-appoint members to the 
            RAC's that were already in existence
    --Before the Secretary can appoint this Advisory Panel, the 
            Secretary must Consult with Congress
    --Before these experts can be considered to consult with congress 
            for the Secretary to appoint to the Advisory Panel, they 
            must be recommended by ``an institution of higher education 
            or a professional society''.
    --Someone must determine which institution of higher education is 
            the appropriate ones to recommend and which professional 
            society is the appropriate one or ones to may a 
            recommendation;
    --Someone must ensure that ``through the collaboration of the 
            individuals appointed'' (this sounds like a ``do loop'' or 
            a ``vicious cycle'' where one must collaborate with ones 
            self to determine if one meets the criteria)will represent 
            a ``broad array of fields''. This broad array of fields 
            consists of 14 specifically listed fields.
    --This process is impossible to complete in 90 days which starts 
            the timelines off on a delay that flows downhill.

  <bullet> The Act then gives 180 days for the Advisory Panel, once 
        appointed, to tell the USFS and the people how they are going 
        to achieve the goals in Section (4)(a)(1) which are the four 
        (4) goals none of which contain any economic or social 
        consideration.

    --The Act is asking the Advisory Panel, in 180 days, to develop a 
            plan containing the ``recommendations as to how this 
            Advisory Panel'' is going to manage, the ``forest, stream, 
            grassland, wetland, alpine and other land and water located 
            in the covered area'', (all six National Forests in Eastern 
            Oregon) considering the ``best available science''.
    --This report must include ``management guidance'' regarding a list 
            of seven (7) areas which are fairly specific.
    --All this completed and a report to the USFS and the people 
            covering the six (6) National Forests within 180 days,
    --This timeline is unrealistic at best.

  <bullet> An additional report is due to the ``appropriate committees 
        of Congress'' in five (5) years that is extremely explicit in 
        its content.
    --Similar to a forest plan
    --More process

                                SUMMARY

    The Act will guarantee some fundamental change in the direction of 
forest management on the National Forests of Eastern Oregon. Among 
these guaranteed changes are:

          1) Congressional codification of the flawed Eastside Screens;
          2) Congressional Codification and Expansion of PACFISH and 
        INFISH;
          3) Congress developing a definition of Old Growth which is 
        functionally unattainable and inconsistent with definitions 
        accepted within the scientific and professional communities;
          4) Fundamentally flawed mandated reduction in the National 
        Forest Road system which mathematically will result in NO 
        permanent roads;
          5) A mandated collaborative process which will result in 
        major stagnation of the entire process; and
          6) Congressional mandate of some ``historic population level 
        of older trees'' (which are undefined).
          7) Promises, Promises, Promises, and more Promises of some 
        future funding level for USFS, Forest Management adequate to 
        finance this menagerie of codified restrictions and 
        regulations, if future congresses agree.

    The Act authorizes a one time sum of $50,000,000 to be appropriated 
that will be available until it is used up. Only 3% of this money can 
be used for administrative purposes, requiring the balance of the 
administrative costs including the costs of the Advisory Panel, 
Collaborative groups and extra assessments and reports to be taken from 
the already anemic Timber Management budget in these six (6) national 
forests.
    It is highly unlikely that: 1) There will be additional 
appropriations for the increased overhead associated with this Act; or 
2) The other National Forests within either Region 6 or the other 
Regions of the nation will voluntarily relinquish funds from their 
allocated budgets to make up the increased overhead associated with 
this Act. Therefore, each of the forests will be required to make up 
the difference in overhead from other projects.
    It is also unlikely that the revenues from the sale of forest 
products generated as a result of the restoration projects can sustain 
the program, of Ecological Restoration Projects on the Large Landscape 
basis. The restrictions placed on harvest of ``Older Trees'' and the 
reliance on harvest of ``Biomass'' is highly unlikely to provide a 
sustainable flow of income large enough to fund the intent of this Act. 
Biomass and small diameter trees have the lowest product value and the 
highest cost to produce. Biomass barely pays its way to the mill in the 
best markets and therefore, there will be little revenue to sustain a 
very expensive program. As a result, the USFS will be stuck trying to 
comply with a very expensive and legally mandated program with little 
money to comply.
    The tax payers of the United States will again be burdened with an 
extensive and expensive program mandated by congress. When in fact the 
products of these six (6) national forests should and are easily 
capable of producing enough income, from the sale of even a minor part 
of the sustained yield from the forests, to not only pay for the 
harvest program but the associated restoration work necessary to 
improve the declining health of the forests. In these times of 
skyrocketing national deficit and astronomical national debt, congress 
should recognize that our vast renewable natural resources are one area 
available to produce the income necessary to dig our nation out of the 
fiscal mess we find ourselves in at this time. We need less 
restrictions not more expensive process at this time.
    I find that enormity of the problems associated with this Act are 
so overwhelming that I can not support it. Any purported benefits pale 
to the increased process, increased costs and the areas of potential 
litigation created by this Act.
    Passage of the Act in its present form will result in:

  <bullet> Dramatically increased process necessary to plan and 
        implement projects on National Forest lands in Eastern Oregon;
  <bullet> Litigation over the current process and the additional 
        layers of process will increase;
  <bullet> Ecological Restoration on the National Forests of Eastern 
        Oregon will continue to decline;
  <bullet> The physical and economic infrastructure of the industrial 
        base and the resource dependent communities will continue to 
        decline; and
  <bullet> The social fabric of our communities and region will be 
        dramatically impacted in a negative manner.

    As for resolving the timber supply and economic sustainability 
problems on the Eastside National Forests while improving the 
ecological health and resiliency of the National Forests, the Act 
fails.
    In reality, the environmentalists will get everything they could 
hope for, while local communities and dependent industries are left 
with more restrictions and an empty promise of future funding.

    Senator Wyden. I'm going to put you down as having a couple 
questions about the bill.
    [Laughter.]
    Senator Wyden. We'll have some questions, seriously, in a 
moment.
    Mr. Woodward, welcome.

    STATEMENT OF CRAIG WOODWARD, OWNER, WOODWARD COMPANIES, 
                         PRINEVILLE, OR

    Mr. Woodward. Thank you, Senator Wyden, and members of the 
committee. I'm Craig Woodward, sixth generation central 
Oregonian. I've spent the majority of my life in the forests of 
eastern Oregon that I dearly love.
    I've, will all due respect, Senator Wyden, have more than--
have identified more than 40 problems, comments, and questions 
regarding your 65-page well-intended S. 2895. Five minutes 
won't scratch the surface of the issues regarding the bill, so 
I'll just summarize.
    I've discussed this bill with members of industry, the 
scientific community, the Society of American Foresters, the 
local, city, county government, and the communities at large, 
and have found none willing to support this bill as written. 
They've all asked me to do the best job I can to express their 
feelings.
    It's a sellout as far as I'm concerned, agreeing to forever 
give up the ability to remove trees regardless of size or age, 
sacrificing true forest management merely to be allowed to cut 
only an additional low value or negative value volume that 
needs to be treated anyway. Even though the Forest Service 
employees can't come out on either side of political positions, 
I've discussed the bill off the record with current and former 
administrators, not one of them were in support of this bill.
    Giving up on the higher value trees will accelerate the end 
of the secondary mill work industry in eastern Oregon that have 
the employment capability in excess of 6,000 workers plus 
support jobs. These plants were located here due to the 
availability of local high quality ponderosa pine that will 
never again be available if this bill passes. I've found no one 
in the secondary mill work industry that was contacted 
regarding the consequences of this bill. Why not? Evidently 
this bill is called the Eastside Bill because the west side had 
the wisdom not to become part of it.
    From a practical standpoint, the bill can't be labeled 
forest management or forest health, allowing only the smaller 
less valuable component to be treated. Disease such as 
mistletoe needs to be treated by dealing with stands as a 
whole. The snag inventory in the national forest in eastern 
Oregon is way more than ample. With a large segment of the 
larger trees affected by disease, insect infestation, blow 
down, root sprung, mistletoe, fire, and natural mortality, good 
science mandates salvaging a portion of that volume. The value 
derived from--including a portion of the high risk larger trees 
in the management scheme would do more for the eastern Oregon 
economy and the USDA funding than the revenue from all the low 
value trees that will ever be harvested, while accomplishing--
while accomplishing science-based management.
    The bill requires that at least 75 acres for every mile of 
fish-bearing stream will be off limits to all harvest activity. 
Nearly 40 acres of every mile of non-fish bearing streams will 
be off limits to all harvest as well.
    This bill contains a provision blocking timber sale appeal. 
If appeals can be blocked, then why not propose a bill to allow 
the forest managers to manage all of the--a portion of the 
forest that isn't already set aside from logging, regardless of 
size, with no appeal, and forego the red tape created by this 
bill?
    The way I interpret the bill, is not--it is not immune to 
litigation, as far as the management process. I question that 
the advisory council, with such diverse opinions, can ever 
reach a consensus, as required by the bill.
    The administrators of the Eastern Oregon National Forest 
have stated that they don't have the funding or the manpower to 
plan, advertise, and administer the needed sales programs 
currently, which represents no more than 10 percent of the 
annual growth. What makes you think that funding for this 
program will be appropriated if the bill is passed and not 
funded, no tree over 21 inches will ever be harvested in the 
future, and no increase small diameter volume will be 
harvested, who wins?
    If the bill passes, there is little need for industry and 
local government officials to be on groups or committees as 
required by the bill because they've already lost the fight.
    Your bill, Senator Wyden, has some positive features, 
however, agreeing to give up the possibility to manage and 
salvage the entire stand designated--in designated areas 
forever is definitely a tradeoff not worth making for good 
eastern Oregon national--for the good of eastern Oregon 
National Forests, the economy, and the region as a whole.
    Thanks for allowing me to comment.
    [The prepared statement of Mr. Woodward follows:]

   Prepared Statement of Craig Woodward, Owner, Woodward Companies, 
                             Prineville, OR

    For those of you not familiar with the Oregon Eastside Forests 
Restoration, Old Growth Protection and Jobs Act of 2009, I've included 
an outline of what it entails. To read the act, go to http://
wyden.senate.gov/newsroom/eastside_forest_restoration_bill.pdf. After 
reading the act, you will understand why those affected in Western 
Oregon were unwilling to have the forests in that area of the state 
included in Senator Wyden's bill.
    After reading the act, I'm now convinced it's even worse than 
originally feared. Where is the money for study--Forest Service says 
they don't have man power, time, or budget to complete NEPA, EA, and 
EIS studies. The act can't be labeled ``forest health'' unless the 
health of the trees over 21 inches is addressed as well. In many areas 
the most at-risk forest component is the larger trees. Region wide, 
more than 50 percent of the larger trees have issues including, but not 
limited to, insect infestation, mistletoe, rot, lightning strikes, root 
sprung, blow down and natural mortality.
    This bill can't be labeled a forest health bill by throwing in the 
towel to the radical environmental factions regarding harvest of larger 
trees. Instead, it should be labeled ``Continued Mismanagement''.
    The most important bill that could be passed regarding timber 
issues in the area covered by the Oregon Eastside Forests Restoration, 
Old Growth Protection and Jobs Act would be very simple to write and 
understand. It would include no deal-making.

                        COMMON SENSE FOREST BILL

  <bullet> Allow no administrative appeals on timber sales by special 
        interest groups or individuals
  <bullet> Allow the forest managers to do their jobs of managing the 
        forests--not just the small trees

    The trees in our forests are a renewable resource. You can't 
properly manage a renewable resource by uninformed vote, legislation, 
or litigation. The only successful way to assure sustained yield 
forestry is to allow the forest managers to manage through sound 
silvicultural science.
    Major problems that the architects of this bill seem to have 
overlooked are:

          1. If financing isn't available to implement the plan, 
        everyone loses except the radical environmentalists.
          2. Even though Andy Kerr agrees that the special interest 
        group he's involved with won't file appeals on increased 
        harvest, what would prevent other groups from surfacing and 
        filing appeals? If the power exists to prevent appeals, why 
        aren't those powers being implemented for sound forest 
        management practices currently?
          3. If management required by the bill is implemented, the 
        overstocked stands will be thinned. Thinning stimulates growth. 
        When re-entry is required in the future many trees that were 
        released and allowed to grow will be larger than the allowable 
        removal size. What will we do then? We'll be backing ourselves 
        into a corner in which we won't be able to get out.

    By arbitrarily placing a 21-inch diameter limit on harvest, not 
only has the ability of the forest managers to manage been compromised, 
but also--equally as important--the possibility for the Forest Service 
to cover operating costs or even profit from timber sale revenue has 
been lost.
    On the private side, managing the forest as a whole instead of just 
immature, low-value trees creates more jobs, causes more commerce, and 
allows the remaining sawmills to be more competitive on the world 
scene. The secondary manufacture millwork plants in Central and Eastern 
Oregon were located here over the past 50 years, due to the supply of 
high-quality Ponderosa pine lumber with very little transportation 
cost. These plants have the capacity to employ more than 2,000 workers. 
Since the harvest appeal restriction of larger trees by special 
interest environmental groups, most of the lumber supply comes from 
outside the area or even from outside the country. This reduces the 
competitive advantage afforded the local millwork plants and is 
partially the cause of their work force reductions.
    Over the past month, I've visited with more than 50 Forest Service 
timber staff personnel, loggers, and industry representatives; not one 
of them has been in favor of the Oregon Eastside Forests Restoration, 
Old Growth Protection and Jobs Act.
    During my discussions with Forest Service staff, I learned that 
even though they might have very strong opinions concerning pending 
legislation, they are not allowed to come out in favor of or against 
it. How can legislators be properly informed if those hired to protect 
the nation's assets can't have an opinion on legislation regarding the 
management of those assets?
    Given the Forest Service's budget to administer the timber and the 
monetary losses caused by this bill, there is more than $1 million 
dollars of red ink in this program in the Ochoco National Forest this 
year alone. If we were allowed to return to pre-appeal sustained-yield 
harvest, the Ochoco National Forest, which is only 1 of many national 
forests in Eastern Oregon, would generate additional revenue of at 
least $10 million to $20 million to the government through timber sale 
receipts, not to mention hundreds of additional jobs.
    If the Ochoco National Forest could merely add the larger diameter 
volume that becomes diseased, insect-damaged, lightning-struck, root-
sprung, and wind-thrown annually, to the timber sales program before 
they begin to deteriorate, a great injustice would begin to heal while 
creating $5 million to $10 million in stumpage revenue for the U.S. 
Government and creating or saving hundreds of jobs. When you expand the 
numbers to cover all of the forests affected by this bill, the impact 
is monumental. Keep in mind that 25% of US Forest receipts stay in the 
local communities to finance schools and county road budgets.
    An unintended consequence of this legislation is that it would have 
a devastating impact on the future of our nation's renewable natural 
resources--along with its negative impact on industry and our ability 
to manage our nation's national forests in Eastern Oregon. Currently 
the Forest Service timber sale program includes less than 10% of the 
annual growth on USFS managed lands.
    I don't doubt Senator Wyden's intent to make the best of a bad 
situation. I merely feel he doesn't have an understanding of the bigger 
picture in this important issue. At best, all this bill accomplishes is 
to allow a couple of sawmills enough low-value timber to stay in 
operation for a little longer, while disregarding the future of our 
national forests.

                               Attachment

    My company manages timberland with more than 50 miles of common 
boundary with National Forest lands. Any management, or mismanagement, 
practice on National Forestland adjacent to our property directly 
impacts our property. I would like to invite you and anyone you wish to 
join you to tour our property, and the Forest Service property in the 
area to see the devastation resulting from not managing the trees over 
21''.
    The misinformation being spread around by officials about ``an 
existing 21'' rule'' has done much to misinform those with a voice. For 
this bill to have the desired, successful result, the 21'' issue must 
be addressed, and the forest managers must be allowed to manage without 
the burden of additional red tape.
    I've been inundated with phone calls with individuals from 
industry, county governments, professional associations, the public at 
large, including Forest Service employees, off the record. The message 
has been ``keep up the fight''.
    I'd like to use this opportunity to point out some of the 
questions, comments I've found with the bill.
    Page 1 in the title--you more effectively restore landscapes, and 
protect old growth forests, by having the ability to remove a portion 
of 21''+ trees as needed to accomplish forest health objectives.
    Page 2 line 3 & 4--managing the forest as a whole would do much 
more to accomplish this objective.
    Page 2 line 6 & 7--removing some of the diseased and damaged trees 
regardless of size would do much more to accomplish this.
    Page 2 lines 8, 9 & 10--cutting over ripe trees would create 
positive carbon sequestration results.
    Page 2 lines 11, 12 & 13--half of the old growth in the portion of 
the state covered by this bill is already protected by roadless, 
management areas, landscape architecture and wilderness, etc. How has 
that been working for us? I say ``protect the healthy larger trees 
while maintaining the needed snag inventory. Allow the rest of the 
volume to be managed as part of the sustainable inventory as needed.''
    Page 2 lines 14-17--economic benefit would be vastly improved by 
including larger trees.
    Page 2 lines 18-20--done properly, removing some larger trees would 
have positive impact on resource based and restoration based economics.
    Page 3 lines 1-4--this bill does just the opposite of streamlining 
the administrative process.
    Page 3 lines 5-7--can't be accomplished by treating only small 
trees.
    Page 3 line 11--please describe uncharacteristic conditions.
    Page 3 line 14 & 15--who reviews?
    Page 3 line 19 & 20--it is impossible to make the Forest Service 
good neighbors under existing rules. For example: we own in excess of 
50 miles of common boundary. Good neighbors traditionally split 
boundary fence repairs. The law requires us to maintain all boundary 
fences, if Forest Service animals get onto our property it is our 
problem. If our cattle get onto Forest Service, it's trespass. If a 
neighbor needs to haul logs across my property, I allow it free of 
charge. If I must haul across Forest Service, there is a healthy road 
use fee.
    Page 13 lines 7-9--how do you reduce risk of mistletoe without 
cutting infected large trees?
    Page 13 lines 21-24--advice of advisory councils is only as good as 
the advisors on the council. Let the managers manage the forests.
    Page 14 & 15--the projects outlined on this page don't have enough 
details to know what's expected.
    Page 16 lines 19-23--advisory panels and collaborative groups will 
vary depending upon their composition. Consensus is doubtful.
    Page 18 line 24--what is the definition of ``the top of the inner 
gorge''?
    Page 19 lines 5-10--this excludes in excess of 75 acres per mile of 
stream.
    Page 19 lines 23-25--this excludes nearly 40 acres for every mile 
of non-fish bearing stream.
    Page 20 line 11--why have the other restrictions on the rest of 
this page when this covers them all?
    Page 27--all existing roads in an area become essential when 
wildfire strikes.
    Page 33 line 23--this does little or nothing to maintain the 
secondary millwork industry that employs 10 times as many people as the 
sawmills.
    Page 36 line 7 & 8--Good luck.
    Page 36 line 11--evaluating these needs does nothing to cure the 
problem.
    Page 39 lines 6-8--all this does is to deny the opportunity to 
utilize the remaining resource available in the portion of the forest 
that is not already off limits due to previously set aside as 
wilderness, riparian protection, parks, roadless, and other natural and 
management areas.
    Page 40 line 24--will these ecological restoration areas be 
available for continued re-entry once the initial project is completed?
    Page 43 line 2--if the ability exists to eliminate appeals, we 
should eliminate them, let the forest managers do their job. Replace 
them if they don't properly satisfy the task that would lessen the red 
tape added with this bill.
    Page 45 lines 12-14--why have we given up on protecting roadless 
areas?
    Page 45 lines 17-22--this goes against protecting forest health as 
a whole in an area.
    Page 46 lines 4-8--how does eliminating a tree from management due 
to size or age equate to forest management?
    Page 46 lines 19-24--if this bill passes, it's too late to 
accommodate the largest segment of private industry, the secondary 
millwork manufacturers.
    Page 48 lines 22-24--Indian tribes are not represented.
    Page 49 lines 7-11--I doubt if agreement will ever be reached among 
such diverse groups.
    Page 49 lines 18-24--this will be an administrative nightmare.
    Page 58 lines 1-4--why not use this process currently?
    Page 58 line 22--this eliminates the gain of having no appeal.
    Page 60 lines 7-16--we're sold out by sacrificing the salvage of 
large timber for the substitution of a guaranteed volume of slash.
    Page 61 line 16--what process is used to assure local business gets 
the work?
    Page 63 lines 16-18--without size limit it could fund itself.
    Page 63 line 19--I seriously doubt if $1,500,000 will fund this 
projects administration.
    In conclusion, even with the positive features of this bill, it's 
no wonder why at least 3 county governments, mills representing several 
thousand workers, member of associations such as the Society of 
American Foresters, the Grant County Public Forest Commission, as well 
as the public at large join me against the passage of this bill.

    Senator Wyden. Thank you, Mr. Woodward, and I'll have some 
questions in a moment.
    Mr. Maluski, welcome.

 STATEMENT OF IVAN MALUSKI, CONSERVATION PROGRAM COORDINATOR, 
                   OREGON CHAPTER SIERRA CLUB

    Mr. Maluski. Senator Wyden, on behalf of the Sierra Club's 
more than--or nearly 20,000 members in Oregon and our tens of 
thousands of supporters here, I'd like to thank you for the 
opportunity to testify on this bill today.
    Our staff and volunteers spend a lot of time working on 
these issue in central and eastern Oregon. We do, I want to be 
clear, that we do support some of the key goals of this 
legislation, and we support provisions such as the protection 
of--codification of protections for large diameter trees, 
enhanced protections for riparian areas, and the ban on 
permanent new roads.
    But we do believe that some of the provisions of this bill 
will unfortunately run counter to some of the stated 
restoration goals of this legislation and could possibly lead 
to more litigation in some cases. We submitted more detailed 
written testimony and in the interest of time I will just sort 
of highlight some of our key points.
    One of our key points relates to administrative appeals. 
During the first 3 years of the bill's implementation, it 
removes the rights for the public to administratively appeal 
logging projects. We are of the belief that the administrative 
appeals process is a fundamental reflection of the strength of 
the democratic process, facilitating dialog rather than 
litigation. In that spirit, we provided as an attachment to our 
testimony a list of 19 Forest Service projects we worked on in 
2006 through 2010 across central and eastern Oregon that 
actually saw on the ground environmental improvements and no 
litigation due to successful administrative appeal 
negotiations.
    The types of improvements we saw were protection of 
sensitive soils, water quality, important old growth stands, 
and roadless areas. Without our administrative appeal rights in 
place, we're concerned this legislation could unfairly restrict 
our ability to stop irresponsible logging on our public lands 
that could hurt wildlife, water quality, and forest health, and 
we would recommend that we retain administrative appeals during 
the interim period.
    Another key area of our concern is the mandated acreage 
targets in the legislation, both during the interim and during 
the general part of the bill. Unfortunately, because this is, 
at this point, only funded for 1 year, part of our concern here 
is that essentially this could become an unfunded mandate, 
where if Congress does not step up, and inevitably I don't 
think the projects will pay for themselves, the Forest Service 
will be obligated to meet these acreage targets regardless.
    As it pertains to the post-interim period, we're looking 
at--as each national forest is going to be required to produce 
one 25,000-acre project per year, I think that regardless of 
the actual restoration needs on the ground, so that really ties 
the hands of local forest managers to deal with these types of 
issues.
    Furthermore, stating that the--at least during the interim, 
the predominant focus of these projects is mechanical in nature 
and for saw log production, and during the post-interim to 
maintain mill infrastructure, gives us a concern that that will 
sort of bias the outcome of a lot of these restoration 
projects.
    We would recommend that the actual annual per acreage 
forest targets be removed and we allow the best available 
science to set those targets on the ground.
    Another key area is just the use of science in this bill. 
We do support the bill's focus on the best available science, 
but one of the things we would highlight is that there is quite 
a body of work out there, the Seminal Eastside Scientific 
Society Panels report to the President and Congress in 1994. 
Your bill has incorporated some of the key protections, but we 
would like to see it more explicitly articulated in the 
legislation, that we're going to build upon that existing body 
of science. Essentially that includes protection for old growth 
stands, as well as old growth trees, protection for smaller 
roadless areas, and indeed prohibiting logging in post-fire 
situations.
    I would take a little bit of issue to a comment from Dr. 
Franklin, we have--there is actually a great deal of 
controversy over the mechanical treatments in mixed conifer 
stands, both dry and moist. We have provided a list of--a 
letter from 11 scientists, notably including Dr. James Carr 
from the University or Washington, Dr. Robert Hudo from the 
University of Montana, which articulate some of these concerns 
and I think give you a lot more background on why we need to be 
cautious about mandating too much mechanical activity in some 
of these mixed conifer stands.
    Another area, just 2 more, really is--one of them is 
biomass contracting. This is an issue for the Sierra Club, 
partly because we have concerns that incentivizing Federal 
lands biomass to the point that it creates a new unsustainable 
demand for raw material from national forests could essentially 
create demands that we can not meet. In the context of this 
legislation, we're concerned about the 20-year contracting with 
private--outside private entities for biomass removal on 
Federal lands, wheelers have to be scaled back in this 
legislation.
    Last, I want to make a key point, and this is the subject 
of an op-ed that we published in the Bend Bulletin yesterday, 
which we can make available to you if you haven't seen it. It's 
really about the need to--for economic diversification as part 
of this bill. It's very clear that this bill's economic focus 
and jobs focus is about getting saw logs to the mill and 
maintaining mill infrastructure. We think that the focus needs 
to be much more broad than that.
    The University or Oregon's Ecosystem Workforce Program has 
done a tremendous amount of work documenting the various types 
of restoration jobs that are out there. It's our experience 
with the Forest Service that if we do not give them clear 
direction on these non-timber oriented restoration exercises 
such as road removal, fish passage improvement, noxious weed 
removal, they're just not going to get to them, they're going 
to focus on the logging.
    According to recent research by the University of Oregon's 
Ecosystem Workforce Program, for every $1 million of public 
investment in forest restoration, we can create between 14.7 
and 23.8 total jobs. This obviously--some of this work is going 
to be involving chainsaws and heavy equipment, but a lot of 
simply is not, so we need to make sure that we're really 
diversifying the restoration economy. The key point here is 
that when we're in a situation like we have in the last few 
years where timber prices are at record lows, we need to make 
sure that we're not putting all our eggs in that basket, and we 
are diversifying rural economies through this process.
    So, that's really the conclusion of my remarks. Again, 
there's pieces of this legislation we support. We think that 
some of these key points we've articulated would be wonderful 
to see addressed before we move forward.
    Thank you.
    [The prepared statement of Mr. Maluski follows:]

 Prepared Statement of Ivan Maluski, Conservation Program Coordinator, 
                       Oregon Chapter Sierra Club

    Chairman Wyden and Members of the Subcommittee:
    On behalf of the Oregon Chapter of the Sierra Club and the more 
than 1.3 million members and supporters of the Sierra Club nationwide, 
we thank you for the opportunity to testify today on S. 2895, the 
Oregon Eastside Forest Restoration, Old Growth Protection, & Jobs Act.
    For more than a century, the Sierra Club has worked to protect 
America's wilderness, forests, and public lands so that generations of 
Americans can explore and enjoy this nation's natural bounty. Today, 
there are 65 Sierra Club Chapters and more than 425 Sierra Club Groups 
across the country.
    With nearly 20,000 members living in Oregon, the Sierra Club has a 
strong interest in the management of the National Forests of Central 
and Eastern Oregon. Our staff and membership in Oregon have 
consistently worked to ensure sound science-based management of the 
National Forests covered by this legislation and have focused efforts 
on protecting old growth forests and roadless areas. We support the 
creation of forest based restoration jobs that also promote the 
recovery of healthy populations of threatened and endangered species, 
address the excessive network of roads created through past management, 
and to preserve biodiversity and ecosystem resiliency in the face of 
climate change.
    Over the years, we have been involved in a number of your efforts 
to protect Oregon's old growth forests. We are supportive of some of 
the key restoration goals of this legislation but believe that some 
sections as currently written will run counter to the bill's stated 
restoration emphasis. We provide the following comments in the interest 
of improving this proposal to address our concerns. We previously 
submitted testimony to the Committee on S. 2895 on March 10, and we 
incorporate those comments into our remarks today by reference.
    The following are our basic concerns with S. 2895 as introduced:

          1. Administrative Appeals.--Administrative appeals are a 
        fundamental reflection of the strength of the democratic 
        process, facilitating dialogue rather than litigation. The 
        Sierra Club has found that administrative appeals allow a 
        meaningful way to resolve concerns over Forest Service projects 
        without having to go to directly court. We have provided as an 
        attachment to our testimony a list of 19 Forest Service 
        projects we have worked on in various National Forests across 
        Central and Eastern Oregon that saw on the ground environmental 
        improvements and no litigation due to successful administrative 
        appeals between 2006 and 2010. These improvements include: 
        preventing logging in mid and higher elevation mixed conifer 
        old growth stands; protecting old growth trees smaller than 21 
        inches in diameter; protecting in ecologically significant 
        roadless areas from mechanical entry; protecting key fish and 
        wildlife habitat, including on steep slopes; and the protection 
        of sensitive soils from the long-lasting damage of groundbased 
        logging and both permanent and temporary roads.
          During its interim period covering some 300,000 acres and 
        three or more years, S 2.895 removes the right for the public 
        to administratively appeal logging projects and timber sales, 
        including those conducted after fires and in old growth stands. 
        With the removal of the key `check and balance' of 
        administrative appeals, we believe this is likely to lead to 
        more litigation, not less, with the Forest Service opting to 
        say `see you in court' rather than `let's compromise' while 
        moving forward with controversial projects. We suggest that 
        administrative appeal rights be retained for all projects 
        during the interim period in Section 9(c)(2).

          2. Mandated annual acreages.--While the bill promotes the use 
        of the best available science to guide management decisions, it 
        mandates annual acreage targets during both the interim period 
        and for each covered National Forest thereafter. Annual acreage 
        targets will force individual forest managers to plan and 
        implement projects based on this mandate, rather than on actual 
        restoration needs. This approach will burden taxpayers, as the 
        Forest Service will be obligated to plan and implement annual 
        landscape-scale projects regardless of whether Congress 
        continues to fund the implementation of the proposal or whether 
        restoration projects actually bring in enough revenue to pay 
        for the Forest Service's costs. Particularly during the interim 
        period, these acreage mandates will be focused on mechanical 
        entry into forests and the production of sawlogs, activities 
        which we believe will have a tendency to undercut the 
        restoration goals of the legislation while creating 
        unreasonable expectations within the timber industry for steady 
        and increased flow of logs from National Forests, even during 
        times of weak demand such as we are experiencing now.
          For these reasons, during the interim period of the 
        legislation we suggest: the removal of specific annual acreage 
        targets; language that requires that restoration projects be 
        predominantly mechanical in nature; and, language that 
        emphasizes sawlog production as a primary byproduct of 
        restoration activities in Section 9(c)(5)(a). We also believe 
        that language in Section 9 requiring each National Forest 
        covered by the bill to perform at least one 25,000 acre project 
        per year designed to provide a minimum quantity of timber to 
        maintain mill infrastructure should be removed from the bill 
        (Section 9(b)(1)). This annual per-forest acreage mandate will 
        strain limited Forest Service resources and will put pressure 
        on the agency to design projects that are inconsistent with the 
        restoration goals of the legislation.

          3. Eastside science.--While we support this bill's 
        requirement to protect large diameter trees, we would like the 
        bill to more explicitly require the consideration of existing 
        eastside science that has made large diameter tree protections 
        the practice on the ground in eastern Oregon since 1994. The 
        scientific recommendations in the Eastside Scientific Society 
        Panel's Report to the President and Congress in 1994 (Henjum et 
        al) are just as pressing and relevant today as when they were 
        developed. While undertaking restoration projects, it is 
        important that the Forest Service be required to protect more 
        than large diameter trees, but also old growth stands and 
        smaller, but ecologically significant roadless areas from 
        ground disturbing activities and mechanical entry. We believe 
        that as currently written, the Forest Service's implementation 
        of this bill will lead to harmful ground disturbing activities, 
        including `temporary' road and skid trails, in sensitive old 
        growth stands and other intact forests. The Forest Service has 
        a history of inappropriately applying lessons learned from low 
        elevation dry ponderosa pine forest types, to mid and higher 
        elevation mixed conifer old growth stands, with 
        counterproductive consequences.
          S. 2895 creates a new Scientific and Technical Advisory Panel 
        which is required to finish its report in less than six months. 
        Unlike the 1994 Eastside Scientific panel, the panel created by 
        S. 2895 will include not only scientists, but experts in timber 
        economics and road and logging engineering. We believe the 
        science panel created by this legislation should be explicitly 
        directed to incorporate and build upon recommendations of the 
        Eastside Scientific Society Panel Report of 1994, which 
        include: protecting large trees and old growth stands from 
        logging, protecting significant roadless areas 1000 acres or 
        larger, and limiting mechanical entry into intact forests. We 
        are attaching a letter from 11 scientists conducting research 
        in the fields of forest and fire ecology issued in March 2010 
        in response to this legislation. This letter questions the 
        scientific foundation of some of the assumptions about existing 
        forest conditions in S. 2895, outlines some of the current 
        scientific information relevant to these assumptions, and makes 
        a series of recommendations on changes to the legislation to 
        address these concerns. There is great scientific disagreement 
        over what mechanical activities, if any, are ecologically 
        appropriate in both dry and moist-mixed conifer stands. 
        Additionally, to the extent that the panel created by this 
        legislation will include more than just scientists, we would 
        suggest the slot for `timber economics' be replaced with a more 
        appropriate `ecosystem workforce development' position in order 
        to ensure the broad range of restoration workforce jobs are 
        considered in Section 7(b)(2)(a).

          4. 20-year biomass contracting.--In general, we have concerns 
        about incentivizing federal lands biomass to the point that it 
        creates new, unsustainable demands for raw material from 
        National Forests. In the context of this legislation, we are 
        concerned about providing the Forest Service with the authority 
        to enter into 20 year contracts with private entities for 
        biomass removal on federal lands and would suggest the removal 
        of language authorizing this new authority at Section 12(b)(4).

          5. Economic Diversity and Job Creation.--Economists are 
        increasingly realizing that our forests have value as sources 
        of clean water, salmon habitat, recreation and carbon storage. 
        The Sierra Club believes that any new approach to creating jobs 
        in national forest restoration must not focus solely on the 
        economics of supporting the logging industry, but also on 
        enhancing non-timber values and diversifying the restoration 
        economy as a whole. To this end, policies should be enacted to 
        deliberately create a diverse array of businesses in eastern 
        Oregon through systematic and long-term investments in 
        ecological restoration activities. If the focus is primarily on 
        generating logs for the mill, then the boom and bust cycle of 
        timber prices and housing starts will continue to create 
        economic uncertainty as they have for decades.
          This legislation should create clear targets for improving 
        fish passage, restoring degraded riparian areas, reducing the 
        dense road network and removing invasive species, in order to 
        stimulate the creation of new businesses within a diverse 
        restoration economy. Recent research by the University of 
        Oregon's Ecosystem Workforce Program suggests that every $1 
        million in public investment in forest and watershed 
        restoration creates between 14.7 and 23.8 total jobs. Most of 
        these businesses are small, typically with less than $1 million 
        in annual revenue. While some of these jobs involve chainsaws 
        and may generate a useable byproduct, many labor and equipment-
        intensive forest and watershed restoration activities can be 
        extremely valuable in creating economic diversification in 
        rural communities without generating sawlogs or commercial 
        scale biomass. Non-timber restoration activities can include: 
        enhancing stream habitat, noxious weed removal, removing 
        barriers to fish passage, manual thinning and brush removal, 
        trail enhancement, controlled burning, and even research and 
        monitoring.
          The Sierra Club believes that within the wildland urban 
        interface, the primary focus should thinning brush and small 
        diameter trees. Outside of those interfaces, a greater focus 
        should be placed on utilizing both prescribed and wildland-use 
        fire policies to re-introduce natural processes where 
        ecosystems have been significantly altered, while proactively 
        and systematically addressing fish passage and road 
        decommissioning needs. We support strategic and robust efforts 
        to reduce the permanent road network and suggest legislating 
        more specific goals and benchmarks in this bill to make this a 
        reality. Simply requiring a `net reduction in the permanent 
        road system' does not provide enough incentive for the Forest 
        Service to systematically implement road-system related 
        restoration activities on a large enough scale to support 
        significant numbers of these types of restoration jobs.
          Further, language allowing the Forest Service to decommission 
        new roads authorized by this legislation `as soon as 
        practicable after the completion date of the project' should be 
        replaced in Section 6(B)(2)(b) with language that requires the 
        decommissioning of all temporary roads before the completion of 
        any restoration project. Limited Forest Service funding, and 
        the focus on designing new landscape-scale projects year after 
        year will inevitably divert resources away from important road 
        restoration work, leading to less likelihood that temporary 
        road decommissioning will be completed.

          6. Riparian Area Protection--We appreciate that the bill 
        incorporates the PacFISH and INFISH riparian buffers. We do 
        have some concerns because as implemented now, PacFISH and 
        INFISH currently allow some harmful activities in sensitive 
        riparian areas. Further, the extent of riparian areas on the 
        landscape is arguably greater than PacFISH and INFISH provide. 
        The buffers for non-fish bearing streams and perennial streams 
        are generally inadequate to ensure the health and recovery of 
        these systems. We suggest that this legislation start with 
        PacFISH and INFISH as a floor with the opportunity to 
        administratively expand riparian buffers under the 
        recommendations of the science panel, make compliance with 
        those standards mandatory, and incorporate the direction that 
        has been provided by the NOAA Fisheries the Fish & Wildlife 
        Service through existing biological opinions on anadramous and 
        inland fish.

                               CONCLUSION

    The passage of S. 2895 would mark a significant shift in management 
of Oregon's eastside National Forests. The Sierra Club believes it is 
important to codify interim rules in place since 1994 that protect 
large diameter trees and riparian areas. However, we believe this 
legislation's emphasis on mechanical entry into forests and maintaining 
mill infrastructure through sawlog production, combined with mandated 
annual acreage targets and removal of administrative appeals for what 
could become several years, will undermine the important ecological 
restoration goals this bill contains.
    We believe that amendments to S. 2895 to address the issues we have 
raised in our testimony, including the removal of annual acreage 
mandates, the retention of administrative appeal rights, and the more 
explicit incorporation of existing eastside science will go a long way 
towards addressing our concerns.

    Senator Wyden. Thank you, and I'll have some questions in a 
moment.
    Mr. Woodward, let me begin with you, and for you and Mr. 
Williams, you know, you all obviously have significant 
reservations about the bill. What I want to do is just see if I 
can get a few facts on the record, because, you know, certainly 
reasonable people can differ on a variety of issues, but I 
think facts are still stubborn things, and a fact is something 
that I think we ought to get on the record where it exists.
    Now, Mr. Woodward, you say in your written testimony that 
you found no one from industry that supports the bill.
    Mr. Woodward. That's correct, I have----
    Senator Wyden. But the regional manager from Boise Cascade 
sat 6 inches from where you sit, on the last panel, and said he 
supports the bill.
    Mr. Woodward. That's correct, but he spoke before me. I 
have never spoken to the man before in my life. His saw mill is 
a long ways from the 6,000 mill work jobs of the people that 
I've been speaking to.
    Senator Wyden. OK. The American Forest Resources Council, 
that's the organization that represents the majority of the 
industry here in Oregon, has been on the record as supporting 
this bill for quite some time. They've participated in the 
discussions, they went to the press conference on December 
19th, they've been working very closely with us, this has been 
widely publicized, and I just looked at your written testimony 
where you said nobody from the timber industry supports the 
bill.
    Mr. Woodward. No, I said I hadn't spoken to anybody from 
the timber industry that supports the bill.
    Senator Wyden. OK. Perhaps you might want to speak to the 
fellow in the second row, John Schelk.
    Mr. Woodward. I tried calling John, he wasn't available.
    Senator Wyden. OK.
    Mr. Woodward. The record will verify that.
    Senator Wyden. OK.
    Mr. Woodward. But, the AFRC, what they say officially may 
not be what they say off the record, as well. I mean, there is 
that possibility.
    Senator Wyden. I guess so.
    I have never really run into something quite like this, as 
chairman of the subcommittee where this is so much documented, 
on-the-record support from the timber industry, and then have a 
witness come and say, ``Nobody from the timber industry 
supports it,'' but listen, you are entitled to your opinion, 
and I appreciate it.
    Mr. Woodward. May I respond to that?
    Senator Wyden. Of course.
    Mr. Woodward. OK, well, I appreciate you saying that I'm 
entitled to my opinion, but the people that I spoke to in the 
timber industry said you've never spoke to them. I mean, you're 
talking about 2--2 saw mills, here, that you have spoken to, 
but there's 6,000 people, potentially, that can be represented 
by the secondary millwork plants, you didn't come talk to me in 
my sawmill. I don't know, 2 other sawmill people that I am 
supposedly representing here said that nobody spoke to them 
about it, and they certainly are opposed to it.
    Senator Wyden. I'll welcome anybody's opinion on something 
like this, Mr. Woodward, but you're the one who came today and 
said there was no support from the forest products sector. 
There is. We've spend a great deal of time talking to folks 
across the political spectrum, the forest products sector, 
everybody else. Folks can say I'm guilty of a lot of things, 
but whether it's 550 town hall meetings, whether it's listening 
to folks at sessions like the staff, you know, conducted, we 
have made an effort to listen to folks.
    We will keep the record open. Let me move on to another 
point and bring you into this discussion, if I could, Mr. 
Williams.
    Because the organizations that support this legislation 
have extensive experience in the purchase of timber from 
Federal lands, I think it would be very helpful to have, on the 
record, how much timber you, Mr. Williams, have purchased from 
Federal lands, say, in the last 5, 8 years--and you, Mr. 
Woodward--so I can kind of put your experience with the Federal 
program in context.
    Mr. Williams.
    Mr. Williams. How much timber I have purchased from Federal 
lands?
    Senator Wyden. Yes. The last 5, 8 years.
    Mr. Williams. I have not purchased any. I have sold timber 
to the sawmills, some of them that are supporting this, and all 
of that timber from our land, from as far away as California, 
to keep those sawmills going. I have hauled timber from our 
properties in Grant County and in from Allow County to keep to 
these sawmills. I have sold it, I have not purchased many--any 
timber from--one of the reasons that the sawmill that we did 
own had to close was because we couldn't purchase any more 
timber, because we couldn't compete with the sawmills that were 
there. That's part of the reason.
    I have been involved in the timber industry, in the timber 
management and public land management all of my life. You're 
aware of that. I am well aware of what the timber industry 
situation is in Grant County.
    Senator Wyden. So, you haven't purchased timber from 
Federal lands in quite some time, but you've sold timber to 
private landowners?
    Mr. Williams. I've sold timber to Malhere Lumber Company, 
D.R. Johnson Lumber Company, Collins Pine Lumber Company, 
Colombia Forest Products, and I think there was another one in 
Central Oregon that we sold timber to, and some to Boise-
Cascade.
    Senator Wyden. I appreciate your candor, and the reason I'm 
asking the questions, again, is we've got a number of the 
timber organizations and companies that have had extensive 
experience dealing with the Federal lands in support of the 
legislation, and it's important for me to get on the record for 
those who have been in opposition to the legislation, what 
their experience has been on the Federal side. You have 
correctly described your experience as, essentially, being with 
the private sector, and I appreciate your candor.
    Mr. Williams. Senator Wyden, just to clarify a little more, 
I am a part of the Blue Mountain Forest Partners Collaborative 
Group, and I have been working with them and other Forest 
Service advisory groups, as well.
    Senator Wyden. Very good.
    Mr. Woodward. You asked me the same question, would you 
like me to answer?
    Senator Wyden. Of course.
    Mr. Woodward. OK, I've been buying Federal timber sales 
since 1970. In the last several years, I haven't purchased 
much, because I've stepped aside and let the Interfours of the 
world, and the Malhere Lumber Companies of the world to 
purchase. I've logged for those folks, I've purchased logs from 
those folks for my chipping operation, which would benefit--if 
this plan went through just exactly the way you've got it set 
up--but it's not going to help the forests. It's not going to 
help the forests.
    Senator Wyden. So, just from ballpark, how much have you 
sold to the Federal Government or, what has been the----
    Mr. Woodward. I don't sell timber to the Federal 
Government.
    Senator Wyden. No, excuse me, the nature of your 
relationship with the Federal Government over the last 8 or 10 
years.
    Senator Wyden. What I'm trying to do, of course, is try to 
make sure that I can compare your experience with that of 
people who----
    Mr. Woodward. Sure.
    Senator Wyden [continuing]. Have worked on Federal lands 
extensively.
    Mr. Woodward. Right. In the last 8 or 10 years, I've been 
asked by the U.S. Federal Government to go to foreign countries 
and help them with their bug infestation problems, so I feel 
that I am qualified to speak here today.
    I've dedicated my time in the United States dealing with 
problems on my own land that are created by the problems that 
are next to me on National Forest Lands that aren't being 
managed. But, as far as--I've logged several timber sales every 
year over the last 8 years. Actively logging a timber sale 
right now, and I am purchasing logs from other purchasers, and 
from the stewardship contracts that are ongoing on Federal 
lands.
    Senator Wyden. Gentlemen, I don't have any other questions 
for either of you. Obviously, we'll hold the record open.
    Actually, Mr. Williams, I want to give you a chance--you're 
on the Grant County Public Forest Commission, what is your hope 
with respect to the Grant County Public Forest Commission? 
Would you like to see them run the Federal Forests, or tell me, 
if you would, what's your hope with that organization?
    Mr. Williams. My hope, as being as part of the Grant County 
Public Forest Commission is to see the forests of Grant County, 
the forests of Eastern Oregon to be managed in a resilient 
and--fashion, providing a sustainable, predictable, and level 
supply of forest products to the industries and the 
infrastructure of our community to keep our communities alive. 
That's what we want. We want good management of our National 
Forests.
    Senator Wyden. OK. Thank you.
    Let's go to you, Mr. Maluski. The legislation calls for 
restoration of damaged forests and streams and wildlife. Now, 
in contradiction to your statement, it does not call for a 
tripling of logging levels, but an increase in the acreage 
managed for restoration. In many cases, of course, restoration 
treatments can supply wood products. Is it the Sierra Club's 
position that no logging ought to occur as part of restoration?
    Mr. Maluski. No, that's not our position, Senator.
    Senator Wyden. But then, tell me what the organization's 
position is.
    Mr. Maluski. I guess I would put it this way. Part of the 
challenge that we see in Central and Eastern Oregon--and I'll 
refer back to some of the comments of some of the other 
panelists. We often hear very large numbers put out there, 9.5 
million, 13.5 million acres that are at risk. I think the 
challenge is, is that we need to learn how to prioritize where 
are the most important places, and what are the most important 
types of things to be doing.
    From the Sierra Club's perspective, the mechanical work 
really should start in the wild and urban interface, because 
it's of utmost importance to us that we are protecting 
communities at risk of fire.
    You know, we have worked on projects like the Sisters Area 
Fuel Reduction which the timber industry appealed in order to 
get that project to a good place so we could support it, and 
help protect the community of Sisters.
    So, in terms of mechanical entry, that's where we think we 
should start, and we should prioritize our efforts.
    More broadly speaking, we work on projects all of the time 
where we, at the end of the day, timber is moving forward, but 
what we try to do is make sure that the environmental 
protections that should be in place are informed by the best 
available are upheld.
    Senator Wyden. So, you don't have any problem with the idea 
of the timber industry financially benefiting from restoration?
    Mr. Maluski. No.
    Senator Wyden. Now, in the previous panel, the witnesses 
testified about various projects that they had been involved 
in. Professor Johnson testified as to the science behind the 
need to have more active, you know, management of the forest, 
but the Sierra Club has blocked many of these kinds of efforts, 
and the Sierra Club has actively worked to block some of these 
projects.
    So, let's look at the Glaze project.
    Mr. Maluski. Sure.
    Senator Wyden. The Glaze project, Mr. Lillebo discussed, it 
was developed collaboratively with a broad range of 
stakeholders and I'm going to walk you through exactly what 
happened, because I just found myself looking at this and 
saying, ``I just can't sort out what the Sierra Club's role in 
all of this was.''
    You've got a collaborative project, broad range of 
stakeholders, every aspect of the project was developed, lots 
of adjustments made to the final project to get sign off from 
the players. My understanding is your field staff participated 
and signed off on the project.
    Once the project was underway, your field staff then 
reversed course, objected to the project, and in effect said no 
to the years of collaboration and discussion.
    Other examples include the Club's efforts that blocked much 
of the forestry program that had been planned on the Umatilla 
National Forest. So, my sense is, trying to get the Sierra Club 
to work specifically in these areas, particularly after years 
of collaboration and then to have reversed course, in my view 
is going to make it very hard to actually achieve the ideals 
that Tim Lillebo and many others in the environmental community 
correctly state are priorities in terms of restoration.
    So, start with the latest project, and then go to the 
Umatilla Project. But with the Glaze Project, specifically, 
given the detail that we've picked up with your staff's 
involvement. After signing off, reversing, you know, course; 
how does that help foster the kind of collaboration that is in 
the public interest?
    Mr. Maluski. Certainly, Senator, I'm happy to answer the 
question.
    In fact, we not only had our staff involved in developing 
the Glaze Project, we had a lot of volunteers on the ground, as 
well. We have a very active volunteer base out here. So, we did 
work collaboratively on Glaze and ultimately decided not to 
appeal. So, we have not objected in a formal sense to that 
project, we certainly could have chose not to.
    Ultimately, this project is only in its early stages of 
implementation. There was some concern----
    Senator Wyden. So, you're not objecting to the project now? 
I mean, Mr. Asante Riverwind is quoted as saying, ``There is no 
science to take this tree,'' and it's clearly a signal that all 
of the other partners took that you were objecting. But today 
you are saying you're going to reverse course again, and you're 
not going to object.
    Mr. Maluski. Let me clarify, because I was in the process 
of saying, we have not formally chosen to block the project. 
What--what I----
    Senator Wyden. Man, this sure looks like a pretty big deal 
to me, Mr. Maluski. We've got a headline, here, that says, 
``Split over tree thinning. Two conservation groups differ on 
habitat plan.''
    Mr. Maluski. It certainly, the Bend Bulletin----
    Senator Wyden. I guess if you're now saying that you're not 
objecting, that's good. But I sure hope that years of 
collaboration, when folks in your organization agree on 
something, still counts for something. Because I don't think 
very many stakeholders--if I was in the timber products 
industry, and I put all of this time and working with the 
Sierra Club and your guy signed off, and then he changed his 
mind, but then Mr. Maluski came to a Congressional hearing and 
said, ``Well, we're really not objecting,'' somebody in the 
forest products industry is going to scratch their head and 
say, ``What's going on?''
    So, maybe you can sort this out for me.
    Mr. Maluski. Sir, yes, I'd be happy to.
    Senator Wyden. Great.
    Mr. Maluski. Let me, if you could just allow me to finish.
    So, upon viewing some of the areas on the ground, there 
were certainly some concerns that maybe some of the 
prescriptions that had been outlined had not been followed 
properly, particularly with respect to ground distributing 
activities right on the edge of the meadow.
    I think part of the challenge with the Glaze Project is it 
is in a very sensitive meadow and old growth area. So these are 
the types of issues that are more likely to occur when we're 
straying outside, you know, more previously managed ecosystems 
and going into some of these more sensitive areas.
    We're actually spending a lot of time on the ground over 
the next month with Oregon Wild, to talk--to look on the ground 
about--and also with the logging contractor--to look at the 
project, moving forward.
    I think that--I certainly can't speak for Mr. Lillebo, but 
there may be some concerns that they have that they're not 
articulating, as well, that we want to try to work together on.
    So, we're certainly, you know, we're not intending to block 
the project, but we certainly feel it's our right to raise 
concern if we feel that a project is not implemented the way 
that we thought it was going to be.
    Senator Wyden. But, from a formal standpoint, you do not 
intend to object to the project?
    Mr. Maluski. From a formal standpoint, certainly not.
    Senator Wyden. OK.
    Then one last point on this Glaze issue, where Mr. Asante 
Riverwind was quoted as saying there was no science to take, 
you know, the tree. What science is the Sierra Club referring 
to that says you can't thin some trees over a foot in diameter 
in a dense second-growth pine stand? The reason this is a big 
deal is because Dr. Johnson spent a considerable amount of time 
doing research in this area, and feels that there's 
considerable science that makes the point the other way.
    So, if you all in your organization say that there's no 
science to take the tree, I'd like to know what science you're 
referring to.
    Mr. Maluski. Senator, I'd be happy to get back to you on 
that. We're actually preparing some materials on Glaze that 
we'd be happy to share with you as soon as they're ready.
    Senator Wyden. But when Mr. Riverwind was quoted in the 
paper saying there was no science to take the tree, what 
science was he referring to?
    Mr. Maluski. Senator, if you look at your legislation, one 
of the things that it talks about is the ability to use the 
best available science actually to protect trees that are 
smaller than 21`` in diameter. It's an option that is 
articulated in your legislation. This is the same exact science 
that we'd be looking at. In some cases, it is appropriate to 
protect smaller trees that are under 21'' in diameter. So, I 
haven't been to that site on the ground, but certainly I think 
that there is science out there that calls for protecting 
smaller trees, as well. So, that's what----
    Senator Wyden. I'll hold the record open and I'd very much 
like to see the science that you all were talking about. 
Because there was science referred to in that article. So, at 
some point, we ought to be able to see what backs that up.
    One other set of projects the Sierra Club has sought to 
block. These are the ones in the Malhere National Forest, the 
Damon Thinning Project, the Sierra Club's written comments 
state, ``Indeed science research documents significant harm 
from commercial logging, and largely recommends against any 
commercial logging removal of trees and forest structure and 
mixed conifer.'' The Sierra Club objected to this project. So, 
what science were you all relying upon there to say that 
commercial thinning should not be done in eastside mixed 
conifer?
    Mr. Maluski. Sir, I would have to have to get back to you 
on the Damon Project, in particular, because I'm not familiar 
with that.
    Senator Wyden. OK. So----
    Mr. Maluski. You mentioned some Umatilla projects, I'm more 
familiar with those.
    Senator Wyden. OK. You want to expound on that?
    Mr. Maluski. Certainly.
    I think the Umatilla projects you were probably referring 
to were the Wildcat, Cobbler, and the third one is escaping my 
name at the moment. But, some of our concerns there relate to 
treatments that are in mixed conifer stands. Oftentimes what we 
find out here on the Eastside is the Forest Service takes 
science and lessons learned from dry, low-elevation ponderosa 
pine forests, and sometimes applies them inappropriately to 
higher elevation, mixed conifer forests where, as I articulated 
in my testimony, there's actually a lot of scientific 
controversy.
    In addition, we've got issues, and some of these timber 
sales of unroaded areas outside inventoried roadless areas, but 
areas that certainly should deserve some higher level of 
protection. If, again, you look at the Eastside Scientific 
Society panel report of 1994, it calls for protection of 
ecologically significant roadless areas that are smaller than 
what you'd typically find in the roadless inventory.
    So, you know, we have concerns about wildlife habitat and 
soils. Unlike the Westside, when we do a lot of temporary 
road--even temporary roadbuilding can have decades long impacts 
on watershed health and forest health and actually--and the 
wrong scenarios can actually increase fire risks, if you do the 
wrong types of treatments. So, these are the types of issues 
we're concerned about, we never block any project frivolously. 
As I've stated, we've negotiated, very successfully, with the 
Forest Service and gotten them to agree that we are using the 
best available science and some of the concerns we're raising 
and agree to make some modifications to projects.
    Senator Wyden. I've worked, as you know, very closely with 
you all over the years, Mr. Maluski, and I intend to keep, you 
know, doing that. I think you've done some very good work in a 
lot of areas. This is one where I think clearly, as it relates 
to collaborations and the kinds of projects, I mean, the Glaze 
project, in particular, struck me as one that should not have 
produced that kind of headline. It should not have produced 
that kind of headline, given all of the history of the 
cooperation. We need to have you at the table, working 
constructively with us, our door is open to any ideas and 
suggestions to improve this. I think that after, literally, 
decades in our part of the country, we are on the cusp of some 
history-making legislation.
    The reality is, your organization wants to do a lot of 
restoration work, in Eastern Oregon and across this State, and 
frankly, around the country. If we can't pass legislation like 
this, there will be no mills to do the work. Zero. They are not 
going to be here.
    So, we've got to find a way to work together, and I pledge 
my door is open, and Michelle's and our staff, we are 
interested in all manner of ideas and suggestions and for you, 
Mr. Woodward, and Mr. Williams, the same applies. I will tell 
you, you can probably sense it's a little hard to figure out 
how to move if somebody says, ``Nobody in the forest products 
sector is in favor of a piece of legislation'' when you've got 
all of these people on the record, but Mr. Woodward, your point 
is a very valid one, that if somebody says we haven't talked to 
them, on my watch I don't want anybody to feel they haven't 
been talked to so I'm going to take your names, and any that 
you have, Mr. Williams, and we'll talk to them and we'll pick 
up on any suggestions or ideas that they have.
    So my----
    Mr. Williams. It's appreciated.
    Mr. Woodward. I very much appreciate it.
    Senator Wyden. My tradition is always to give the witnesses 
on the last panel the last word. So, I think it's especially 
appropriate, since this panel has clearly indicated we've got a 
little bit of heavy lifting to do to get this legislation 
exactly the way they would like it.
    Mr. Williams, Mr. Woodward, Mr. Maluski, any last words?
    Mr. Williams. No. I appreciate you allowing us to talk. You 
have my written testimony. I believe that the motivation was 
noble. I think the methodology expressed in this legislation is 
not going to result in the anticipated outcome. I think that 
funding is the key, funding of planning teams for our National 
Forests is the key, further restrictions is not.
    Senator Wyden. Mr. Woodward.
    Mr. Woodward. I think with cooperation, the tools are 
already there to do exactly what this bill is intending to do, 
without all of the extra red tape that goes along with the 
bill.
    Now, I realize both sides have not cooperated in the past, 
and I never thought I'd be on the same club as a Sierra Club 
member----
    Senator Wyden. But nothing has changed, you 2 still 
disagree.
    [Laughter.]
    Senator Wyden. That's the difference. That is, Mr. 
Woodward, that's the point in a nutshell. The previous panel 
had Mr. Insko from Boise-Cascade agreeing with Mr. Lillebo, 
something you haven't seen in 2 decades.
    Mr. Woodward. Right.
    Senator Wyden. If we keep doing what we're doing, we'll 
have panels like this where you and Mr. Maluski are going to 
keep fighting each other in court. So, you made the point.
    Mr. Woodward. Thanks.
    [Laughter.]
    Senator Wyden. Mr. Maluski.
    Mr. Maluski. Again, Senator, again appreciate you allowing 
us to testify today. I do think that some of the testimony 
you've offered, I really would urge you to take a look at some 
of the fixes we've suggested. We've provided your staff with 
some detailed language changes that would make us a lot more 
comfortable with certain provisions and, we think, again would, 
you know, we're concerned that we're putting a lot of eggs in 
the sawmill, you know, the logs to the mill basket. 
Historically, the Forest Service is not really very good at 
doing other types of non-timber oriented restoration work. It's 
a huge area to create green jobs in the woods, it's about 
economic diversification that can help weather the storm of the 
ups and downs of the price of 2 by fours or the lumber market 
and so hopefully we can look at some of those types of issues 
as we move forward.
    Senator Wyden. We're--and I'll just close by commenting on 
the week. We're putting a lot of eggs in a lot of baskets. I 
mean, that's what the visit to Ziakem and Boardman was all 
about, this wonderful cellulosic ethanol facility supported--
tremendous support from the environmental community and the 
industry. That was what Shepard's Flat was all about, world's 
biggest windmill. So, this has been a week focusing on a 
brighter economic future for our State. To a great extent, it 
is a brighter future and it is a greener future. It is a 
greener future that is going to feature collaboration with a 
lot of folks who nobody conceived 15, 20 years ago would 
possibly be working together.
    So, what I'm going to do on my watch is every single day, 
show up early, go home late, and try to get as many of you good 
people to agree so we can get that brighter security, brighter 
economic security for each part of Oregon and leave nobody 
behind.
    Thank you all, the subcommittee is adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Response of Jerry F. Franklin to Question from Senator Wyden

    Question 1. Dr Franklin, what is the science and your professional 
opinion on thinning in eastside dry mixed conifer?
    Answer. I would begin by saying that--from the viewpoint of 
ecological science and natural resource values at risk--the eastside 
dry mixed-conifer forest is the forest type in greatest need of major 
restoration treatments, including thinning, of any forest type in the 
Pacific Northwest.
    My explanation of this position is as follows.
    First a definition of eastside dry mixed conifer is required. From 
the standpoint of ecological science, these are the forests that occur 
on sites characterized by the Douglas-fir and most of the White Fir and 
Grand Fir plant associations found east of the crest of the Cascade 
Range in Oregon and Washington. These forests are typically composed of 
multiple species of which ponderosa pine, white (in SE OR) or grand 
(elsewhere in E PNW) fir, Douglas-fir, western larch, and lodgepole 
pine are most important. Other species that may be present in eastern 
Oregon include incense-cedar and sugar pine. In contrast, forests on 
sites characterized by the ponderosa pine plant associations are 
generally dominated solely by that species. The forests on dry mixed-
conifer sites are also generally denser and more productive than those 
found on sites where ponderosa pine is the climax species. There are, 
of course, moist temperate and subalpine forests found at higher 
elevations to which the following comments do not apply.
    From the perspective of ecological science, the dry mixed-conifer 
forests have undergone the greatest modification of all of the eastside 
forest types as the result of modern human activities, including fire 
suppression. Factors that are responsible for this include their 
relatively high productivity and the presence of grand or white fir and 
Douglas-fir, both circumstances resulting in the rapid development of 
large contiguous expanses of dense stands with large amounts of ground 
and ladder fuels. Historically, such dense, fuel-loaded forests 
occupied a much lower percentage of the dry forest landscapes and 
occurred as smaller, discontinuous patches within landscapes that were 
dominated by other dry mixed-conifer and pine forests of much lower 
density and which were often dominated by a small population of large 
old trees.
    It can be argued that there are more resource values at risk in the 
dry mixed-conifer forests and landscapes of eastern Oregon and 
Washington than in any other forest type in the region because of the 
dramatic changes that have occurred in these forests during the last 
century. For example, along the eastern slope of the Cascade Range, 
these forests provide most of the habitat utilized by the Northern 
Spotted Owl, as well as many other wildlife species, including game 
species, such as elk. These forests provide much of the protective 
cover for eastside watersheds, regulating the flows and sustaining 
water quality. The dry mixed-conifer forests collectively still contain 
large numbers of irreplaceable old-growth pine trees that are the 
structural and resiliency keystones of these ecosystems. All of these 
values are at risk of uncharacteristically large and severe wildfires, 
as well as insect outbreaks, in the highly modified dry forest 
landscapes.
    Hence, in my professional opinion, restoration treatments of dry 
mixed-conifer forests, including mechanical thinning and prescribed 
fire, are of the highest priority in terms of the risks that exist to 
ecological and other natural resource values in eastern Oregon and 
Washington. This may seem counterintuitive to individuals who would 
argue that--since many dry mixed-conifer forests have only missed 3 or 
4 natural fire return intervals while many climax ponderosa pine sites 
have missed ten or more--the priority should be in the drier or more 
fire-frequent pine forests. What this fails to take into account is the 
greater productivity of the dry mixed-conifer sites and the presence of 
species, such as white or grand fir, that provide fuel ladders of 
extraordinary quality and quantity. They also fail to take into account 
the high risk of insect attacks in dense, dry mixed-conifer forests 
even if they escape intense wildfire. This risk is to both the pine and 
the fir components of the dry mixed-conifer forests, taking the form of 
tree-(and often stand-) killing outbreaks of defoliators, such as 
spruce budworm, in the case of the firs and accelerated bark beetle 
kill of the old pine component, as a result of the competitive stresses 
induced on the pine by the high density of firs.
    These dry mixed-conifer forests actually dominate most of our 
eastside forest landscapes and, hence, provide most of the critical 
ecological services, including critical habitat for much of 
biodiversity. Large contiguous blocks of dense mixed-conifer forest 
were not the historical condition and are not sustainable as evidenced 
by the recent history of severe wildfire (e.g., B&B Complex on the 
Deschutes National Forest) and outbreaks of insect defoliators. Hence, 
aggressive restoration programs in dry mixed-conifer forest landscapes 
should have the highest priority for treatment, including thinning, in 
the opinion of Dr. K. Norman Johnson and myself.
    These programs do need to be planned and implemented at the 
landscape scale and incorporate the retention of significant areas of 
untreated denser forest as a part of the landscape mosaic. An example 
of such an approach is the current proposal for retaining 30% of the 
dry forest landscapes in patches of 300 acres (+/-) as nesting-
roosting-foraging habitat for Northern Spotted Owls within a matrix of 
restored dry mixed-conifer forest. In fact, the US Forest Service and 
US Fish and Wildlife Service have been encouraged to create an ``A'' 
team of scientists and managers to develop a comprehensive and coherent 
landscape-level plan for restoration of the entire dry mixed-conifer 
forest zone found along the eastern slopes of the Cascade Range within 
the range of the Northern Spotted Owl. Such an approach could provide a 
model for how to proceed in dry forest restoration elsewhere in eastern 
Oregon and Washington, since issues about the size and distribution of 
untreated blocks, for species such as the Northern Goshawk, require 
landscape-scale planning and implementation.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                Statement of Carole Hagen, Warrenton, OR

    I am very concerned about the impact of proposed national forest 
legislation--S. 2895--because it locks in costly and arbitrary annual 
acreage targets for damaging logging activity in our national forests 
in eastern Oregon, without providing protection for stands of old 
growth trees and unprotected roadless areas across eastern Oregon.
    Setting annual acreage targets in the bill with an emphasis on 
logging and mechanical forest entry will lead to an unfunded mandate 
that will undermine the laudable restoration goals of this legislation.
    Without clearer guidance, the Forest Service will continue to 
pursue large scale logging projects in old growth stands and 
unprotected roadless areas and rely on building dozens of miles of so-
called 'temporary' roads, which can scar the landscape and harm water 
quality for decades.
    This legislation should be amended to:

  <bullet> Remove annual acreage targets and the emphasis on mechanical 
        entry and sawlog production.
  <bullet> Remove exemptions that allow logging of large diameter 
        trees.
  <bullet> Provide explicit protection for old growth stands and 
        unprotected roadless areas from logging and mechanical entry
  <bullet> Retain the public's administrative appeal rights.
  <bullet> Ensure the creation of a diversity of restoration jobs, not 
        just logging jobs as the bill is currently focused on
  <bullet> Eliminate provisions that allow the Forest Service to sign 
        20-year contracts with private companies to remove biomass on 
        public lands.

    Thank you for taking the time to address these concerns.
                                 ______
                                 
             Statement of Dan Galecki, Bend, OR, on S. 2895

    My name is Dan Galecki. I own and maintain a small forestry 
consulting business, teach forestry at Central Oregon Community 
College, and am a Certified Forester from SAF.
    I strongly disagree with the methods you are using to describe and 
define `Old Growth'. Specifically, the strict usage of placing a size 
of 21 inches at DBH and larger to designates trees as Old Growth does 
not fit with every ecological and silvicultural situation every time. 
Similarly, placing a specific age on old growth, such as 150 years,does 
not fit for every stand of trees that occurs in every region in Oregon. 
My personal position is the same as stated from the local Central 
Oregon Chapter of SAF. Also I agree strongly with the testimony 
presented on June 4th, in Bend Oregon from Mark Webb, Grant County 
Judge, Canyon City, Oregon.
    Lastly, Senator Wyden, I did not appreciate your condescending 
remarks and questioning of Craig Woodward, Woodward Companies from the 
last panel, during the last portion of the meeting. Perhaps Mr. Woodard 
did not perform all of his homework, and maybe he did not represent the 
timber industry at a large scale. In any case, he felt he represented 
the opinions and consensus of industry in our local region and should 
be recognized, and his statements welcomed to the debate. Also, during 
the questioning of Ivan Maluski of the Sierra Club, you did not 
entirely agree with his position, and were extremely particular an 
overly inquisitive about `what science' GB was using and how he could 
back-up his statements. Yet you seemed to embrace and not interrupt Tim 
Lillebo's unscientific anecdote about some guy named `Blonde' cutting 
timber decades ago in several eastern and western states. It was 
encouraging to listen to different testimonies, but the lasting 
impression is that the final decisions are already made and it is 
unlikely adjustments can be allowed.
    Here is the following position of the Central Oregon SAF, and it is 
my position also. Thank You Senator Wyden for allowing all testimonies 
and debate on this important subject.
    The Central Oregon Chapter of the Society of American Foresters 
includes field foresters, technical specialists, educators, and 
administrators who help manage much of the public and private forests 
in Central Oregon. The Chapter is a local part of the Society of 
American Foresters, the largest association of forestry professionals 
in the world. The Society of American Foresters supports and represents 
the forestry profession in advancing the science, education, 
technology, and practice of forestry.

Quick Points
  <bullet> Central and Eastern Oregon foresters will be impacted by 
        this legislation--our members work in and around these forests 
        and have decades of experience managing forests, both public 
        and private, in areas impacted by S. 2895.
  <bullet> We strongly support the goals of S. 2895--to improve forest 
        resilience, retain forest products infrastructure, and target 
        large areas of National Forest land in Eastern and Central 
        Oregon for active management
  <bullet> Unfortunately the provisions in this bill will add process, 
        cost and confusion to federal forest management--the opposite 
        is needed
  <bullet> The bill would hamper effective and meaningful forest 
        management projects with arbitrary prohibitions on harvesting 
        (for example) not based on science or site-specific information
  <bullet> These prohibitions, though done with good intensions, could 
        actually cause more harm than good by preventing much-needed 
        management to prevent catastrophic wildfire or insect and 
        disease infestations
  <bullet> Without the full funding needed to implement this bill, 
        projects are unlikely to be implemented. Work on the ground is 
        needed as soon as possible in many eastern and central Oregon 
        areas to protect forest values
  <bullet> This legislation will complicate and increase the cost of 
        federal forest management by requiring forests in Eastern and 
        Central Oregon to be managed differently than forests in the 
        rest of the country
  <bullet> The legislation outlines a collaborative process and science 
        panel, yet nothing in the bill prevents endless litigation of 
        projects supported by a community and collaborative group

Detailed Points: Management of the National Forest System
    S. 2895 creates rules that apply only to Forest Service land in 
Central and Eastern Oregon. The result is that National Forests, such 
as the Deschutes National Forest which straddles eastern and western 
Oregon, would be further divided into areas with different laws 
applying to different areas of the Forest. This greatly complicates and 
increases the cost of forest management. The Chapter leaders believe it 
would be far better to provide clearer objectives for the entire 
National Forest System and avoid regulating the site-specific means to 
achieve these objectives.

Diameter Limits
    Though counter-intuitive to many, the prohibition of cutting trees 
greater than 21 inches in diameter in S. 2895 may actually prevent the 
healthy and resilient forest conditions desired by this bill. Chapter 
leaders know that a legal limit on cutting trees based only on diameter 
restricts the site-specific management of forests in the future. In 
Central Oregon a grand fir can grow to greater than 21 inches in 
diameter, and be off limits to cutting, in 60 years time. Grand fir has 
a low resistance to fire, but without being cut or burned will replace 
ponderosa pine in many areas while also dramatically increasing the 
fire risk to many forest stands. Placing larger grand fir off limits to 
cutting will promote the spread of this fire prone species and limit 
the growth and reproduction of ponderosa pine, a species more resistant 
to fire and disease.

Unscientific Definition of Old Growth
    Redefining the term `old growth' based on a single tree's age and 
diameter rather than on the structure of a group of trees is 
problematic and not based in science. Current definitions of old growth 
are based mainly on a description of a forest's ``structure,'' not just 
the size and age of individual trees. Rather, the accepted scientific 
definition of an old growth forest is a forest that usually occupies a 
late seral stage and is composed of a group of trees with variable 
sizes and spacing, with a multilayered canopy, and the presence of 
snags and downed logs. Even if all trees within a group meet the bill's 
old growth standard, it does not mean they form a structurally diverse, 
late seral forest that would support old growth dependent species. 
Chapter leaders are concerned about legally designating individual 
trees as `old growth trees' when those trees will not form a forest 
that has the characteristics of an old growth forest.

Advisory Panel
    The Chapter's leaders are also concerned that the bill gives an 
appearance of scientific legitimacy by forming an advisory panel of 
scientists to review the rules created should the bill become law. Our 
concern is that the limitation on cutting trees greater than 21 inches 
in diameter and redefining old growth by the age and size of individual 
trees are not rules that are based in science. The Chapter foresters 
believe these potential rules are based on political compromise and 
that appointing a scientific committee to assess the success of rules 
that are not based on science is futile.

Funding
    S. 2895 authorized $50 million for full implementation. With the 
current budget deficit, it may be difficult to fully fund the bill. 
This could result in the science panel meeting and providing 
recommendations only to lack the funds necessary to plan and implement 
projects on the ground.

Recommendations
  <bullet> Simplify the bill by removing arbitrary prohibitions and 
        instead provide management objectives (such as creating an old 
        growth stand)--foresters have the education and experience to 
        design projects to move towards these goals
  <bullet> Open the Forest Service bottle neck--reduce the process and 
        red tape that makes projects cumbersome and expensive to plan 
        and implement
  <bullet> Allow collaborative projects to be implemented quickly and 
        prohibit frivolous lawsuits from holding up projects
  <bullet> Work on comprehensive federal forest reform
                                 ______
                                 
   Statement of Larry Blasing and King Williams, Grant County Public 
                           Forest Commission

    I attended both hearings on 2895. I listened to all witnesses and 
saw common approval on some points and places where serious questions 
raised by numerous witnesses make the Bill unworkable as drafted.

          1. There is nearly universal agreement that significantly 
        more acres need to be treated in order to regain forest health 
        and retain the infrastructure that is essential to prevent an 
        ecological disaster. While the Bill focuses on Eastern Oregon, 
        the problem exceeds the area covered by the Gulf oil spill with 
        similar loss to jobs and economic consequences. The Nature 
        Conservancy testified as much as 500,000 acres per year need to 
        be treated to catch up.
          2. The hearing record exalts the cooperation between forest 
        industry and conservation interests. Beyond those testifying at 
        the hearings, there is little agreement since several industry 
        members oppose the Bill and the Sierra Club made it clear that 
        they oppose the parts of the Bill that the forest industry 
        supports.
          3. The Bill does nothing to reduce (other than short term) 
        the abuses of the Equal Access to Justice Act that make it 
        profitable for the Environmental Litigation Industry to 
        litigate Forest Service management plans. The Sierra Club made 
        it clear that they plan to continue appealing and litigating. 
        Until there is a change in law to make litigation on equal risk 
        to all parties, this Bill is meaningless. As an example, the 
        League of Wilderness Defenders, Blue Mountain Biodiversity 
        Project, Oregon Chapter of the Sierra Club and Grant County 
        Conservationists recently objected to the Damon Wildland Urban 
        Interface Project--signed by Karen Coulter and Asante 
        Riverwind--after participating in the Blue Mountain Forest 
        Partners (collaborative group) debate and agreeing on the 
        project. Their statement states ``Local conservation residents 
        are still very wary of publicly participating in Blue Mountain 
        Forest Partners.'' The legal opportunities for the 
        environmental litigation industry will not go away under this 
        Bill.
          4. Even though Senator Wyden says he will do everything 
        possible to secure funding, neither he nor Presidents Obama 
        control the appropriation process and the probability of 
        funding is unlikely. This means that upon passage of the Bill, 
        there will be no money to fund the required provisions of law 
        and that because it is law, money will have to be stolen from 
        other projects, National Forests or Regions. This may even stop 
        existing projects that are nearing completion and have a high 
        level of public acceptance.
          5. The three scientists testifying universally rejected 
        diameter limits as a method to retain ``old growth''. They 
        testified that there has been a 16% reduction in ``Old Growth'' 
        since the year 2000. There has been no harvest of trees or 21 
        dbh since 1994. It is impossible to maintain large diameter 
        trees by a harvesting limit based on dbh and no salvage wastes 
        the highest values in the forest. Trees over 21 inches dbh will 
        need to be harvested to protect the health of large old trees.
          6. The Forest Service is ineffective and in internal 
        gridlock. Firm direction must be given to force the agency to 
        perform as required by law--Organic Act through NFMA. Any 
        Legislation must reaffirm this basic mission.
          7. Our local economies have suffered and continue to be at 
        risk. We must have increased output of solid wood products to 
        maintain, let alone increase, economic viability. Biomass 
        utilization is an admirable objective but, it will not sustain 
        itself without inclusion of solid wood products.
          8. In the event of the passage of SB 2895, if a supplemental 
        budget item does not occur and if real results are not realized 
        in three years the Law must sunset and be deleted from all 
        legal requirements.
          9. The only thing that prevents the Forest Service from 
        achieving the objectives of the Bill is bureaucratic 
        inefficiency, lack of firm direction and lack of appropriated 
        funds. If the $50,000,000 appropriation for SB 2895 was given 
        to the Forest Service until used, existing projects could be 
        completed and the objectives of the Bill would be exceeded. All 
        of this without codification.
                                 ______
                                 
               Statement of James E. Nielsen, on S. 2895

    After a 30 year career with the U.S. Forest Service I retired as a 
Region 6 Certified Silviculturist. This position is basically that of 
an applied Forest Ecologist. I am very familiar with the ecology and 
management of the eastside forests covered by S.B. 2895 and have 
carefully reviewed the draft of this legislation. Following is my 
professional assessment of this bill.
    First, I agree that legislation is needed to permit effective 
management of National Forests and those forests managed by the Bureau 
of Land Management. What is missing and needed in S.B. 2895 is a 
consistent national or regional (such as the western states) policy for 
the management of federal forests. While all different, these forests 
have many similarities that makes them compatible with such larger 
scale goals. These can then be made into forest specific management 
direction thru a program of expedited Forest (USFS) and District (BLM) 
land use plans. An important part of my training as a silviculturist 
was the strong emphasis on seeking out management direction from these 
plans and applying them to the site specific prescriptions I prepared.
    Second, I am very concerned that this legislation contains site 
specific limitations on management practices. The most glaring example 
is the 21 inch diameter limit on tree harvest. From my training and 30+ 
years of experience this is counter productive to the development of 
healthy forests. This requirement is politically rather than 
biologically based. I have applied diameter limits as part of some of 
my silviculture prescriptions but they were based on stand 
examinations, management direction, my field assessments and long term 
stand management objectives. I understand that S. 2895 allows 
exceptions to the 21 `` limit but this will require agreement from the 
collaborative group and/or the science team. My concern about this 
process is at what scale will they make these determinations--
individual tree, stand, basin or Forest/District?. Suppose the 
collaborative group disagrees with the science team? This process adds 
another layer of analysis and paper work to the management planning 
process. Right now the Forest Service and BLM are drowning in analysis 
and procedures that prevents on the ground work from being accomplished 
in a timely, cost effective manner. To me the most effective solution 
is the development of Forest/District plans with management direction 
as above and then allow an interdisciplinary team and silviculturist 
make specific stand management decisions including harvest diameters.
    Lastly, I am deeply concerned that federal forest management must 
seriously address the social/economic needs of eastside communities. I 
understand that there are statements to this effect in S.B. 2895 but to 
make this a formal part of this bill a change needs to be made to 
section 4 (a)(1) (General Forest Goals). I suggest adding a section (E) 
with a statement such as ``to support the social/economic stability of 
eastside communities''.
    Thank you for considering my input on this important legislation.
                                 ______
                                 
                Statement of the Sierra Club, on S. 2895

    Please find attached and below supplemental materials related to 
questions asked of the Sierra Club by Chairman Wyden at the June 4 
Field Hearing on S. 2895 in Bend, Oregon.
    Regarding the science behind concerns articulated in the Bend 
Bulletin newspaper on the implementation of the Glaze Meadow project in 
the Deschutes National Forest. As discussed during the hearing, we are 
not blocking or planning to block the Glaze Meadow project. The vast 
majority of the project's implementation is supported by the Sierra 
Club, a fact not reflected in the Bend Bulletin article. Our concerns 
rest with a very small portion of the sale, in particular, in the 
implementation of mature tree removal within close proximity of the 
Glaze Meadow edge. Within the larger Glaze Meadow project, some of the 
focus is on wet edge ponderosa pine forests--where high moisture levels 
in the seasonal wetlands meadow support higher densities and structural 
complexity of ponderosa pine than dry forest locations. Our concerns is 
that in the Glaze project, the Forest Service applied dry ponderosa 
pine density formulas to moist ponderosa pine areas along the meadow 
edge and thus the project has logged a significant number of well 
established mature and older trees up to 21'' diameter at breast high 
along the meadow's edge. Across 85% of the Glaze project, outside of 
the moist locations along the meadow and along a nearby creek, the 
Forest Service accurately applied dry pine density formulas. It is only 
within the wet meadow edge area--about 5% of the project, but 
containing some of the best wildlife habitat--that there are issues 
concerning logging of mature and old characteristic trees. It is 
unfortunate that the Bend Bulletin article discussed at the hearing did 
not reflect these broader issues, and hopefully these supplemental 
comments better highlight some of the basis for our concerns. We are 
working collaboratively with others, including Oregon Wild and the 
logging contractor, to address these concerns before remaining logging 
along the meadow's edge in old growth stands occurs this upcoming 
winter.
    Regarding the science relating to our concerns over the 
appropriateness of logging in historically mixed conifer mid and higher 
elevation forests at projects such as the Damon project in the Malheur 
National Forest, and the Farley, Wildcat, and Cobbler Projects in the 
Umatilla National Forest, please find attached again the March 16 
letter from eleven scientists active in the fields of western forest 
and fire ecology. This letter identifies key pieces of scientific 
information related to the management challenges related to Oregon's 
eastside, including mixed-conifer forests, and concludes with more than 
two pages of published scientific references relevant to these issues.
    We have also attached information related to the Wildcat Fuels 
Reduction project on the Umatilla National Forest including both our 
complaint filed August 2009 before the US District Court in Portland, 
which identifies our core concerns with this project and which 
encapsulates the types of issues related to logging in roadless areas 
and mixed conifer forests we have seen on a number of projects in the 
Umatilla and Malheur National Forests in recent years. Accompanying 
this is the supporting Declaration of Dr. Richard Waring, Distinguished 
Professor of Forest Ecology, Department of Forest Ecosystems and 
Society, College of Forestry, Oregon State University, which discusses 
the Wildcat project and provides a list of supporting scientific 
references.
    It is our view that the burden of proof is on the Forest Service to 
provide adequate supporting science for projects it decides to pursue 
on National Forest lands. To the extent that the Forest Service has not 
provided convincing scientific justifications for projects in Oregon's 
eastside national forests, or has failed to acknowledge scientific 
debate over some of its key assumptions, they have found these projects 
challenged by not only the Sierra Club, but a number of other 
organizations. Our goal is to hold the Forest Service accountable when 
they fail to use the best available science to justify projects that 
could have harmful and long-lasting impacts to watershed and forest 
health, risk to communities from wildfire, and the recovery of 
threatened and endangered species.
                                 ______
                                 
  Statement of Chad Hanson, Ph.D., Director and Staff Ecologist, John 
   Muir Project, Research Associate, Plant & Environmental Sciences 
             Department, University of California at Davis

    As scientists conducting research in the fields of forest and fire 
ecology, we feel compelled to provide input to Congress when proposed 
legislation does not accurately represent the current state of 
scientific knowledge. Some current bills, including the ``Oregon 
Eastside Forests Restoration, Old Growth Protection, and Jobs Act of 
2009'' (the ``Act''), sponsored by Senator Ron Wyden (D-OR), propose 
measures to increase logging levels on national forests based upon the 
assumptions that the current levels and intensities of wildland fire 
and beetle mortality in these forests are ``uncharacteristic'', are 
harmful to the forest ecosystems, and increased logging will reduce the 
extent or intensity of these natural processes. Because these 
assumptions are not based upon a sound scientific foundation, and 
because of the concern that these bills include annual logging-level 
mandates that might undermine existing environmental laws, we urge you 
not to support such proposals as currently written. Ecological 
considerations should guide what we do on our national forests, rather 
than setting logging targets independently of ecological 
considerations.
    Below, we briefly outline some important current scientific 
information that should be reflected in any Act dealing with forests of 
eastern Oregon or elsewhere in the western United States:

  <bullet> There is currently a significant deficit of large snags 
        (dead trees) in Oregon's forests relative to the minimum 
        habitat needs of many native cavity-nesting wildlife species, 
        especially in eastern Oregon (Donnegan et al. 2008). This 
        Forest Service report, based upon thousands of field plots, 
        concluded that large (over 20 inches in diameter) snags are 
        ``currently uncommon'' in eastern Oregon, at only 1 per acre 
        presently, and determined that ``management may be necessary to 
        produce a greater density of large snags'' (Donnegan et al. 
        2008 [pp. 47-48]).
  <bullet> Fire and insect-mortality are probably the most effective 
        natural processes for providing the snags and large wood that 
        are currently in deficit in these forests.
  <bullet> Where snag densities are relatively higher, these areas do 
        not tend to burn at higher severities (Bond et al. 2009).
  <bullet> The scientific data contradicts the assumptions that, prior 
        to fire suppression, wildland fire in eastern Oregon's forests 
        burned only at low-intensity levels and patches of high-
        intensity fire are somehow ``uncharacteristic'' or unnatural. 
        We now know that forests of the intermountain west, including 
        ponderosa pine forests, have burned at various severities 
        historically, and high-severity fire is a natural part of this 
        mix (Pierce et al. 2004, Sherriff and Veblen 2006, Baker et al. 
        2007, Hessburg et al. 2007, Sherriff and Veblen 2007, Klenner 
        et al. 2008, Whitlock et al. 2008, Baker 2009).
  <bullet> In the eastern Cascades, high-severity fire occurrence is 
        very low, with a current (since 1985) rotation interval of 889 
        years, i.e., at current rates, high-severity fire will only 
        affect a given stand every 889 years--well beyond the normal 
        lifespan of the conifer species (Hanson et al. 2009, Hanson et 
        al. 2010). Moreover, fires are not getting more intense in 
        eastside forests (Hanson et al. 2009, Hanson et al. 2010), and 
        overall fire occurrence is far below is historic extent (Medler 
        2006). It is also apparent that recent levels of fire 
        occurrence make it highly unlikely that fuel treatments could 
        affect fire behavior even in the forest types that tend to burn 
        most frequently (Rhodes and Baker 2008). There is no good 
        evidence that current high-severity fire in eastern Oregon 
        exceeds the natural range of variability.
  <bullet> Fuel treatments do not always reduce fire severity in the 
        relatively rare cases when fire affects treated areas.
  <bullet> Fuel treatments are not effective in maximizing carbon 
        storage relative to fire alone (Mitchell et al. 2009).
  <bullet> Fire has numerous ecological benefits, even when it is high 
        severity. Patches of high-severity create the forest and 
        montane chaparral habitats that are some of the most 
        ecologically important, highly biodiverse, and rarest forest 
        habitat in our western U.S. forests (Hutto 2006, Noss et al. 
        2006, Swanson et al. 2010). Many rare and imperiled wildlife 
        species native to eastern Oregon, such as the Black-backed 
        Woodpecker, depend upon unlogged patches of high-severity fire 
        for nesting and foraging (Hutto 1995, Hutto 2006, Hanson and 
        North 2008, Hutto 2008, Swanson et al. 2010). High-severity 
        fires also provide a bonanza downed wood which benefits aquatic 
        systems (Beschta et al. 2004, Karr et al. 2004, Swanson et al. 
        2010).
  <bullet> Fuel treatments in many widespread forest types are likely 
        to be ineffective in restoring natural fire behavior (Veblen 
        2003; Schoennagel et al. 2004; Noss et al. 2006; Baker et al. 
        2007).
  <bullet> The Act's diameter limit of 21 inches is excessive, and 
        allows far too many mature, old trees to be removed 
        unnecessarily.
  <bullet> Extensive logging typically involves road activities, 
        including the construction of ``temporary'' roads and landings 
        which have negative impacts on watersheds and aquatic systems. 
        The negative watershed impacts of so-called ``temporary'' 
        landings and roads are not temporary, but persistent (Beschta 
        et al. 2004, Karr et al. 2004).
  <bullet> Many imperiled fish species depend on habitats that are 
        affected by land use on public lands in Oregon (USFS and USBLM 
        1997). Many of these habitats are already widely degraded 
        (Henjum et al. 1994). Additional degradation from extensive 
        logging, elevated use and/or construction of roads and landings 
        is likely to further imperil these fish species and increase 
        the likelihood of extirpation.
  <bullet> Remaining roadless areas are critical to biodiversity and 
        larger roadless areas typically have the lowest potential for 
        altered fire regimes, especially due to their location at 
        higher elevations (Henjum et al. 1994). Such areas should be 
        protected from logging.

    Due to the foregoing, we urge that any legislation aimed at 
restoring forests on public lands include the following:

  <bullet> Explicit statements that all activities must fully comply 
        with existing environmental laws.
  <bullet> Retention of citizen review provisions. As stated in Karr et 
        al. (2004): ``Managing public lands for the benefit of present 
        and future generations is challenging--a process most likely to 
        succeed in an open atmosphere that actively uses existing 
        scientific and technical information and expertise.''
  <bullet> Restrict fuel treatments only to areas where multiple lines 
        of empirical evidence clearly indicate that the fire regimes 
        have been altered and that there is currently more high-
        severity fire than there was prior to fire suppression. In such 
        areas, limit thinning to small-diameter trees beneath the 
        forest canopy. Ensure that treatments do not occur in systems 
        where fire regimes have not been altered.
  <bullet> Prohibit construction of new landings and roads. Require 
        significant levels of permanent road decommissioning and 
        closure prior to any fuel treatments.
  <bullet> Retain all mature trees, including those that pre-date 
        settlement (Baker et al. 2007).
  <bullet> Significantly curtail fire suppression in areas where human 
        infrastructure is not at risk. Curtail domestic livestock 
        grazing in areas where it has contributed to fire regime 
        alteration.
  <bullet> Exclude treatments from roadless areas greater than 1,000 
        acres. These areas are scarce, biologically important, and 
        serve as important controls for monitoring effectiveness of any 
        fuel treatments.
  <bullet> Require sound scientific analysis and disclosure of the 
        potential ecological costs and benefits of fuel treatments, 
        prior to initiating treatments.

    We are happy to answer any questions about these issues. Please 
feel free to contact us.
                                 ______
                                 
 Oregon Chapter Sierra Club and Allied Conservation Timber Sale Appeal 
                              Settlements

(updated May 2010)
     19 successful appeal resolutions 2006-2010 (sierra club et al)
    Deschutes National Forest: BLT (09), West Tumbull HFRA (09), Snow 
Fuels (08), South Bend HFRA (08), ODOT Pass Sale (06)
    Ochoco National Forest: Upper Beaver (10), East Maury (08), Burns & 
Crystal Springs (08), Spears (07), Harvey Gap (07), Cougar Salvage (06)
    Umatilla National Forest: Sunflower Bacon (06)
    Malheur National Forest: Thorn-Egley-Crawford (08--the Thorn appeal 
resolution also settled two additional projects, Egley and Crawford), 
Balance (08), Dads Creek (08), Black Rock (07), Canyon Creek (06)
    Resolution of appeal issues included:

  <bullet> dropping units in unlogged roadless area habitat;
  <bullet> dropping units in old growth habitat;
  <bullet> dropping units in ecologically complex mixed conifer mid and 
        high elevation habitat;
  <bullet> dropping units in salmonid riparian area habitat and on 
        steep slopes;
  <bullet> dropping new roads including ``temporary'' new road 
        construction;
  <bullet> protecting all old characteristic trees regardless of 
        diameter;
  <bullet> employing 16'' and 18'' lower diameter cutting limits based 
        on the best available science;
  <bullet> switching some units to non-commercial thinning with 9'' to 
        12'' maximum diameter cutting limits based on the best 
        available science;
  <bullet> adopting provisions protecting wildlife habitat focal areas, 
        including forest edges, rock outcrops, meadows, connective 
        cover, increased basal area retention levels;
  <bullet> requiring 15% to 25% of unit areas be left untreated as 
        wildlife habitat refugia;
  <bullet> requiring additional large downed logs and/or snags left per 
        acre;
  <bullet> requiring post-project vegetative recovery determination 
        before livestock grazing can be resumed;
  <bullet> protection of popular recreational and community trails;
  <bullet> requiring pre-project implementation review and/or post 
        project assessment;
  <bullet> requiring the timely removal of project slash and debris.
                                 ______
                                 
Statement of Michael Donnelly, Firends of the Breitenbush Cascades, OR*
---------------------------------------------------------------------------
    * Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
    We the undersigned strongly oppose Senate Bill S. 2895, introduced 
by Senator Ron Wyden (D-OR), the name of which--the Oregon Eastside 
Forests Restoration, Old Growth Protection, and Jobs Act of 2009--
belies its true effects. S. 2895 represents a concerted effort on the 
part of the timber industry and its political allies, with support from 
some not-for-profit organizations, to cripple essential environmental 
laws in order to increase logging across 8 million acres of publicly-
owned forests--forests which have already been severely degraded by 
logging. This bill is the latest in a series of bills that increase 
logging on our national forests, weaken legal protections, and consign 
the trees from our national forests to be burned in wood energy plants 
all across our nation.
    We oppose this and all other legislation that will increase logging 
on our public forests, whether federal, state, or local, especially 
when the ``product'' will be utilized as fuel for biomass-to-
electricity plants or biofuel plants creating cellulosic ethanol. S. 
2895 is unacceptable and cannot be fixed or improved by amendments, and 
we urge you to vote against it.
    S. 2895 claims it will protect, restore and increase the old growth 
forest stands and trees, but offers heavy logging of these forests as 
the supposed magic elixir that will ``restore'' them. Logging is what 
caused the tragic degradation of these great eastside forests in the 
first place.
    The only proven method of growing--or regrowing--natural old growth 
forest ecosystems is for natural processes--nature, not humans with 
chainsaws--to manage the forest--a process that takes centuries. The 
remaining primary old-growth forests on Earth are living proof of 
nature's ability to grow forests hundreds or thousands of years old.
    However, there is not a single example anywhere on Earth of a 
natural centuries-old forest ``grown'' by humans using chainsaws. 
Therefore, there are no scientific studies of these non-existent old-
growth forests ``restored'' by chainsaws. This legislation's assertion 
that using heavy logging will ``restore'' old-growth forests is without 
scientific foundation.
    S. 2895 claims that the increased logging mandated by this bill 
will somehow mitigate the effects of climate change. Recent scientific 
studies (Public land, timber harvests, and climate mitigation: 
Quantifying carbon sequestration potential on U.S. public timberlands, 
Depro, B.M., et al, Forest Ecology and Management, 2007; Forest carbon 
storage in the northeastern United States: Net effects of harvesting 
frequency, post-harvest retention, and wood products, Nunery, J.S., 
Keeton, W.S., Forest Ecology and Management, 2010) have shown 
conclusively that forests which grow without logging grow more biomass, 
and subsequently sequester more carbon, than forests that are logged, 
and that it takes a newly-planted forest from 50-100 years to attain 
the level of carbon sequestration the logged forest was providing when 
growing. Further, another study (Peters, W. et al., An atmospheric 
perspective on North American carbon dioxide exchange: Carbon Tracker. 
PNAS, 2007) concluded that North American ecosystems, mostly forests, 
remove 0.65 Pg C/year, offsetting one-third of the country's estimated 
1.85 Pg carbon emissions. Compromising the capacity of forests is 
therefore equivalent to increasing emissions. Therefore, the increased 
logging mandated by this bill will not only increase forest 
destruction, it will decrease the amount of carbon stored by these 
forests, diminishing the ability of our public forests to combat global 
climate change.
    However, this legislation goes even farther in contributing to 
global climate change. It instructs the Forest Service to take the wood 
logged from these forests and burn it in wood-energy plants. Nothing 
could possibly contribute more to global climate change than increasing 
logging on our national forests and then burning the wood in biomass 
plants. According to a recent study (Matera, Chris, Wood-Fueled Biomass 
Power Plants and CO2 Emissions, http://www.maforests.org/MFWCarb.pdf 
February 2010) wood-burning energy plants contribute greatly to global 
climate change. Using data from a permit application in Massachusetts 
and from the Department of Energy, the study concludes, ``Overall, wood 
fueled biomass power plants emit about 50% more CO2 per MWh than 
existing coal plants, 150% more than existing natural gas plants, and 
330% more than new power plants.''
    But there are also tremendous amounts of carbon released by the use 
of petroleum when logging and chipping the forests and the burning of 
gasoline used by the trucks that will make thousands of trips totaling 
thousands of miles transporting the cut wood fiber to the biomass/
biofuel plants. Burning trees from our national forests in biomass 
plants is a net carbon-loss disaster for global climate change. A 
recent article (Searchinger, et al., Fixing A Critical Climate 
Accounting Error, Science, 2009) reveals that emissions from biomass 
burning are entirely uncounted, either under land use change or under 
smoke stack emissions from utilities. This failure in accounting has 
resulted in the claim that biomass burning is ``carbon neutral'' and 
led to a flow of public-funded subsidies into these biomass burning 
facilities. This accounting error must be fixed. Doing so will reveal 
that logging and burning of forest biomass is not a viable solution to 
climate change. The claim by this legislation that burning wood in 
biomass plants will reduce global climate change is no more than a 
disproven, unscientific fabrication.
    S.2895 goes so far as to suspend all applicable laws in favor of 
biomass removal. In Section 12 of the bill titled, BIOMASS, the 
specific language reads:

          (a) IN GENERAL.--Notwithstanding any other provision of law 
        (including regulations) relating to the use of biomass energy, 
        in accordance with each purpose and goal of this Act, and any 
        applicable recommendation of the advisory panel, the Secretary 
        shall take such actions as are necessary to further enhance the 
        use of woody biomass in the covered area.

    The area covered by this legislation is more than 8 million acres 
of public forestlands across Eastern Oregon.
    S. 2895 also tilts towards commercial interests, stating;

          On a determination by the Secretary that forest conditions, 
        commercial interests, and an adequate supply from a combination 
        of Federal and non-Federal sources indicate a viable economic 
        supply and demand for establishing a regional biomass project, 
        the Secretary may designate an area within the covered area in 
        which--

                  (A) the removal of biomass is necessary to restore 
                forest health; and
                  (B) a sufficient volume of material is expected to be 
                available to support a 20 year-lifespan of capital 
                investments for biomass use.

    S. 2895 is honest in at least one respect, when it admits its 
purpose is to supply the wood industry with a guaranteed supply of wood 
from our federal forestlands. S. 2895 guarantees a minimum of 20 years 
of vastly increased logging to supply these newly constructed wood 
energy plants. This mandated amount of logging will devastate the very 
forest ecosystems that S. 2895 claims to be restoring. Biomass burning 
utilities require about 13,000 tons per megawatt per year, and 
transportation logistics require sourcing feedstocks from a limited 
distance (generally around 50 mile radius). Providing and maintaining 
sufficient feedstocks to biomass burning facilities is unlikely to be 
harmonious with the goal of forest protection and ``restoration.''
    The stripping of our forests for biomass means that woody debris 
that previously had been left for mulch in the forests and which 
enriched the forest soil and provided essential habitat for 
biodiversity will now be taken away from the forests and burned. If 
this legislation and other bills like it proceed, our national forest 
soils will be stripped of nutrients and our forests will die of 
starvation.
    S. 2895 clearly cripples environmental laws which have given our 
forests some level of protection, not only by unconscionable suspension 
of the laws, but also by rushing the normal environmental enforcement 
procedures. S. 2895 would effectively circumvent NEPA by having pre-
made decisions come out of advisory committees, even though NEPA will 
ostensibly be followed. NEPA requires an objective analysis of 
alternatives before decisions are made. Under this process, in effect, 
the decision is made before the analysis, making NEPA a pro-forma 
exercise. The process is further tilted toward increased logging of 
these forests by the use of advisory groups made up primarily of paid 
employees of the timber industry and others who are forced to either 
agree with this increased logging program or be denied from 
participation. This disenfranchises the American people of our and our 
children's heritage, the national forests of Oregon--it is no less than 
grand theft and destruction of federal property. This bill is the 
equivalent of allowing a small number of people from New Jersey, 
subsidized by federal tax dollars, to dismantle the Statue of Liberty 
and sell it for scrap metal while claiming it is good for the economy.
    S. 2895 claims that one of its goals is to protect large trees, 
trees larger than 21 inch diameter, and it even lists exceptions for 
protecting trees smaller than 21 inch diameter. However, S. 2895 gives 
all final authority, stripped of any legal check and balance, to the 
Secretary of Agriculture to determine what trees can logged, rendering 
the supposed protections of trees of any size, including any and all 
large trees, completely meaningless. This legislation is a green light 
to demolish our public forests, even allowing logging of the giant old 
trees the bill is allegedly supposed to protect.
    Roads are one of the greatest causes of forest degradation. S. 2895 
will allow an unlimited number of new roads, including permanent roads, 
to be constructed.
    A new scientific report (Bond, Monica L., et al., Influence of Pre-
Fire Tree Mortality on Fire Severity in Conifer Forests of the San 
Bernardino Mountains, California, The Open Forest Science Journal, 
2009) suggests that bark beetle outbreaks will not lead to greater fire 
risk, and that tree thinning and logging is not likely to alleviate 
future large-scale epidemics of bark beetle. The report's findings 
apply to millions of acres of lodgepole pine and spruce-fir forests 
across North America. This report completely contradicts the goals and 
unscientific claims of this bill that increased logging will reduce 
these naturally occurring events.
    ``Drought and high temperature are likely the overriding factors 
behind the current bark beetle epidemic in the western United States,'' 
said Scott Hoffman Black, executive director of the Xerces Society for 
Invertebrate Conservation. ``Because logging and thinning cannot 
effectively alleviate the overriding effects of climate, it will do 
little or nothing to control these outbreaks.'' (Black, S. H., et al., 
Insects and Roadless Forests: A Scientific Review of Causes, 
Consequences and Management Alternatives, National Center for 
Conservation Science & Policy, Ashland OR, 2010).
    S. 2895 will lead to hundreds of millions of dollars of additional 
subsidies to log our national forests at a time when Americans are 
saddled with a soaring national debt.
    Since the rise of large scale civilizations around 8,000 years, 
over 80% of the Earth's forests have been either completely wiped out 
or severely degraded by humans. Logging by humans is the greatest 
threat to the survival of the remaining natural forests on Earth, yet 
this legislation will increase logging. All the verbiage in S. 2895 
about so-called ecological forest restoration, watershed health, 
conservation, ecosystem function, carbon cycling, and scientific 
advisory panels are thin cover for a timber industry logging bill.
    S. 2895 was written without public participation, contrary to the 
claims of some of the bill's supporters. It is undemocratic in 
conception and would also be so in implementation. Senate Bill 2895 is 
an environmental disaster-in-the making for our national forests and an 
economic disaster for the American people and will contribute greatly 
to lost biodiversity and increased atmospheric carbon dioxide levels. 
We urge you to completely oppose it.
                                 ______
                                 
     Mike Hayward, Chairman, Wallowa County Board of Commissioners

    Thank you for this opportunity to comment on S. 2895. First let me 
say that I appreciate the work of Senator Wyden and his staff in 
attempting to address the issues of forest health and community well-
being in Eastern Oregon. I appreciate greatly that they recognize that 
a problem exist and that it needs to be dealt with quickly. Having said 
that I have concerns about this bill in its current form that I believe 
must be addressed before it moves forward.
    The issue that is perhaps the most troubling is that the 
legislation calls for a $50 million appropriation to carry out the work 
of the bill. There is no doubt that for the Forest Service to meet the 
requirements as outlined this money will be necessary but given the 
current state of the federal budget I question if it will be available.
    The Forest Service finds itself in a perpetual planning, appeals 
and litigation cycle, with little work actually happening on the 
ground. We frequently hear about the use of ``best available science'' 
and yet we seem to want to manage out national forest by a consensus 
process. This bill would seem to expand on that concept with the 
inclusion of the advisory panels and collaborative groups. At some 
point, if we are to attain a healthy forested landscape, we have to 
allow the professional foresters to do their job.
    It appears that the bill requires that before any tree, of any 
size, can be cut it has to meet a set of criteria as outlined in the 
bill. Given the size of the landscape that the Forest Service is 
dealing with this is not possible. One could argue that I have read too 
much into this portion of the bill and I believe that this was not the 
intent, but given the past history of litigation there would appear to 
be an open field for potential lawsuits.
    Lastly, I believe that we must recognize both a forest health and 
an economic reality. The Blue Mountain Forests (Malheur, Umatilla, and 
Wallowa Whitman) are currently engaged in forest plan revision. The 
proposed action references that sixty percent of the forested landscape 
is in need of treatment due to excess fuel loadings. The plan also 
acknowledges that the three forests have a net growth, after mortality, 
of 791 million board feet yet calls for an Allowable Sale Quantity 
(ASQ) of approximately 200 million board feet, with anticipated actual 
harvest being a fraction of the ASQ because of budgetary constraints. 
This level of harvest will not only fail to improve the stocking level 
but will actually increase the number of forest stands outside the 
historic range of variability.
    The reality is that under current harvest protocols timber sales 
lose money and the Forest Service is limited in how much activity they 
can accomplish. The sale and removal of larger trees (greater than 16 
inches) is necessary to make forest restoration work cost affective. 
Certainly not all, nor even most, larger trees need to be cut, but if 
we are unwilling to cut any larger trees I fear that the economics of 
thinning small diameter material will prevent significant work from 
happening on the federal land.
    Again, thank you for the opportunity to comment.
                                 ______
                                 
 Statement of Zane G. Smith, Jr., Retired U.S. Forest Service Regional 
                                Forester

    I am pleased to offer testimony related to SB 2895 to restore 
forest landscapes, protect old growth forests, and manage national 
forests in the eastside forests of the State of Oregon, and for other 
purposes, the subject of your hearing in Bend, Oregon June 4. Athough I 
applaud the effort of Senator Wyden and the various interests in 
breaking through the stalemate so adversely affecting the management of 
our National Forests, I have grave concerns about possible unintended 
consequences for the National Forest System (NFS). The proposed Bill 
has many positive provisions, as a matter of fact, the Forest Service 
under existing statutes is trying mightily to practice them now. I am 
sure you received valuable counsel on how some of these provisions can 
be strengthened to improve the outcomes.
    My concern surrounds what I feel could lead to the fragmentation 
and eventual elimination of the National Forest System. I am a third 
generation career Forest Service retiree. My career led me through 
every line position in the Forest Service except Chief. I served in AZ, 
ID, OR, WA, CA and the Chief's office. So, I admit to having a bias, 
but we all know that the NFS, put together by President Theodore 
Roosevelt and many others, is the envy of the World and represents an 
extraordinary treasure for our Nation.
    The management of the NFS is guided by a host of statutes dating 
back to the Organic Act of 1897 followed by literally hundreds of Acts 
into the 21st Century. The thought of overlaying this direction with 
Bills such as SB 2895 and others like Montana Senator Testor's, 
absolutely stagers the mind. My fear is that it lays the ground work 
for the demise of the National Forest System.
    My plea is to keep these thoughts in mind and I urge the Committee 
to consider carefully how the existing statutes can be cleaned up and 
added to, thus applying up to date direction to the entire National 
Forest System. Thanks so much for your consideration.
    Thank you for adding this to the Record.
                                 ______
                                 
 Statement of Tom Davis, PE, Upper Deschutes Volunteer River Steward, 
                        the Native Fish Society

    These S. 2895 comments use the Deschutes and Ochoco National 
Forests as examples, but apply to all Forest Service and Bureau of Land 
Management land east of the Cascades, as well as all forestlands in the 
State of Oregon. We enthusiastically support S. 2895 but aquatic 
ecosystems must be given a top priority in the final bill. The 
important forest issues that S. 2895 and its implementation must 
address include:

  <bullet> Erosion-Sedimentation Reduction
  <bullet> Roads
  <bullet> All terrain Vehicles
  <bullet> Stream Temperature
  <bullet> Wildfire and Fire Fighting
  <bullet> Tree Removal
  <bullet> Passage Barriers
  <bullet> Instream, Riparian and Stream Corridor Protection

    Erosion-Sedimentation Reduction--The most important issue is 
erosion from the thousands of miles of road prisms (cut, road and fill 
surfaces) in the National Forests. The roads also include hundreds of 
culvert passage barriers. This will become a more serious problem in 
the Deschutes and Ochoco National Forests with the reintroduction of 
steelhead, Chinook and sockeye, and the restoration of passage for bull 
trout to their spawning tributary headwaters. Riparian conditions are 
poor in many locations, causing stream temperature problems and 
exacerbated sediment delivery to streams.
    Most of the soils are very erodible and range from coarse sand and 
gravel soils in the west side subbasins to predominantly fine grained 
soils in the Crooked River subbasin. In the west side subbasins the 
coarse-porous soils allow rapid infiltration, which often mitigates 
peak flow rates, resulting in long sediment delivery times to the main 
stems. In the Crooked River subbasin less infiltration occurs so peak 
flows are higher and much of the eroded clay and silt stays suspended 
and moves faster in the water column. Turbid or ``muddy'' streams are 
seldom seen in the Metolius subbasin where most of the eroded soil is 
pushed downstream by clear water as bedload, but ``muddy'' streams are 
common in the Crooked River subbasin.
    A 2004 Forest Service (FS) Metolius watershed assessment update 
acknowledged the high erosion risk. http://www.fs.fed.us/r6/
centraloregon/projects/planning/major-plans/wa-metolius-update2004-
summary.pdf
    The highest Metolius risk areas were found by the FS to be the 
headwaters of First Creek (shown running ``muddy'' in the Spring, 2009 
photo by Mark Yinger), Jack Creek, Canyon Creek and Brush Creek. The 
assessment stated that ``The Metolius River is spring fed, stable, 
sensitive to sediment--one of the most stable rivers in the world for 
its size, vulnerable to sediment because of the lack of flood events to 
flush gravels clean.''
    The Metolius example and publications regarding the erosion of 
forest soils indicate that wildfires cause significant erosion. The 
soil disturbance caused by the fire fighting equipment likely caused 
more erosion and sediment delivery than the wildfires per se.
    The two 2009 Mark Yinger photos illustrate the normal sediment 
delivery, i.e. bedload movement, in the westside subbasins. This 
unnamed Metolius tributary is between Lake and First Creeks. The photo 
on the left is during May and the water is running clear. The June 
photo on the right shows that the creek had been carrying significant 
amounts of bedload sediment and deposited some of it behind the 
culvert.
    The east side soils, primarily in the Crooked River subbasin, are 
highly erodible but consist of fine grained silts and clays that, when 
eroded travel in the water and are easily visible and monitored as 
turbidity.
    The S. 2895 essentials for reducing erosion and sedimentation from 
forest activities and projects include:

  <bullet> No new roads except for projects that are essential for 
        watershed recovery, or that will not cause soil erosion and 
        sedimentation impacts on an ephemeral, seasonal or permanent 
        channel.
  <bullet> Maximum road-prism width limits that reflect the soils and 
        slopes present, and are smaller/narrower on more erodible soils 
        and/or steeper slopes.
  <bullet> Accelerated decommissioning of non-essential roads to 
        achieve road densities of < one per sq. mile.
  <bullet> Performing subsoiling, or ``tillage'', of compacted soils 
        for road decommissioning or revegetation of disturbed sites in 
        ways that eliminate the potential for transport of eroded soil 
        from the site.
  <bullet> Limiting the use of ATVs to roads suitable for two-wheel 
        drive vehicles.
  <bullet> Soil disturbance slope limits that are specific for the 
        soils present, ranging from 15% to 30%. Steeper sites would 
        require enhanced mitigation measures, for examples reduced 
        weeks of exposure, higher levels of mulching and multiple rows 
        of silt fence. No disturbance on slopes => 30%.
  <bullet> Project and activity design that reduces the grading and 
        soil disturbance area to a minimum.
  <bullet> A time limit in weeks on the exposure of disturbed soils, 
        with no carryover from one activity phase to the next, and 
        requiring a disturbance-free period during high-risk seasons of 
        at least four (4) months.
  <bullet> Establishment of water management systems immediately after 
        grading and soil disturbance begins.
  <bullet> Interim controls including early mulching on slopes steeper 
        than 5 percent, revegetation and temporary sedimentation traps 
        for the 5-year storm recurrence interval runoff.
  <bullet> Transitioning from natural to post-development/activity 
        water conveyance and storage systems within one activity phase, 
        or nine months at most.
  <bullet> Out sloping or in sloping of roads with ditch relief 
        culverts every 200 feet or less.
  <bullet> Maintenance measures that ensure no rutting of the road 
        surface and do not increase the fine material available for 
        erosion.
  <bullet> Minimal compaction and mitigation of all compaction not 
        essential for long-term use of a road.
  <bullet> Silt fences if soil disturbance is within 200 ft of an 
        ephemeral, seasonal or permanent channel.
  <bullet> Sediment catchments downgradient in rills and gullies prior 
        to any soil disturbance.

    Roads.--The Deschutes and Ochoco National Forests contain 
exceptionally high road densities. On the Deschutes, according to a 
March 2010 FS study, there are 8,120 miles at some level of 
maintenance. The Ochoco contains 3,240 miles. The Deschutes road 
density using the ``maintained'' numbers is 3.7 miles of road per sq. 
mi. The Ochoco density using the ``maintained'' numbers is 2.5 miles of 
road per sq. mi.
    ``Oregon Wild'' did an assessment of roads in the forests and 
concluded that the numbers were: ``Deschutes NF--9,784 miles of roads 
(about 3.9 miles of road per sq mile); and the Ochoco NF--5,400 miles 
of roads (3.6 miles of roads per sq mile).'' To paraphrase Oregon 
Wild's statement when the numbers were provided--The figures are from 
an analysis we did a few years ago. Our figures may or may not be close 
to USFS figures. If, for example, they put a berm on a road and it 
still appears to be a road, our analysis would include it as a road but 
theirs would not. Plus we may overestimate some and underestimate 
others.
    A likely possibility is that the FS counted the road prisms that 
were maintained at some level, but Oregon Wild counted all road prisms 
regardless of maintenance or current use.
    Road prisms are a major source of eroded sediment that is 
detrimental to the aquatic ecosystems. Some road prisms may erode less 
with maintenance that eliminates rills, but maintenance, particularly 
``blading'' can bring new soil particles to the surface, which are 
subject to surface erosion. Sediment delivery rates during the road 
construction period and the first few years after construction are 
particularly high.
    The ``decommissioning'' of roads, which is an essential component 
of watershed recovery, can cause erosion-sedimentation. Often 
``subsoiling'', sometimes called ``ripping'' or ``tilling'' is used to 
reduce compaction and/or encourage infiltration and revegetation during 
road decommissioning and to help revegetate soils that have been 
exposed or compacted. The FS photo shows a subsoiler.
    A FS soils scientist stated in March 2010 email communication ``I 
prefer to use the term subsoiling when referring to our Forest tillage 
program. A subsoiler differs from a ripper in that it has wings on the 
bottom of the shanks. The purpose of the wings is to lift and fracture 
the soil across the entire width of a compacted trail without mixing 
the soil horizons. Monitoring has showing that ripper shanks without 
wings do not fracture the entire width of the trail. Another important 
point is that subsoiling does not instantly restore the soil back to 
its un-impacted condition but instead sets up the conditions so the 
soil can rehabilitate at an accelerated rate compared to an area that 
is not subsoiled. Therefore avoidance of as much soil impacts as 
possible is still very important.''
    All Terrain Vehicles.--The FS research on all-terrain erosion rates 
at various sites in the U.S. by Randy B. Foltz documents the 
exceptionally high erosion rates from all terrain vehicles. The rates 
were even higher than forest roads and agricultural lands. The graph 
above presents the findings and the research is described in: http://
forest.moscowfsl.wsu.edu/engr/library/Foltz/Foltz2006e/ASABE2006e.pdf ; 
and http://www.stream.fs.fed.us/news/streamnt/pdf/SN_04_07.pdf
    Stream Temperature.--A February 2009 paper on stream temperature, 
riparian harvest and total harvest in a watershed states, ``stream 
temperature increase was correlated with both the total amount of 
timber harvest in a watershed and the total amount of riparian forest 
harvest in a watershed.'' This is important for understanding the 
significance of the level of logging in any watershed. The February, 
2009 paper is ``STREAM TEMPERATURE RELATIONSHIPS TO FOREST HARVEST IN 
WESTERN WASHINGTON'', by Michael M. Pollock, Timothy J. Beechie, Martin 
Liermann, and Richard E. Bigley. http://www3.interscience.wiley.com/
cgi-bin/fulltext/121663614/PDFSTART
    Wildfire and Fire Fighting.--The watersheds of the Upper Deschutes 
have experienced extensive and damaging wildfires in the last decade. 
Wildfires and the firefighting equipment have particularly affected the 
Metolius subbasin. In 2 years, four times as many acres have burned 
than burned in the previous 100 years. From 1900-1999, 29,449 acres 
burned. In 2002 and 2003, 122,450 acres burned. This is presented by 
the FS Metolius Watershed map of five large fires from 2000 to 2003. 
The largest was the B & B fire.
    The 2004 FS Assessment Update states: ``There are elevated erosion 
risks associated with severely burned areas. . . .Ten debris flows 
(landslides) occurred in the Metolius Basin during an intense winter 
storm in 1996 Nine of the ten debris flows in 1996 were associated with 
managed areas where vegetation had been manipulated in varying degrees. 
Five older debris flows were discovered in the Highway 20 corridor and 
appear to be associated with a similar intense winter storm in 1964. 
Slopes exceeding 25% in areas of stand replacement fire have an 
elevated risk of debris flows within 3 years of the fire as tree roots 
decay and lose soil holding strength. Slope stability in these areas is 
not likely to return to pre-fire levels within the next 20 years, 
although returning shrubs and trees will help stabilize soil.'' 
Surface/sheet erosion was likely also high, but much less visible.
    Whether the damage occurs directly because of the fire in the 
overstory resulting in lack of protective cover and soil instability, 
the equipment used in suppressing the fire, or the damage to riparian 
zones, it's clear that wildfire in the Upper Deschutes presents a 
threat to our native salmonids.
    Tree Removal.--The removal of trees, whether for thinning, biofuels 
or wood, presents the potential for damage to the aquatic ecosystems. 
Logging per se has been reduced in the Upper Deschutes, but biofuels 
and thinning projects present risks to the habitat required for native 
salmonids.
    Passage Barriers.--The fish passage barriers involving road 
culverts are important and prevalent, particularly with the thousands 
of road miles in the two National Forests. These barriers are receiving 
attention from the FS and projects to provide passage merit support.
    Instream, Riparian and Stream Corridor Protection.--According to 
the Forest Service ``31% of Riparian forest areas burned at moderate to 
high severity'' in the Metolius during the B & B Fire''. It's clear 
that forest activities and events affect riparian cover, which affects 
aquatic health. The stream corridor protection and the riparian 
methodology used in the ``Glaze Forest Restoration Project'' should be 
combined, optimized and applied on all forest projects where wildfire 
in the riparian zone could damage the vegetation or coniferous tree 
removal is essential for riparian health. The project is described at: 
http://www.fs.fed.us/r6/centraloregon/projects/units/sisters/glaze/
index.shtml
    Specific, quantitative criteria to prohibit disturbances in the 
stream corridor are essential and S. 2895 implementation should address 
this. Water quality, floodplain function and aquatic life protection 
should be provided through no-disturbance stream corridors, which will 
also provide important habitat for aquatic and terrestrial insects that 
provide food for fish and other aquatic life. Many species of birds, 
mammals, reptiles, amphibians, and invertebrates also require healthy 
riparian habitat for nesting, hiding and birthing cover, travel 
corridors, thermal refuge, and forage.
    The floodplains, riparian zones and adjoining wetlands define the 
stream corridor. Maps are needed of all perennial, intermittent and 
ephemeral floodplains. Intermittent streams are defined as a stream 
which carries water a considerable portion of the time, but which 
ceases to flow occasionally or seasonally because bed seepage and 
evapotranspiration exceed the available water supply. Ephemeral streams 
are defined as a stream channel, which carries water only during and 
immediately after periods of rainfall or snowmelt. The PACFISH and 
INFISH requirements should be expanded to include these concepts and be 
included in S. 2895.
    The floodplain maps can be determined by hydrologic analysis of the 
contributing watersheds using:

  <bullet> HEC-HMS: http://www.hec.usace.army.mil/software/hec-hms/
        index.html or
  <bullet> HSPF: http://www.epa.gov/ceampubl/swater/hspf/ and a stream 
        hydraulics model such as
  <bullet> HEC-RAS: http://www.hec.usace.army.mil/software/hec-ras/

    All planned and existing upstream tree harvest areas and areas 
altered or proposed for alteration from natural conditions must be 
included in the hydrologic analysis of the contributing watershed, 
including roads. Inventories and maps of wetlands and riparian areas 
are also essential.
                                 ______
                                 
          Statement of Richard H. Waring, Ph.D., Corvallis, OR

          1. I am an ecosystem scientist with expertise in forestry and 
        a number of related fields. I provide this declaration to 
        explain scientific and technical deficiencies in the 
        Environmental Assessment for the proposed ``Wildcat Fuels 
        Reduction and Vegetation Management Project'' prepared by the 
        U.S. Forest Service and published in March 2009.
          2. On June 2nd and 3rd, 2009, I toured the Wildcat sale sites 
        numbered 33, 34, 22, 79 and 133 with Karen Coulter, field 
        coordinator for the Blue Mountains Biodiversity Project, and 
        observed the forest composition including standing dead and 
        fallen trees, as well as the herbaceous vegetation. Trees 
        planned to be thinned were marked for cutting, allowing me to 
        assess expected changes in stand structure and composition.
          3. Although the proposed project may temporarily reduce the 
        threat of wildfires, to be effective in the long term, much 
        heavier thinning than proposed is required to reduce the danger 
        of insect outbreaks and to conserve water in the ponderosa pine 
        and mixed conifer types. The present plan lacks an assessment 
        of the effects of selective thinning, whole tree harvesting, 
        and slash disposal on nutrient availability and carbon 
        sequestration.
          4. In the long run, the chosen options for management fail to 
        consider the effects of practices that will continue to 
        simplify stand structure and composition, and thereby reduce 
        biodiversity on the Umatilla National Forest. In addition, the 
        Forest Service fails to disclose the need to ameliorate 
        microclimatic conditions to foster the movement of species from 
        their current environments to similar ones that are predicted 
        to shift to higher elevations or out of northeast Oregon within 
        the next few decades.
          5. There is a general deficiency in the Environmental 
        Assessment on how managed and unmanaged areas interact across 
        the landscape. Specifically, the proposed plan does not 
        recognize how attempts to maintain high populations of elk and 
        cattle impact aspen groves, the role that roads play as a 
        conduit for plant and animal migration, nor the fact that 
        subalpine forests are adapted to large, but infrequent 
        disturbances.
          6. To explain these scientific and technical matters and to 
        underscore what was omitted from the Wildcat Environmental 
        Assessment, I draw on my experience and familiarity with the 
        peer-reviewed literature. For this particular review, I include 
        a few Forest Service publications that counter the proposed 
        management options or summarize state-of-the-art knowledge. My 
        evaluation is organized by management options applied to four 
        forest types, followed by sections on the implications of 
        proposed activities on biodiversity, the implication of climate 
        change, and landscape interactions.
          7. The range of vegetation on which activities are proposed 
        include four broad forest types: dry ponderosa pine; moist, 
        mixed conifers; cool and moist subalpine forests; and groves of 
        aspen. On each of these types, the Forest Service has 
        identified trees to cut, with the intention of disposing of 
        slash by burning, by complete tree harvesting, and by 
        extracting deadwood on the forest floor to generate energy.

                     DRY PONDEROSA PINE FOREST TYPE

          8. The dry ponderosa pine is a forest type through which a 
        ground fire historically burnt every decade or so, which 
        limited the presence of young trees and species with thin bark. 
        This type occurs on small pockets of shallow soil at mid 
        elevations and more extensively at lower elevations, 
        particularly on aspects exposed in the afternoon to direct 
        solar radiation. Forest Service activities are aimed at 
        removing most of the small trees that have established 
        following years of fire suppression activities. They plan to 
        introduce prescribed fires to mimic historical conditions.
          9. Depending on how slash and biomass are disposed of, the 
        plan is biologically sound, assuming sufficient standing dead 
        trees are left to meet wildlife requirements and erosion is 
        minimized during road construction and logging. The proposed 
        practices, however, will reduce soil organic matter, which 
        Jurgensen et al. (1997) consider a critical resource required 
        to sustain forest health and productivity, particularly on 
        drier sites.
          10. At some of the sites, the density of large diameter trees 
        that will be left following treatment is more than 50 per cent 
        of the maximum basal area and leaf area that can currently be 
        supported. Additional thinning of larger diameter trees would 
        be required to protect residual trees from being attacked and 
        killed by mountain pine beetle during an outbreak and to 
        accommodate climatic trends leading to increased natural 
        mortality (van Mantgem et al. 2009). Moreover, residual trees 
        need to be evenly spaced to reduce mortality from bark beetles 
        (Larsson et al. 1983), which would be a major departure from 
        historical conditions (Harrod et al. 1999).

                       MIXED CONIFER FOREST TYPE

          11. The mixed conifer forest type is one where snowmelt has 
        historically been adequate to recharge the soil profile fully 
        each spring so that drought is normally not a problem (Waring 
        et al. 1992). Grand fir, which establishes under the shade of 
        the other species, has notably thinner bark, and because of 
        this feature is easily damaged by fire. With the burning of 
        slash, grand fir will become progressively less abundant in 
        this type, even if large diameter trees were to be left 
        standing. Less shade-tolerant trees with thicker bark will 
        become relative more dominant, even with some selective 
        removal, with implications that will be discussed later.
          12. Experiments in this forest type in northeastern Oregon 
        indicate that nitrogen limits growth and that defoliation of 
        Douglas-fir and true firs by spruce budworm or tussock moth 
        recycles this limiting element and foster increases in stand 
        growth (Waring et al. 1992). Fire generally encourages the 
        establishment of nitrogen-fixing plants, but it may take 
        decades to centuries to restore the nitrogen capital (Jurgensen 
        et al. 1997), particularly in soils lacking molybdenum, an 
        essential micro-nutrient (Silvester 1989). The Environmental 
        Assessment omits discussion on the loss of nitrogen and other 
        elements associated with whole-tree harvesting and the burning 
        of litter and slash that would affect site productivity and the 
        ability of trees to withstand defoliation (Waring and Running 
        2007).

                         SUBALPINE FOREST TYPE

          13. The subalpine forest type rarely burns (Schoennagel et 
        al. 2007), but when it does, most trees are killed (Romme et 
        al. 2006). Larch and lodgepole pine establish on bare soil 
        following a stand replacement fire; Englemann spruce and 
        subalpine fir seed in on duff once shade is provided. Ponderosa 
        pine is not a major component of this forest type because it is 
        subject to snow breakage (Waring 1969).
          14. Thinning in subalpine forests creates unnatural 
        conditions because most species are adapted to regeneration 
        following a stand replacement fire. Although centuryold 
        lodgepole pine can be thinned and residual trees made resistant 
        to bark beetle attack, this requires that up to two-thirds of 
        all trees be removed (Coops et al. 2009) and often results in 
        accelerated windthrow (Veblen et al. 1991).
          15. The subalpine type is usually nitrogen deficient (Waring 
        et al. 1985, Waring and Pitman 1985, Waring et al. 1987 ) and 
        requires considerable time to restore what is lost following 
        fire (Jurgensen et al. 1997) because the main source of 
        nitrogen in this area is atmospheric deposition (Fenn et al. 
        2003). The proposed plan would reduce the available of nitrogen 
        and other nutrients, which is unlikely to improve tree 
        resistance to insects and diseases. This needs to be disclosed, 
        assessed and alternatives considered.
          16. The Environmental Assessment does not adequately 
        recognize the departure from historical conditions that the 
        proposed thinning and fuel reduction project would create in 
        subalpine forests. Young lodgepole pine stands generally do not 
        require thinning because small diameter trees lack sufficient 
        resources (phloem tissue) under the bark to support development 
        of bark beetle larvae (Waring and Pitman 1985).

                              ASPEN GROVES

          17. Attempts to perpetuate aspen by removing competing 
        conifers are likely to prove inadequate. The reason for lack of 
        aspen regeneration is an over abundance of browsing and grazing 
        animals that consume most, if not all aspen regeneration and 
        heavily impact many other species, as noted by Forest Service 
        scientists Shirley and Erickson (2001). Fenced areas are 
        required to allow aspen to regenerate without a reduction in 
        elk and cattle populations. The Environmental Assessments lacks 
        an explanation as to how one can expect to foster successful 
        aspen regeneration while proposing to improve elk habitat 
        without fencing. It might also recognize the role that 
        predators play in allowing aspen to regenerate even with large 
        populations of elk (Larsen and Ripple 2003).

                              BIODIVERSITY

          18. To be effective, the proposed thinning and fuel reduction 
        program will need to be repeated at frequent intervals over 
        wide areas. This will result in simplification of stand 
        structure and a reduction in biodiversity. What are the 
        implications? Forests of mixed ages and species composition are 
        generally not subject to complete defoliation because native 
        insects have discrete numbers of hosts. As a result, the growth 
        of ponderosa pine increases when spruce budworm attack grand 
        fir, and the reverse happens when Pandora moth attack pine in a 
        stand of mixed composition (Speer et al. 2001). There are 
        similar advantages to multi-species stands when it comes to 
        diseases, as outlined in a recent publication on `Managing 
        insects and diseases of Oregon Conifers' (Shaw et al. 2009). 
        The disadvantages of repeated thinning and slash disposal need 
        to be considered particularly in the mixed conifer type.
          19. A diversity of insects favors a wide variety of bird 
        species, each with different requirements to complete their 
        life cycles. Other animals, both resident and migratory, 
        require a range of conditions not available in a forest with 
        simplified structure and frequent disturbance. These tradeoffs 
        are not adequately addressed in the Environmental Assessment.

                             CLIMATE CHANGE

          20. Discussion of climate change is completely omitted from 
        the Environmental Assessment. Yet, over the last half century, 
        the climate has progressively become warmer throughout most of 
        western United States (http://climatewizard.org). As a result, 
        the snowpack melts more quickly, the growing season starts 
        earlier, and vegetation is subjected to longer periods of 
        drought. Although these changes in climate may not totally 
        explain a doubling of tree mortality across the West in the 
        last two decades (van Mantgem et al. 2009), there is no 
        question that drought can cause an increase in tree mortality 
        (Bigler et al. 2008). Less tree cover may reduce water use, but 
        it will also encourage the growth of understory vegetation 
        which contributes more fine fuels in a given season than do 
        leaves shed slowly from dying trees (Veblen et al. 2000).
          21. The trends in climate observed over the last 50 years are 
        likely to accelerate. The Environmental Assessment should 
        consider that peer-reviewed literature indicates that both 
        western larch and Engelmann spruce are predicted to be unable 
        to survive in most of northeastern Oregon by 2030 (Rehfeldt et 
        al. 2006). If shifts in climate are recognized as highly 
        probable, achieving historical conditions through the proposed 
        management may be impossible. Certainly thinning cannot improve 
        residual tree vigor during an extended drought (Kolb et al. 
        2007).

                         LANDSCAPE PERSPECTIVE

          22. The Environmental Assessment does not consider the 
        ramifications of management practices on areas not directly 
        involved, such as the protected riparian zone and adjacent 
        wilderness area. An enlargement of the protected zone along 
        streams might be considered to maintain populations of species 
        adapted to less disturbed conditions. It might also serve as a 
        corridor, as do roads (Lugo and Gucinski 2000), for allowing 
        species to move up or down slope in a changing climate. At the 
        same time, a connected corridor of dense, multi-storied 
        vegetation is a conduit for the spread of wildfire (Agee 1998). 
        Alternatives that should be considered are large blocks of 
        different aged forests, a shifting mosaic of age classes 
        (Everett et al. 1994) and the advantages of letting fires burn 
        in wilderness areas (Collins and Stephens 2007).
          23. The management of National Forests to enhance carbon 
        storage is under discussion with controversy over the relative 
        losses from wildfires versus those associated with harvesting 
        and fuel management. Recent publications from faculty at Oregon 
        State University have clarified these issues, and the kind of 
        management proposed on the Umatilla National Forests should 
        evaluate the proposed plans in light of these findings 
        (Campbell et al. 2007, Mitchell et al. 2009).

                    CONCLUSIONS AND RECOMMENDATIONS

          24. The Environmental Assessment fails to take into account 
        the longer-term implications of the proposed management 
        options. Climatic conditions are changing and these changes are 
        predicted to accelerate. This makes using historical conditions 
        a questionable benchmark. The dry ponderosa pine type may 
        become more extensive, but if this happens, larch, Engelmann 
        spruce and many other species may become rarer. To assess the 
        impacts and efficacy of the proposed project, the Forest 
        Service must disclose how repeated thinning and fuel reduction 
        efforts will affect tree nutrition, because nutrient-stressed 
        trees will become more susceptible to insect and disease 
        attack.
          25. Some modifications of the proposed plan are required, 
        particularly for the mixed conifer and subalpine forest types 
        where stand structure and composition will be highly modified. 
        Even in the dry ponderosa pine type, where thinning and fire 
        are logical management options, the spacing of trees may need 
        to be much wider than proposed to increase resistance to bark 
        beetle attacks and to adapt to trends in climatic conditions. 
        To increase aspen groves will require a significant reduction 
        in elk and cattle on the forest, or extensive fencing. The 
        proposal to remove conifers will have little effect.
          26. The Forest Service has not taken into account a landscape 
        perspective in the Environmental Assessment or looked at how 
        blocks of vegetation in different stages of development can be 
        positioned on the landscape to reduce the spread of fire. 
        Without taking a landscape approach, the Forest Service will 
        not be able to reduce the threat from fire or maintain 
        biodiversity in a changing climate.
          27. The Forest Service would be prudent to consider 
        broadening buffer strips along streams and roads to offer 
        maximum protection for areas least likely to burn or to become 
        drought-stressed, and best able to provide corridors for flora 
        and fauna to adjust to on-going climatic change. Large blocks 
        of mixed conifer and most of the subalpine forests would best 
        remain untreated. In this way, benchmarks will be available for 
        comparing response to wildfires and insect and disease 
        outbreaks. The reserved blocks will also offer refuges to flora 
        and fauna not adapted to frequent disturbance.
          28. In summary, to meet the stated objectives of the Wildcat 
        Environmental Assessment requires a much broader perspective. 
        The Forest Service must disclose and consider the implications 
        of climate change, the implications of simplifying stand 
        structure, landscape interactions, and the losses of nutrients 
        and organic matter associated with proposed harvesting and fuel 
        reduction efforts.
                                 ______
                                 
   Statement of William H. Schlesinger, Member, National Academy of 
                               Sciences*
---------------------------------------------------------------------------
    * Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
    We write to bring to your attention the importance of accurately 
accounting for carbon dioxide emissions from bioenergy in any law or 
regulation designed to reduce greenhouse gas emissions from energy use. 
Proper accounting can enable bioenergy to contribute to greenhouse gas 
reductions; improper accounting can lead to increases in greenhouse gas 
emissions both domestically and internationally.
    Replacement of fossil fuels with bioenergy does not directly stop 
carbon dioxide emissions from tailpipes or smokestacks. Although fossil 
fuel emissions are reduced or eliminated, the combustion of biomass 
replaces fossil emissions with its own emissions (which may even be 
higher per unit of energy because of the lower energy to carbon ratio 
of biomass). Bioenergy can reduce atmospheric carbon dioxide if land 
and plants are managed to take up additional carbon dioxide beyond what 
they would absorb without bioenergy. Alternatively, bioenergy can use 
some vegetative residues that would otherwise decompose and release 
carbon to the atmosphere rapidly. Whether land and plants sequester 
additional carbon to offset emissions from burning the biomass depends 
on changes both in the rates of plant growth and in the carbon storage 
in plants and soils. For example, planting fast-growing energy crops on 
otherwise unproductive land leads to additional carbon absorption by 
plants that offsets emissions from their use for energy without 
displacing carbon storage in plants and soils. On the other hand, 
clearing or cutting forests for energy, either to burn trees directly 
in power plants or to replace forests with bioenergy crops, has the net 
effect of releasing otherwise sequestered carbon into the atmosphere, 
just like the extraction and burning of fossil fuels. That creates a 
carbon debt, may reduce ongoing carbon uptake by the forest, and as a 
result may increase net greenhouse gas emissions for an extended time 
period and thereby undercut greenhouse gas reductions needed over the 
next several decades\1\.
---------------------------------------------------------------------------
    \1\ J. Fargione, J. Hill, Tilman D., Polasky S., Hawthorne P 
(2008), Land Clearing and the Biofuel Carbon Debt, Science 319:1235-
1238.
---------------------------------------------------------------------------
    Many international treaties and domestic laws and bills account for 
bioenergy incorrectly by treating all bioenergy as causing a 100% 
reduction in emissions regardless of the source of the biomass. They 
perpetuate this error by exempting carbon dioxide from bioenergy from 
national emissions limits or from domestic requirements to hold 
allowances for energy emissions. Most renewable energy standards for 
electric utilities have the same effect because bioenergy is viewed as 
a renewable energy even when the biomass does not eliminate or even 
reduce greenhouse gas emissions. This general approach appears to be 
based on a misunderstanding of IPCC guidance\2\. Under some scenarios, 
this approach could eliminate most of the expected greenhouse gas 
reductions during the next several decades.
---------------------------------------------------------------------------
    \2\ T.D. Searchinger, S.P. Hamburg, J.Melillo, W. Chameides, 
P.Havlik, D.M. Kammen, G.E. Likens, R. N. Lubowski, M. Obersteiner, M. 
Oppenheimer, G. P. Robertson, W.H. Schlesinger, G.D. Tilman (2009), 
Fixing a Critical Climate Accounting Error, Science 326:527-528
---------------------------------------------------------------------------
    U.S. laws will also influence world treatment of bioenergy. A 
number of studies in distinguished journals have estimated that 
globally improper accounting of bioenergy could lead to large-scale 
clearing of the world's forests\3\.
---------------------------------------------------------------------------
    \3\ E.g., J.M. Mellillo, J.M. Reilly, D.W. Kicklighter, A.C. 
Gurgel, T.W. Cronin, S. Patsev, B.S. Felzer, X. Wang, C.A. Schlosser 
(2009), Indirect Emissions from Biofuels: How Important?, Science 
326:1397-1399; Marshall Wise, Katherine Calvin, Allison Thomson, Leon 
Clarke, Benjamin Bond-Lamberty, Ronald Sands, Steven J. Smith, Anthony 
Janetos, James Edmonds (2009), Implications of Limiting CO2 
Concentrations for Land Use and Energy, Science 324:1183-1186
---------------------------------------------------------------------------
    The lesson is that any legal measure to reduce greenhouse gas 
emissions must include a system to differentiate emissions from 
bioenergy based on the source of the biomass. The National Academy of 
Sciences has estimated significant potential energy production from the 
right sources of biomass\4\. Proper accounting will provide incentives 
for these sources of bioenergy.
---------------------------------------------------------------------------
    \4\ National Research Council (2009), Liquid Transportation Fuels 
from Coal and Biomass: Technological Status, Costs, and Environmental 
Impacts (National Academy of Sciences, Washington, D.C.)


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
